<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]

                      DEPARTMENT OF DEFENSE--CIVIL

                         DEPARTMENT OF THE ARMY

                       CORPS OF ENGINEERS--CIVIL

        Prepared Statement of the Arkansas Waterways Commission
    To Chairman Simpson and Members of the Subcommittee: Thank you for 
the opportunity to provide the Arkansas Waterways Commission's 
perspective on fiscal year 2015 appropriations for inland waterways. 
The Arkansas Waterways Commission is the sole State agency responsible 
for developing, promoting and protecting waterborne transportation on 
Arkansas' five navigable rivers: the Arkansas, Mississippi, Ouachita, 
Red and White Rivers.
    We are disappointed that the President's fiscal year 2015 budget 
submission reduces the U.S. Army Corps of Engineers' (USACE) budget by 
$906,500,000, a 17 percent reduction from what Congress enacted in 
fiscal year 2014. The Arkansas Waterways Commission urges that the 
USACE budget remain at the same level as fiscal year 2014.
    We work with three districts and two divisions of USACE; their 
funding is critical to serve the diversity of our waterways, each with 
its own individual needs.
    For example, the President's fiscal year 2015 budget does not 
provide any funds for small port dredging; public ports on the 
Mississippi River in Arkansas are considered small ports and, as such, 
will not be dredged under the President's budget. The 2014 Omnibus 
Budget Bill, agreed to by the House and Senate, allowed Arkansas' small 
ports to be dredged by the Corps after a competitive process. We 
believe this is a best practice that should be continued in the future.
The Fourth R
    The Administration talks of the importance of infrastructure 
projects: roads, rails, and runways, but ignores the ``fourth r''--
rivers. We cannot minimize the importance of our national waterways 
system. According to an economic impact analysis conducted by the Mack-
Blackwell Rural Transportation Center at the University of Arkansas, 
the impact of inland waterways is $1.94 billion to our State.
    Arkansas ranks third in the Nation in inland waterway mileage and 
one of handful of States that has more than one inland waterway.

------------------------------------------------------------------------
                                                                  River
                             State                                Miles
------------------------------------------------------------------------
1. Alaska......................................................    5,500
2. Louisiana...................................................    2,820
3. Arkansas....................................................    1,860
4. Kentucky....................................................    1,590
5. Florida.....................................................    1,540
6. Alabama.....................................................    1,270
7. North Carolina..............................................    1,150
8. Illinois....................................................    1,100
9. Washington..................................................    1,060
10. Missouri...................................................    1,030
11. Tennessee..................................................      950
12. Mississippi................................................      870
------------------------------------------------------------------------
* U.S. Army Corps of Engineers, Waterborne Commerce Statistics Center,
  National Waterway Network, personal communication as of March 20,
  2012.

    The American Society of Civil Engineers' 2013 Report Card for 
America's Infrastructure gave the Nation's ports a grade of ``C'' and 
inland waterways a grade of ``D-'' These grades are unacceptable for 
our Nation's waterways system that is critical to keeping our country 
globally competitive. Reduced funding will cause infrastructure to 
further degrade.
    Reduced funding to the USACE to operate and maintain our waterways 
is short sighted. This funding is an investment to keep our Nation 
competitive in a global economy.
    Thank you for the opportunity to present this testimony to the 
Subcommittee.

    [This statement was submitted by Gene Higginbotham, Executive 
Director, Arkansas Waterways Commission.]
                                 ______
                                 
   Prepared Statement of the Association of State Floodplain Managers
    The Association of State Floodplain Managers appreciates this 
opportunity to comment on aspects of the Fiscal year 2015 Budget 
Request for the Army Corps of Engineers--Civil Works. We wish to 
express the strong support of our members for the several technical 
assistance programs of the Corps--Flood Plain Management Services, 
Planning Assistance to States, Silver Jackets and the National Flood 
Risk Management Program. Additionally we strongly support the funding 
request for the Water Resources Priorities Study.
    The Association of State Floodplain Managers and its 35 State 
Chapters represent more than 15,000 State and local officials and other 
professionals who are engaged in all aspects of floodplain management 
and hazard mitigation including mapping, engineering, planning, 
permitting, hydrology, forecasting and management of floodplain areas. 
All ASFPM members are concerned with reducing loss of life and property 
due to flooding. Our website is: www.floods.org.
    Disaster related costs to the Nation continue to rise. Flooding is 
the most frequent and most predictably costly type of natural disaster 
that can affect every part of the country. Many localities and States 
in the Nation can be vastly assisted in their efforts to reduce flood 
related loss of life and property through technical assistance from the 
Army Corps of Engineers. The Corps has the capacity, not only to 
design, build and maintain important flood control structures, but to 
assist local jurisdictions in assessing their flood risk, suggesting 
solutions and helping to design ways to lessen vulnerability to 
flooding through both non-structural and small structural means.
    These technical assistance programs are funded at very low levels 
when compared to the average costs of Corps projects, yet they can 
yield cost reduction benefits that far exceed the small investment. So 
many communities and counties around the Nation cannot afford an in-
house engineer or to contract with an engineering firm. This is where 
the Army Corps of Engineers can bring its expertise to help them 
thoughtfully and expertly address their flood challenges.
    Flood Plain Management Services (FPMS) was funded in fiscal year 
2014 at $8 million and the request for fiscal year 2015 is $8 million. 
Planning Assistance to States (PAS) was funded at $4 million in fiscal 
year 2014 and the fiscal year 2015 request is for $3.5 million. The 
National Flood Risk Management Program (NFRMP) was funded at $5 million 
for fiscal year 2014 and the request for fiscal year 2015 is $5 
million. Funding and support for the very successful intergovernmental 
Silver Jackets initiative is derived from these programs. Because there 
is no line item for Silver Jackets, it is not clear to us what level of 
funding is planned for fiscal year 2015, but budget materials indicate 
intent to expand the current Silver Jackets efforts in 41 States to at 
least another 3 States in fiscal year 2015.
    ASFPM members know first hand the value of these programs in 
reducing flood losses at very low cost to taxpayers. We strongly urge 
expansion of these technical assistance programs to the greatest amount 
feasible within the subcommittee's budget constraints. We note that the 
House passed version of the Water Resources Reform and Development Act 
includes authorization for use of PAS funds to support State 
development of levee safety programs. Should this provision be included 
in the House-Senate Conference Report on the bill and signed into law, 
the need for additional PAS funds is clear. The Senate version of the 
bill significantly increased the authorization levels for both PAS and 
FPMS.
    ASFPM is pleased to note the $500,000 budget request for the Water 
Resources Priorities Study authorized in Section 2032 of the 2007 WRDA. 
We view this study of the Nation's vulnerability to flooding as 
extremely important for understanding the scope of our challenge and 
for recommending ways to improve existing programs and strategies. 
Given the increasing costs to the Nation associated with flood 
disasters and the need to consciously build in greater resiliency, it 
is critical that we gain a more clear grasp of the risks and 
comprehensive (as well as specific) suggestions to guide future policy 
and programs. We strongly urge the subcommittee to fund this critical 
study.
    Thank you very much for the opportunity to make these 
recommendations about the fiscal year 2015 budget request for the Army 
Corps of Engineers--Civil Works. If you have any questions, please 
contact ASFPM Executive Director, Chad Berginnis., at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e487868196838d8a8a8d97a482888b8b8097ca8b9683ca">[email&#160;protected]</a>

    [This statement was submitted by Chad Berginnis, Executive 
Director, Association of State Floodplain Managers.]
                                 ______
                                 
    Prepared Statement of Dr. Sam Hunter, the Little River Drainage 
                                District
    My name is Sam M. Hunter, D.V.M. I am a veterinarian, landowner, 
and farmer, and I reside in Sikeston, Missouri. I am the President of 
the Board of Supervisors of The Little River Drainage District, the 
largest such entity in the Nation. Our district serves as a drainage 
outlet and provides flood control to parts of seven counties in 
southeast Missouri. We also provide flood protection to a sizable 
portion of northeast Arkansas. Our district is funded solely by the 
annual assessment of benefits of more than 3,500 landowners. Today, I 
would like to discuss funding for the U.S. Army Corps of Engineers, 
more specifically the Mississippi River and Tributaries (MR&T) which is 
a line item in the Civil Works budget.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley and the value it provides this great Nation.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our great Nation. After that devastating event Congress in its 
infinite wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this high value, high return, much needed 
investment.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great system. 
Also, our Nation receives three billion dollars of transportation rates 
savings each year largely due to the reliability of a navigation 
channel afforded by the MR&T System. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and proper maintenance. What an example of Federal and local 
partnership and investment for our great Nation this project has been! 
I challenge you to find any other project of any nature which 
approaches the benefits of this system.
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a two-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river from excessive rainfall.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force (the system provides an inner coast 
unexposed to arrival by sea).
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill the 
Federal obligatory part of the system and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately deliver $500 million each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits were also realized 
during the low flow event experienced on the Mississippi River. The 
hydraulic improvements that allowed a record flood event to pass at a 
0.8 foot lower elevation in 2011 than in 1937, also allow barge traffic 
and a near record low event experienced in 2012-2013. If it were not 
for the MR&T system improvements barge traffic during the low water 
event would have been nonexistent.
    We also thank you again for the understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:
SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas- Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas- The regulations required by subsection
    (a) shall--(2) require the expansion of areas of special flood 
hazards to include areas of residual risk, including areas that are 
located behind levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program-

       (2) LIMITATION--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.

    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today. Making 
the total Federal and local investment in the MR&T system over 30 
billion dollars. Because of this, it is still necessary to discuss the 
new policies being implemented by the Federal Emergency Management 
Agency in their Map Modernization Program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years, useless. Even if our levees are 
Federal Levees, have obtained the highest achievable maintenance rating 
and the passing of a record flood in 2011 this Zone ``X'' (shaded) 
designation will be placed on all new flood maps. Furthermore, the 
recommendations from the National Levee Safety Committee, if used, 
force unachievable maintenance standards and predatory flood plain 
management tactics. This will needlessly destroy economic development 
for over 22,000,000 acres of land in this country. Please do not use a 
``one size fits all'' approach and place false fear in the minds of 
people living behind levees. These flood insurance premiums, because of 
the support of Congress, the hard work of the U.S. Army Corps of 
Engineers and local levee and drainage districts across this country, 
are not necessary but do create a nice funding mechanism for future 
disasters.
    The Mississippi Valley Flood Control Association also asks the 
Congress to support the Upper Mississippi River Comprehensive Plan 
(UMRCP). The impact of the flood of 1993 on the Upper Mississippi was 
devastating leaving $15 Billion in damages, loss of life and damage to 
72,000 homes. In 2008 the Upper Mississippi was again ravaged by 
catastrophic flooding and again in 2011 flooding costs top $360 Million 
in infrastructure damage. The Upper Mississippi River Comprehensive 
Plan's system approach and the Mississippi River and Tributaries 
Project needs to be properly funded for protection of the entire 
Mississippi River Valley.
    The Mississippi Valley Flood Control Association also asks the 
Congress to support the Authorization and Appropriations for the 
dredging of MR&T and Non-MR&T Ports and Harbors. Flood Control and 
Navigation interests go hand in hand and you cannot have Flood Control 
without Navigation.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italians have done it and so can we if 
we treat flood control as something that we must do. The citizens of 
this great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that four things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that cannot. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. Fourth, investment in 
infrastructure throughout the Mississippi River watershed. The United 
States has the largest inland waterway navigation/commerce system in 
the world. This water commerce system is positioned in the center of 
the country and the infrastructure is the envy of the civilized world. 
This system keeps us competitive in the world market and must be 
properly maintained and operated. It is our opinion that these things 
must be done, for without flood control, nothing else really matters. I 
close with a simple reminder. The MR&T system is not complete and 
therefore will not pass the Project Design Flood! Thank you for your 
leadership and the resulting $100's of billions of dollars averted 
because you supported and funded the greatest civil works project on 
the planet . . . the MR&T!
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    We the undersigned groups urge your support of an increase in the 
U.S. Army Corps of Engineers' budget request from $48,771,000 in fiscal 
year 2015 to the Corps' capability level of $70 million for the 
Missouri River Recovery Program (MRRP).
    The requested amount of $48,771,000 would be the smallest MRRP 
budget in years, at a time when more, not less, funding is needed.
    The MRRP is the Nation's largest restoration effort on America's 
longest river. The Missouri River basin encompasses 530,000 square 
miles and covers part or all of ten States. Increased funding for the 
MRRP is urgently needed and warranted to recover and restore critical 
aquatic and terrestrial habitats. Increasing funding in the MRRP will 
not only recover the river but also enhance flood control, increase job 
creation, improve economic growth, and advance recreational 
opportunities for families throughout the basin.
    The Corps' capability of $70 million for the MRRP in fiscal year 
2015 reflects the Nation's priorities for investments that fund 
development, management, restoration, as well as needed protection of 
our invaluable water and related resources. An increase in MRRP funding 
to this level will continue successful projects such as the Schilling 
Wildlife Management Area and the Cooper Nuclear Power Station in 
Nebraska, Hamburg Bend in Iowa, and the Gunderson Backwater Project in 
South Dakota.These projects demonstrate that MRRP efforts can achieve 
the goals of restoring habitat while the river's authorized purposes 
continue.
    Restoration efforts have triggered huge job growth in other areas 
of the country. Similar economic impact can occur throughout the 
Missouri River Basin if the funding for the MRRP is increased and the 
restoration efforts move forward.
    An average of $2 billion in benefits occurs annually from the 
Corps' current operation of the Missouri River. The MRRP is designed to 
address requirements for the loss of habitat from the day to day 
operation for the eight authorized purposes as required in the 
Biological Opinion, the Water Resource Development Acts of 1986, 1999, 
and 2007 and the 1958 Fish and Wildlife Coordination Act.
    Missouri River restoration will provide long-term economic and 
environmental benefits and improve opportunities for more families to 
enjoy the Missouri River. We respectfully ask for your support for 
funding the full $70 million capability for the Missouri River Recovery 
Program in the fiscal year 2015 budget.
    We also urge you to oppose any provision that restricts future 
funding for the Missouri River Ecosystem Restoration Plan (MRERP) and 
the Missouri River Authorized Purposes Study (MRAPS).
    The MRERP is needed to complete the restoration of one of America's 
greatest rivers with crucial involvement of stakeholders and local 
government entities.
    The MRAPS was started and needs to be completed so, for the first 
time since passage of the 1944 Flood Control Act, the people of the 
basin will be able to help determine the current and future needs of 
the Missouri River instead of what was envisioned seven decades ago.
    We sincerely thank you for your time and consideration.
    American Rivers
    Audubon Society
    Delta Waterfowl Foundation
    Endangered Habitats League
    Friends of Lake Sakakawea--North Dakota
    Iowa Rivers Revival
    Izaak Walton League of America
    Jim Becic, Environmental Coordinator--Papio Natural Resource 
District--Omaha,
    NE
    Lincoln, NE Chapter--Izaak Walton League of America
    Missouri Audubon
    Missouri Coalition for the Environment
    Missouri Valley Group--Sierra Club
    Missouri Valley Waterfowlers Association--Iowa
    Nebraska Chapter of the American Fisheries Society
    Nebraska Chapter of the Sierra Club
    Nebraska Game and Parks Commission
    Nebraska Wildlife Federation
    North Dakota Wildlife Federation
    Rapid City Chapter--Izaak Walton League of America
    Sierra Club
    South Dakota Chapter--Sierra Club
    South Dakota Wildlife Federation
    The Conservation Fund
    The Living River Group of the Sierra Club
    Wachiska Audubon Society--Lincoln, NE
                                 ______
                                 
     Prepared Statement of the National Waterways Conference, Inc.
    Dear Chairman Feinstein and Ranking Member Alexander: On behalf of 
the members of the National Waterways Conference, Inc., I am writing to 
express our concerns about the Administration's fiscal year 2015 budget 
for the U.S. Army Corps of Engineers' Civil Works program.
    As this committee well knows, reliable, well-maintained water 
resources infrastructure is fundamental to America's economic and 
environmental well-being, and is essential to maintaining our Nation's 
competitive position within the global economy. Our water resources 
infrastructure provides life-saving flood control, needed water 
supplies, shore protection, water-based recreation, environmental 
restoration, and hydropower production. Moreover, waterways 
transportation is the safest, most energy-efficient and environmentally 
sound mode of transportation.
    The President's budget for fiscal year 2015 would fund the Civil 
Works program at a level nearly $1 billion less than the Congress 
appropriated for the current fiscal year. This request, contrary to the 
priorities set forth by the Congress in the Consolidated Appropriations 
Act, 2014, fails to recognize the critical role of our Nation's water 
resources infrastructure to a robust economy, job creation, public 
safety and environmental well-being.
    We appreciate the additional funding in the fiscal year 2014 
omnibus appropriations act, along with the criteria for utilization of 
that additional funding, and encourage the committee to use that 
process in the fiscal year 2015 energy and water bill. We urge the 
committee not to let stand the across-the-board cuts in construction, 
operations and maintenance, and investigations in the President's 
budget, as those devastating cuts would result in the continued delay 
or stoppage of many critical projects. Requiring work plans to detail 
the funding allocations is a step in the direction towards ensuring 
that these investment decisions are made in an open and transparent 
process.
    We also appreciate the inclusion in the fiscal year 2014 omnibus of 
the statement of concern about the ongoing effort to update the Water 
Resources Principles and Guidelines, along with the continued 
prohibition on use of funds in this proceeding and the reporting 
requirement should the Interagency Guidelines be finalized. We support 
the continued prohibition on use of any funds to develop or implement 
rules or guidance related to the ongoing proceeding at the Council on 
Environmental Quality until such time as the revision is modified to 
reflect the direction set forth in the Water Resources Development Act 
of 2007.
    We are mindful of the fiscal constraints facing the Nation, and the 
difficult choices that must be made to ensure our Nation's fiscal well-
being. However, investments in water resources projects are essential 
to the Nation's economic vitality, public safety, environmental health 
and competitive position within the global economy. Our Nation simply 
cannot afford the negative economic impacts, the diminished export 
capabilities and the detriment to our way of life that surely would 
result if we fail to invest in our water infrastructure.

    [This statement was submitted by Jim Oliver, Amy W. Larson, Esq., 
National Waterways Conference, Inc.]
                                 ______
                                 
             Prepared Statement of the Nature Conservancy's
    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to present The Nature Conservancy's testimony on the fiscal 
year 2015 appropriations for the U.S. Army Corps of Engineers (Corps) 
and Bureau of Reclamation. The Nature Conservancy is dedicated to 
saving the lands and waters on which all life depends. Our on-the- 
ground conservation work is carried out in all 50 States and over 30 
foreign countries and is supported by approximately one million 
members.
    We recognize the challenges of working in a constrained fiscal 
environment. But we also recognize the critical importance of our water 
resources and the benefits these resources provide to the economy, the 
quality of life in our communities, and the health of our people.
    We believe the Nation must invest wisely with an integrated 
watershed scale approach to solving the problems that are being 
exacerbated by changing weather patterns that are testing our 
assumptions about the design of water resources infrastructure; we are 
seeing more droughts, more floods, and larger coastal storms than in 
previous years. Additionally the demands on water use are increasing 
from a growing U.S. population and increasing agricultural production.
    We as a Nation must deal with these issues. Fortunately, we are now 
beginning to understand the very real value and cost-effectiveness of 
natural infrastructure (wetlands, floodplains, healthy forests, coastal 
barrier islands, oyster and coral reefs) in solving water resource 
management problems. The Nature Conservancy is focused on supporting 
the programs and investments needed to ensure economic and 
environmental benefits are enhanced today and made sustainable for 
tomorrow.
    We support building this sustainability into the management of our 
Nation's water infrastructure, including the ecosystem restoration 
projects so essential to ensuring that sustainability. These ecosystem 
restoration projects pay dividends through natural flood control, 
higher quality water, sustaining commercial fisheries, and supporting 
recreation and tourism. With impacts stretching out for decades to 
come, the projects and proposals that follow reap high returns on 
investment.
    The Conservancy would like to thank the Subcommittee for supporting 
the restoration of large scale restoration programs over the last 
decade. These programs have been essential to restoring and maintaining 
some of America's most precious and imperiled ecosystems. We are also 
appreciative of past support for smaller-scale projects that provide 
cumulative benefits and serve as powerful demonstrations of effective 
restoration. If you have any further questions on our comments to the 
Energy & Water appropriations bill, please do not hesitate to contact 
me.
Corps Construction Priorities
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--
The fact that the Corps selected Hamilton City for a new start 
construction project in fiscal year 2014 is a testament to the 
innovative dual nature of the project: increasing flood protection for 
Hamilton City while restoring approximately 1,500 acres of riparian 
habitat. The Conservancy strongly supports the $3,800,000 million 
proposed in fiscal year 2015 budget.
    Chesapeake Bay Oyster Recovery.--This project will build on recent 
progress and continue to increase the scale of oyster restoration in 
the Chesapeake Bay. Scientists in Maryland have estimated that oysters 
in just one Chesapeake tributary--the Choptank River--remove pollution 
that would otherwise cost waste water treatment systems $300,000/year 
to remove. The Conservancy supports the $5 million proposed in the 
fiscal year 2015 budget.
    South Florida Ecosystem Restoration Program.--The Federal 
Government has made substantial progress on Everglades' projects, and 
we encourage continued funding for authorized CERP projects. At a 
minimum, The Conservancy supports the $65,500,000 proposed for the 
South Florida Ecosystem Restoration Program for construction in the 
fiscal year 2015 budget.
    Upper Mississippi River Environmental Management Program (EMP).--
Authorized in 1986, this program supports coordinated habitat 
rehabilitation and enhancement projects in the Upper Mississippi River 
system. Over the 25 years of the program, the Corps has completed more 
than 55 projects, benefiting over 107,000 acres of aquatic and 
floodplain habitat. Currently, 35 projects in the program are in 
planning, design, or under construction. Completion of these projects 
will benefit an additional 75,000 acres of aquatic and floodplain 
habitat. The Conservancy supports the $33,170,000 proposed in the 
President's budget for EMP in fiscal year 2015.
    Missouri River Fish and Wildlife Recovery Program (MRRP).--Within 
the Missouri River basin, MRRP activities assist with recovery and to 
species listed under the Endangered Species Act and the ecosystems on 
which they depend, address the effects of the operation of the Missouri 
River Mainstem Reservoir System, the Missouri River Bank Stabilization 
and Navigation Project (BSNP), and the Kansas River Project. Only 
funding of activities to comply with the United States Fish and 
Wildlife Service's Biological Opinion is being requested in fiscal year 
2015 funding priority being placed on compliance will delay mitigation 
real estate acquisition required by the Fish and Wildlife Coordination 
Act. The Conservancy supports $48,771,000 proposed for funding in 
fiscal year 2015 and requests any re-allocation of funding within the 
program be used for mitigation real estate acquisition.
    Chicago Sanitary and Ship Canal Dispersal Barrier.--Invasive 
plants, invertebrates and fish pose serious threats to the biodiversity 
and fisheries of the Great Lakes and Mississippi River basins, which 
are home to nearly 50 percent of our Nation's freshwater fish species 
and support sport and commercial fisheries worth billions of dollars. 
This project seeks to prevent the immediate invasion of the Great Lakes 
by Asian carp by completing three electronic barriers in the 
Construction phase. The Nature Conservancy supports the fiscal year 
2015 budget request of $29,000,000.
    Louisiana Coastal Area Ecosystem Restoration.--The Nature 
Conservancy supports the fiscal year 2015 request of $10,000,000 for 
the construction start of this project.
General Investigation Priorities
    Interbasin Control of Great Lakes and Mississippi River Aquatic 
Nuisance Species.--The Conservancy encourages Congress to address the 
urgent problem of invasive species, and at a minimum, supports no less 
than $500,000 for fiscal year 2015.
    Illinois River Basin Restoration Program.--This Federal-State 
partnership sustains the health of the entire Illinois River Basin 
through projects that restore habitats, species, and the natural 
processes that sustain them. It complements other Federal programs such 
as the Illinois Conservation Reserve Enhancement Program and 
Environmental Management Program of the Upper Mississippi, yet is 
unique in its basin-wide approach to restoration. The Conservancy 
supports the $400,000 funding proposed for this program in fiscal year 
2015.
    Lower Mississippi River Resource Assessment: Commercial navigation 
channelization and flood control structures have accelerated erosion, 
channel incision and the loss of floodplain connection along the Lower 
Mississippi River and its tributaries. Working with a cost share 
partnership that includes The Nature Conservancy, the Department of 
Interior, and six basin States, the Corps will evaluate river 
management, habitat, and public access to recommend actions for 
addressing current and future needs. The Conservancy and partners will 
provide to Congress the Watershed Report in fiscal year 2015 with 
recommendations to implement actions for habitat and recreation 
measures and the need for better understanding of the Lower Mississippi 
River through monitoring.
    Willamette River Floodplain Restoration Study.--The Corps and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams on the Willamette River and 
incorporate those flows into dam operations to improve fish and 
wildlife habitat and community flood protection. Additionally, this 
study has assessed the potential for floodplain restoration in the 
Middle Fork and Coast Fork tributaries of the Willamette River to 
reduce flood damage while restoring natural wetlands and promoting 
ecosystem restoration. The Conservancy supports the $500,000 proposed 
in fiscal year 2015 for preconstruction engineering and design.
    Yellowstone River Corridor Comprehensive Study.--Funding these 
ongoing economic, fisheries, and wetlands studies will help ensure that 
the longest free-flowing river in the lower 48 States maintains its 
natural functions while supporting irrigation and other uses of its 
waters. The study will help determine the significance of the 
cumulative effects of water use on aquatic species and riparian 
hardwood forests, while guiding the establishment of beneficial 
management practices. The Conservancy supports the proposed $295,000 
for fiscal year 2015.
    Puget Sound Nearshore Marine Habitat Restoration.--This study 
funded at $200,000 in the fiscal year 2014 budget when completed, will 
identify restoration and protection needs and opportunities in the 
nearshore regions of Puget Sound. The Sound supports the second largest 
U.S. port (combined Ports of Seattle and Tacoma) for container traffic 
that has accounted for over $70 billion in foreign trade; it is an 
economic priority to ensure that Puget Sound maintains the ecological 
resiliency to sustain vital services for both people and nature. The 
Conservancy supports $200,000 in fiscal year 2015 to carry out this 
investigation.
    Skokomish River General Investigation.--The Skokomish River is the 
largest and most diverse source of freshwater to Hood Canal. Today, the 
degraded riverine and estuarine aquatic habitat has caused a decline in 
the population of critical fish and wildlife species. The Skokomish 
River general investigation presents a rare opportunity to restore 
critical natural processes and lost habitat including the restoration 
of a significant estuary, ultimately supporting the overall health of 
Hood Canal and Puget Sound. The Conservancy supports $650,000 proposed 
to carry out this investigation in fiscal year 2015.
Continuing Authorities Program
    Section 1135, Project Modifications for Improvement of the 
Environment and Section 206, Aquatic Ecosystem Restoration.--Adequate 
recent funding for the CAP programs has been critical for a Section 
1135 project at Spunky Bottoms, IL and on the Lower Cache River in 
Arkansas; as well as a Section 206 project at Emiquon East, IL. These 
serve as model floodplain restoration and reconnection projects. Demand 
for these valuable programs continues to outstrip funding, which is why 
The Conservancy urges the Subcommittee to increase appropriations for 
these programs that invite private/public partnerships.
    Sustainable Rivers Project (SRP) is an initiative launched by the 
Corps in partnership with The Conservancy to update decades-old water 
management practices to better meet society's needs today and in the 
coming decades. By modernizing the operations of our dam, and doing so 
through improved managing dams in coordination with downstream flood-
prone lands, the SRP is developing and demonstrating innovative 
approaches to maintain and enhance water supply, flood protection, 
hydropower generation, and recreation while restoring critical 
ecosystems and the economically valuable services they provide. The 
Corps budget includes four specific initiatives that support SRP 
efforts; The Conservancy supports all four at the levels provided by 
the Corps.
    Operations & Maintenance.--The Conservancy supports $360 million 
for reservoir O&M, including $10 million allocated to updating 
reservoir water control manuals.
    Bureau of Reclamation.--The Nature Conservancy supports continued 
funding as requested in the President's fiscal year 2015 Budget for the 
following programs:
    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species by implementing a range of basin-
wide strategies, including improved management of Federal dams, river 
and floodplain habitat improvement, stocking of endangered fish, and 
management of non- native fish species.
    Basin Studies and WaterSMART.--These programs support sustainable 
water use and management by focusing on water conservation, reuse and 
recycling, and on environmental protection and restoration. The 
Conservancy also supports the proposed funding for the Bureau's 
environmental restoration work, including the programs in the 
California Bay Delta and Colorado River.

    [This statement was submitted by Kameran Onley, Director of U.S. 
Government Relations.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is concerned about 
continued reductions to the U.S. Army Corps of Engineers (USACE) Civil 
Works budget and is requesting that appropriations for this program be 
increased to at least $5.5 billion in fiscal year 2015. The USACE Civil 
Works program addresses vital water resource needs throughout the 
Nation, and in Oregon, the USACE Northwestern Division operates on our 
two largest river systems, the Columbia River and the Willamette River, 
as well as maintaining Oregon's coastal rivers for navigation. OWRC is 
concerned that the proposed fiscal year 2015 budget for the USACE Civil 
Works budget is woefully inadequate to meet the growing water 
infrastructure needs of Oregon and our Nation as a whole. Increased 
funding would help support and leverage collaborative State level 
planning efforts that USACE is engaged in Oregon and nationwide. 
Furthermore, we are troubled by the efforts of USACE and the U.S. 
Environmental Protection Agency (EPA) to rewrite the Clean Water Act. 
We urge the Subcommittee to direct funding towards addressing the 
critical infrastructure needs under the Civil Works program rather than 
provide funding to support counterproductive jurisdictional overreach.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
Fiscal year 2015 Appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
USACE Civil Works program is a perfect example of a budget that should 
have funding increased because the water infrastructure it encompasses 
directly contributes to the economy as well protecting public safety 
and the environment. The Civil Works program includes the development, 
management and restoration of water resources related to supply, 
navigability, flood control, hydropower, recreation, and fish and 
wildlife habitat across the Nation. The Administration's proposed 
fiscal year 2015 budget for the USACE Civil Works programs is only $4.5 
billion, which is a 17 percent reduction from the fiscal year 2014 
Budget request of $5.5 billion. That amount is only a drop in the 
bucket compared to the numerous unmet water infrastructure needs 
nationally. OWRC feels strongly that USACE needs substantial increased 
funding to provide critical repairs on our Nation's aging water 
infrastructure to prevent catastrophic failure, as well as address 
routine operations and maintenance on other infrastructure before it 
becomes unrepairable.
Willamette Basin Reservoir Study
    OWRC is currently collaborating with a broad water resources 
constituency in support an ongoing effort to explore options related to 
the reallocation of stored water in the Willamette Basin dams operated 
by the USACE. The USACE Northwestern Division operates 13 dams and 
reservoirs in the Willamette Basin, with a combined storage capacity of 
over 1.6 million acre feet. Currently, only a small portion of the 
stored water is under contract for irrigation. Since the construction 
of the dams in the 1930s, Oregon has seen an increase in population, 
which in turn has spurred increased development, agriculture and a 
whole host of new demands on the reservoirs. Additionally, there are 
Endangered Species Act concerns and related fish restoration needs that 
were not contemplated when the facilities were constructed. As a 
result, there is strong interest within Oregon to complete the 
Willamette Basin Reservoir Study, and determine how the reservoirs can 
help meet the myriad of current and future water demands in the 
Willamette Basin.
    The Oregon Water Resources Department (OWRD) has secured a 50 
percent funding match (up to $1.5 million) to support the study and 
that match was included as part of the Oregon's 2013-2015 budget. As 
part of the USACE civil works budget fiscal year 2015, OWRC would like 
a minimum of $450,000 in Federal funding for the Willamette Basin 
Reservoir Study. This Federal funding would not only leverage scarce 
State resources but also the in-kind and direct contributions of other 
stakeholders participating in the project.
Planning Assistance to States
    OWRC strongly supports providing funding for States to undertake 
planning activities to meet their water needs. Oregon is the model for 
watershed planning and does not need a new Federal agency or Executive 
Branch office to oversee planning, however, Federal funding and 
technical assistance is needed. Planning activities are conducted 
through local watershed councils, volunteer-driven organizations that 
work with local, State and Federal agencies, economic and environmental 
interests, agricultural, industrial and municipal water users, local 
landowners, tribes, and other members of the community. There are over 
60 individual watershed councils in Oregon that are already deeply 
engaged in watershed planning and restoration activities. Watershed 
planning in Oregon formally began in 1995 with the development of the 
Oregon Plan for Salmon Recovery and Watershed Enhancement, a statewide 
strategy developed in response to the Federal listing of several fish 
species. This strategy led to the creation of the Oregon Watershed 
Enhancement Board (OWEB), a State agency and policy oversight board 
that funds and promotes voluntary and collaborative efforts that ``help 
create and maintain healthy watersheds and natural habitats that 
support thriving communities and strong economies'' in 1999.
    Additionally, OWRC has been an active participant and supporter of 
the Integrated Water Resources Strategy (IWRS) adopted by the Oregon 
Water Resources Commission in August 2012. The IWRS is an important 
step forward in planning for the various water needs of Oregon but 
there is much more work to be done and little funding to implement.
    Providing funding for State-level planning activities will help 
support important efforts like the IWRS, and maximize the leveraging of 
State and Federal resources, as well as providing viable models for 
other States to replicate. This approach will help leverage scarce 
financial resources at both the State and Federal level while promoting 
cooperation and collaborative solutions to complex water resources 
challenges.
Conclusion
    In conclusion, we respectfully request the appropriation of at 
least $5.5 billion for the USACE Civil Works budget for fiscal year 
2015. The critical nature of the water infrastructure services the 
USACE provides requires a budget that matches the seriousness of the 
national need and the importance of the water supply, navigation, 
public safety, and other natural resources benefits it provides. Thank 
you for the opportunity to provide testimony regarding the fiscal year 
2015 budget for the U.S. Army Corps of Engineers.

    [This statement was submitted by April Snell, Executive Director, 
Oregon Water Resources Congress.]
                                 ______
                                 
         Prepared Statement of the Red River Valley Association
    Mr. Chairman and members of the Committee, I am Dan York, RRVA 
President, and pleased to represent the Red River Valley Association, 
629 Spring St., Shreveport, Louisiana. Our organization was founded in 
1925 with the express purpose of uniting the citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    The resolutions contained herein were adopted by the Association 
during its 89th Annual Meeting in Bossier City, Louisiana, on February 
20, 2014, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association.
    The President's fiscal year 2015 budget includes $4.561 billion for 
the civil works programs, which is $265,000,000 less than the fiscal 
year 2014 budget submission. This proposal is also $906,500,000 less 
than what Congress enacted in fiscal year 2014! What other agency was 
cut 17%? The Administration fails to recognize the Corps' critical role 
as stewards of our Nation's water resources, and the vital importance 
of our water resources infrastructure to our Nation's economic well-
being. It is obvious that the intent of Congress is to fund civil works 
projects, but the Administration has ignored Congress. This funding 
level does not come close to the real needs of our Nation. A more 
realistic funding level to meet the existing needs of the civil works 
program is $6 billion for fiscal year 2015.
    The traditional civil works programs remain at the low, 
unacceptable level as in past years. These projects are the backbone to 
our Nation's infrastructure for waterways, flood risk reduction, water 
supply, recreation and ecosystem restoration. We remind you that civil 
works projects are a true `jobs program' in that up to 85 percent of 
project development funding is contracted to the private sector; 100 
percent of the construction, as well as much of the architect and 
engineering work. Not only do these projects provide jobs, but provide 
economic development opportunities for our communities to grow and 
prosper, creating permanent jobs. We encourage Congress to increase the 
`water' share of the total Energy and Water Bill closer to the $6 
billion appropriation for civil works projects.
    We want to express our appreciation to the Appropriation 
Subcommittee on Energy & Water for including in the Consolidated 
Appropriation Act, 2014, the provisions for `Additional Funds'. This 
provision provided the opportunity for underfunded projects to receive 
critical additional funding, such as O&M dredging for waterways. With 
the disappointing budget request by the Administration this may be the 
only process to receive needed funding to remain operational. We 
strongly encourage Congress to pass a fiscal year 2015 Appropriation 
Bill with these provisions.
    We have great concerns over the issue of the `earmark ban'. Civil 
Works projects are not earmarks and should be redefined! Civil Works 
projects go through a vetted process; reconnaissance study, feasibility 
study, benefit to cost ratio test, EIS, peer review, review by 
agencies, public review and comment, final Chief of Engineer approval, 
authorization by Congress in a WRDA bill and signed into law by the 
President. No other Federal program goes through such a rigorous 
approval process. Each justified project `stands alone' and is proven 
to be of national interest and should be funded by project. For most 
projects there is local sponsor cost sharing during the feasibility 
study, construction and for O&M. Those who have contributed, in most 
cases--millions of dollars--to the process, must have the ability to 
have a say for their projects to get funded. That voice is through 
their Congressional delegation. We believe that true earmarks are not 
in the national interest, but it does not pertain to the civil works 
program. For civil works it is an issue of priority of projects to be 
funded and who will determine that priority, OMB or Congress! We hope 
Congress takes back their responsibility to determine civil works 
priorities and to determine how its citizens' tax dollars are spent. 
The energy & water appropriation bill is not an earmark bill, it is a 
project bill.
    I would now like to comment on some of our specific issues for the 
future economic well being of the citizens residing in the four State 
Red River Basin region.
    Navigation: The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are proud of our public 
ports, municipalities, private industry and State agencies that have 
created this success. This upward `trend' in usage will continue as new 
industries commence operations. A major German company, Benteler Steel/
Tube, has started construction on a $900 million pipe manufacturing 
facility at the Caddo-Bossier Port. The facility will have 675 
permanent employees. Cool Planet had a ground breaking for a bio-
refinery at the Alexandria Regional Port, with a second refinery 
expected at the Natchitoches Parish Port. These plants will use wood 
waste and forest byproducts from the timber industry in the region. 
These projects are proof of the Waterway growth as is the fact that 
there are many more industries considering using our Waterway and 
locating at the public ports, as well as consideration for private 
terminals.
    We have a serious issue with the J. Bennett Johnston Waterway O&M 
in the President's budget. The fiscal year 2015 budget proposal of 
$8,388,000, for O&M for the J. Bennett Johnston Waterway, is $535,000 
less than the fiscal year 2014 budget proposal and $2,315,750 less than 
enacted in fiscal year 2014 ($10,703,750). This is far short of the $11 
million basic, minimum O&M requirement to maintain the Waterway at the 
authorized 9' by 200' channel. If the required funding level of at 
least $11 million is not appropriated the Waterway may actually shut 
down to all traffic and industry will see the Waterway as unreliable 
and choose alternative modes of transportation, impacting jobs.
    The Inland Marine Transportation System (IMTS), an internal Corps 
program, is implementing a `lock level of service' mandate. This 
mandate will determine the hours of operations at each lock based on 
annual commercial lockages. What is upsetting is that this mandate was 
devised internal to the Corps of Engineers with no input from industry 
or local sponsors. This mandate will impact the reliability of 
waterways creating a downward spiral of users insuring the failure of 
tributary waterways. The J. Bennett Johnston Waterway was authorized 
into law and required to operate 24 hours, 7 days a week, 365 days a 
year, with a 9' by 200' channel. We believe the Federal Government has 
an obligation to operate and maintain this Waterway as directed by law.
    The only metrics used by the Corps of Engineers is tons moving on 
inland waterways. This is unrealistic. It does not reflect the true 
benefits of waterways. Using these metrics to determine `high' and 
`low' use waterways may be the Corps' way to determine where to apply 
budget cuts, but it is sending the message that our waterways are 
failures! Since navigation projects are 100 percent Federal 
responsibility, it is the Corps that has failed. We believe railroads 
are using these metrics of failure and drastic budget cuts to convince 
industry that waterborne transportation is unreliable and undependable.
    The primary justification for navigation projects was the national 
benefit of reduced transportation costs, known as water compelled 
rates. If waterways are threatened or closed then railroads will have a 
monopoly and transportation rates will greatly increase for all 
industries. Cargos will shift back to highways, putting more trucks on 
our already congested highways. Reducing reliability of waterways has a 
negative impact on transportation costs, highway congestion and 
increased air pollution and fuel consumption. Issues the Administration 
states they want to avoid.
    Flood Risk Reduction: What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project, `Red River 
Below Denison Dam, TX, AR & LA'. Now is the time to bring these levees 
up to standards, before a major flood event, which 1 day will occur.
    We continue to consider flood risk reduction a major objective and 
request continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of eleven levee sections have been completed and brought 
to Federal standards. Approximately one third of the Red River Levee 
District (Lafayette County, AR) has been completed. The completion of 
this project has ceased due to the lack of Administration support. 
Congress cannot provide funding due to the earmark ban.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood event to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood. This project is also authorized in the existing 
authorization.
    There is an authorized project, Red River Below Denison Dam; AR & 
LA, which funds these levee projects. A total of $12,000,000 capability 
could be used in fiscal year 2015.
    We want to express our appreciation for the passage of the 
Homeowners Flood Insurance Affordability Act of 2013, PL 113-89. This 
has prevented devastating increases in the flood insurance individuals 
and businesses would have had to pay.
    Bank Stabilization: One of the most important, continuing programs, 
on the Red River is bank stabilization in SW Arkansas and North 
Louisiana under the authorized project--Red River Emergency Bank 
Protection. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as levees, 
roads, electric power lines and bridges, as well as increased dredging 
cost in the navigable waterway in Louisiana. These bank stabilization 
projects are compatible with subsequent navigation into Arkansas and we 
urge that they be continued in those locations designated by the Corps 
of Engineers to be the areas of highest priority.
    The first phase of Dicksen Revetment was completed before funding 
ceased due to the no earmark ban. The river is eroding the work that 
has been completed, since the lower end has been left unprotected and 
incomplete. It is difficult to understand that the millions of dollars 
spent will be lost, if the whole revetment project is not completed. 
The remaining project funding required is $16,000,000; however, it 
could be completed in phases over a number of years.
    The authorized project, Red River Emergency Bank Protection, which 
funds these bank stabilization projects has a total capability of 
$20,000,000 for fiscal year 2015.
    Water Quality: The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the Chloride Control Project. The re-evaluation 
report was completed and the Director of Civil Works signed the 
Environmental Record of Decision. The plan was found to be economically 
justified. Then the ASA (CW) directed that construction would not 
proceed until a local sponsor was found to assume 100 percent of the 
O&M for the project. The 2007 WRDA Bill included language that 
clarified that all aspects of this project will be at full Federal 
expense, to include O&M. Over the past years there has been a renewed 
interest by the Lugart-Altus Irrigation District to evaluate 
construction of Area VI, of the Chloride Control Project, in Oklahoma. 
They have obtained the support of many State and Federal legislators, 
as well as the Oklahoma Governor in support of a re-evaluation report.
    The authorized project; Chloride Control Project, TX, OK, AR & LA, 
has the capability for $7,200,000 to continue construction in the 
Wichita River Basin in Texas and $2,093,000 for the re-evaluation study 
at Area VI in Oklahoma.
    A private company, Good Earth Mechanics (GEM) has proposed a 
private venture to install `solar ponds' to generate base load, 
renewable energy. They are working with the U.S. Air Force and U.S. 
Army to secure long term power contracts. This initiative (no 
government funding) could use all the salt water from the Texas and 
Oklahoma sources, which would greatly reduce the overall project cost. 
It is truly a win-win proposition.
    The western areas of Texas and Oklahoma are water deprived and 
sorely need the Chloride Control Project. The need for water quality 
and quantity will increase over time and this project will assist in 
meeting those needs, as long as Federal funding is appropriated to keep 
the project moving forward.
    Thank you for the opportunity to present this testimony for the Red 
River Valley Association on behalf of the industries, organizations, 
municipalities and citizens we represent throughout the four State Red 
River Valley region. The Civil Works program directly relates to 
national security by investing in economic infrastructure. If waterways 
are closed companies will not relocate to other parts of the country--
they will move over seas. If we do not invest now there will be a 
negative impact on our ability to compete in the world market 
threatening our national security.
                                 ______
                                 
        Prepared Statement of the Red River Waterway Commission
    Mr. Chairman and members of the Committee, I am Kenneth P. Guidry, 
Executive Director of the Red River Waterway Commission (RRWC) 
headquartered in Natchitoches, Louisiana. I thank you for the 
opportunity to submit this written testimony addressing fiscal year 
2015 `CIVIL WORKS'--U.S. ARMY CORPS OF ENGINEERS.
    The RRWC is a political subdivision of the State of Louisiana 
created in 1968, and is the local sponsor for the U.S. Army Corps of 
Engineers (USACE) J. Bennett Johnston Waterway (Red River) Navigation 
Project. The RRWC boundaries include seven Northwest and Central 
Louisiana parishes: Caddo, Bossier, Red River, Natchitoches, Grant, 
Rapides and Avoyelles; and, currently five ports operating along the 
JBJWW (Red River).
    First and foremost, thank you for the passing the 2014 Consolidated 
Appropriations Act which provided critical funding for USACE for 
essential functions such as O&M channel maintenance (dredging) on the 
JBJWW. Failure to do so would have been detrimental to the viability 
and success of the JBJWW which is why we respectfully urge you to pass 
a fiscal year 2015 Appropriations Bill with similar `additional funds' 
to bridge the funding shortfalls contained in the President's fiscal 
year 2015 budget. These `additional funds' are essential for the JBJWW 
to remain viable, operational, and successful. I feel certain, as in 
2014, that our Congressional delegation will stand united to support 
this cause. These two items are absolutely essential the JBJWW to be 
operational and successful: 1) annual O&M channel maintenance 
(dredging), and, 2) all five of the Locks and Dams remain operating at 
a 24/7/365 Level of Service.
    We are also pleased to report the findings of a December 2013 
update on the Economic Impact of the Red River Waterway performed by 
LSU Professor Emeritus of Economics, Dr. Loren C. Scott of Loren C. 
Scott & Associates, Inc. The update statistically, empirically, and 
professionally confirms the positive impacts from the JBJWW. The RRWC, 
working together with others along the JBJWW, have brought over $7.1B 
to the 7-parish region it serves. Outstanding as that dollar amount is, 
when adjusted for inflation and put into 2013 dollars, the figure jumps 
to almost $9.9B. By making the JBJWW navigable, new industries have 
been attracted to the region. In most cases, the newly attracted 
industries actually use the river to ship inbound or outbound cargo. 
Others do not directly use the river but still benefit from water-
compelled rates (i.e., they use the option of barge transportation to 
get more favorable rates from other modes of transportation such as 
rail and trucking).
    What was once an unpredictable waterway is now a dynamic 
thoroughfare for commerce and economic development. With its prime 
location, the JBJWW remains a top choice for industrial and commercial 
businesses, visitors, and major fishing events. Recent developments 
include a $1 billion project from CLECO at the Port of Alexandria, a 
$900 million project by Benteler Steel at the Caddo-Bossier Port, and 
anticipated projects totaling to $170 million from Cool Planet Energy 
Systems at the Ports of Alexandria and Natchitoches, as well as, the 
2009 and 2012 BASS Bassmaster Classics and the 2013 FLW Forrest Wood 
Cup.
    A note of concern is warranted regarding Giant Salvinia (Salvinia 
molesta). This aquatic fern, native to Brazil, is destructively 
invasive and a threat to the JBJWW and other bodies of water throughout 
the United States. It can double in biomass in as little as 2-3 days 
and is extremely detrimental to aquatic life and could threaten 
navigation along the JBJWW. Although it is recognized as a federally 
noxious weed, little or no regulatory action is taken to prevent the 
spread of this plant. We will continue our work addressing this matter 
and collaborating with local, State, and Federal agencies. We recently 
became aware of and plan to engage the National Invasive Species 
Council (NISC) under the U.S. Department of the Interior.
    In conclusion, the RRWC will continue to promote the JBJWW by 
raising awareness, identifying and developing opportunities for 
increased and enhanced lockages and tonnages, economic development, and 
recreational use. The JBJWW is a valuable resource for commerce, job 
creation, and recreation to our State, region, and Nation, and we will 
work the existing ports, carriers, shippers, agencies, and other users 
to support them in their missions.
    Again, we thank you for the opportunity to submit our written 
testimony to you for consideration. Should you have any questions or 
require any additional information, please contact me: Kenneth P. 
Guidry, Executive Director, Red River Waterway Commission, 
www.redriverwaterway.com.
                                 ______
                                 
   Prepared Statement of Rob Rash, PE PLS, Mississippi Valley Flood 
                          Control Association
    My name is Rob Rash and I am privileged to submit this testimony to 
the Senate Appropriations Subcommittee on Energy and Water Development. 
I am the Executive Vice President of the Mississippi Valley Flood 
Control Association and we are requesting fiscal year 2015 Mississippi 
River and Tributaries (MR&T) Appropriations in the amount of $500 
Million and reminding you of the MR&T system performance in 2011 and 
2012 and for the last 85 years. The investment by the MR&T system in 
preparation for the 2011 flood . . . resulted in more than $234 billion 
worth of damages prevented by the MR&T system  . . . a return on 
Federal investment of over 44 to 1. These prevented damages do not 
include the return for low water benefits. The hydraulic improvements 
made by the construction of dikes, cutoffs and channel improvements 
that allowed a record flood by volume to flow at a lower elevation, are 
the same improvements that allowed barge traffic to move during the 
near record low water experienced throughout the Mississippi River in 
2012-2013.
    First, let me thank the Congress for the support and funding you 
have provided in the past. This funding proves your awareness of the 
importance of flood control projects throughout the Mississippi River 
Valley and the value it provides this great Nation.
    The Mississippi River and Tributaries Project was authorized 
following a record flood in 1927 that inundated more than 26,000 square 
miles of the Mississippi River Valley. Over 700,000 people were left 
homeless and many lives were lost. Most, if not all, East-West commerce 
was stopped and it adversely affected the economy and the environment 
of our great Nation. After that devastating event Congress in its 
infinite wisdom passed a bill and established the Mississippi River and 
Tributaries Project and authorized the U. S. Army Corps of Engineers to 
develop a plan to prevent such a disaster in the future. This project 
currently is a separate line item in the budget. To remove it will 
destroy the continuity of this high value, high return, much needed 
investment.
    To date the MR&T Project has prevented flood damages and provided 
other benefits resulting in a current benefit/cost ratio of over $44 to 
$1. Truly this is a wise investment for our Nation. Likewise, countless 
lives have been spared due to the construction of this great system. 
Also, our Nation receives three billion dollars of transportation rates 
savings each year largely due to the reliability of a navigation 
channel afforded by the MR&T System. It is readily seen this project 
had merit from the beginning and continues to reward the citizens not 
only of the valley itself but the citizens of the entire Nation. It is 
a wise investment for this country and it is good for our economy. It 
will be a vital link to the defense of our Nation in the event of an 
attack by our enemies. This project must be targeted for swift 
completion and proper maintenance. What an example of Federal and local 
partnership and investment for our great Nation this project has been! 
I challenge you to find any other project of any nature which 
approaches the benefits of this system
    The performance of the comprehensive Mississippi River and 
Tributaries system and the Ohio Valley reservoir system during the 2011 
flood on the lower Mississippi River validates the wise investment the 
Nation made to prevent another calamitous natural disaster like the 
1927 flood, the devastating event that changed America and forcibly 
unified its people to support protection of lives and property from the 
fury of the river. The MR&T system performed as designed, despite 
rainfall exceeding 600 to 1,000 percent of the normal average rainfall 
in a 2-week period from April 21-May 3 over a significant portion of 
six States that coincided with the arrival of the upper Mississippi 
spring snowmelt crest. The significant flood event established many new 
record discharges and stages along the lower Ohio and Mississippi 
Rivers. Unlike the 2011 flood, the Mississippi River during the 
benchmark and calamitous Great Flood of 1927 inundated most of the 
alluvial valley. Like the toppling of a series of dominoes, one 
overmatched levee after another burst under the unprecedented pressure 
exerted by the swollen river from excessive rainfall.
    At a time when we need to stimulate our economy, at a time that 
safety from terrorist activities needs to be enhanced and at a time 
that many in our Nation are concerned about cleaner air, cleaner water, 
etc., we have a great opportunity to meet those needs. We must make 
sound investments into our infrastructure which will give back more 
monies to the taxpayers of this country than was invested while at the 
same time increasing our defense capabilities should our Nation be 
attacked from an outside force (the system provides an inner coast 
unexposed to arrival by sea).
    Local interests have done their part in providing rights of way, 
roads, utilities and the like. Our government now needs to fulfill the 
Federal obligatory part of the system and bring it to completion as 
quickly as possible.
    We believe the Corps could adequately deliver $500 million each 
year for maintenance and construction within the MR&T. We realize there 
are budgetary restraints this year and respectively request Congress to 
approve adequate funding for maintenance and construction for the MR&T. 
The MR&T improvements I have talked about thus far have been the 
benefits for flood control. However, these benefits were also realized 
during the low flow event experienced on the Mississippi River. The 
hydraulic improvements that allowed a record flood event to pass at a 
0.8 foot lower elevation in 2011 than in 1937, also allow barge traffic 
and a near record low event experienced in 2012-2013. If it were not 
for the MR&T system improvements barge traffic during the low water 
event would have been nonexistent.
    We also thank you again for the understanding of our needs and the 
importance of the MR&T system by not allowing FEMA to charge mandatory 
flood insurance as defined below:
SEC. 107. MANDATORY COVERAGE AREAS.
    (a) Special Flood Hazard Areas-Not later than 90 days after the 
date of enactment of this Act, the Director shall issue final 
regulations establishing a revised definition of areas of special flood 
hazards for purposes of the National Flood Insurance Program.
    (b) Residual Risk Areas-The regulations required by subsection(a) 
shall-- (2) require the expansion of areas of special flood hazards to 
include areas of residual risk, including areas that are located behind 
levees, dams, and other man-made structures.
    (c) Mandatory Participation in National Flood Insurance Program-
       (2) LIMITATION--The mandatory purchase requirement under 
        paragraph (1) shall have no force or effect until the mapping 
        of all residual risk areas in the United States that the 
        Director determines essential in order to administer the 
        National Flood Insurance Program, as required under section 19, 
        are in the maintenance phase.
    Thank you for understanding the tremendous negative impact this 
piece of legislation would have had on the entire Mississippi River 
Valley. Billions of dollars already spent on flood control structures 
would be negated because of needless MANDATORY flood insurance 
premiums. Please remember the 1928 flood control act recognizes the 
investment of the local people by initial construction and taxation of 
themselves for maintenance. This investment was over 200 million 
dollars in 1928 and totals more than 17 billion dollars today. Making 
the total Federal and local investment in the MR&T system over 30 
billion dollars. Because of this, it is still necessary to discuss the 
new policies being implemented by the Federal Emergency Management 
Agency in their Map Modernization Program.
    The policy creates a New Zone ``X'' (shaded) designated area. This 
new designation shows all areas behind a levee as an unsafe place to 
live and recommends, among other things, an evacuation plan and flood 
insurance.
    This designation renders all work done by local and Federal 
organizations for the last 100 years, useless. Even if our levees are 
Federal Levees, have obtained the highest achievable maintenance rating 
and the passing of a record flood in 2011, this Zone ``X'' (shaded) 
designation will be placed on all new flood maps. Furthermore, the 
recommendations from the National Levee Safety Committee, if used, 
force unachievable maintenance standards and predatory flood plain 
management tactics. This will needlessly destroy economic development 
for over 22,000,000 acres of land in this country. Please do not use a 
``one size fits all'' approach and place false fear in the minds of 
people living behind levees. These flood insurance premiums, because of 
the support of Congress, the hard work of the U.S. Army Corps of 
Engineers and local levee and drainage districts across this country, 
are not necessary but do create a nice funding mechanism for future 
disasters.
    The Mississippi Valley Flood Control Association also asks the 
Congress to support the Upper Mississippi River Comprehensive Plan 
(UMRCP). The impact of the flood of 1993 on the Upper Mississippi was 
devastating leaving $15 Billion in damages, loss of life and damage to 
72,000 homes. In 2008 the Upper Mississippi was again ravaged by 
catastrophic flooding and again in 2011 flooding costs top $360 Million 
in infrastructure damage. The Upper Mississippi River Comprehensive 
Plan's system approach and the Mississippi River and Tributaries 
Project needs to be properly funded for protection of the entire 
Mississippi River Valley.
    The Mississippi Valley Flood Control Association also asks the 
Congress to support the Authorization and Appropriations for the 
dredging of MR&T and Non-MR&T Ports and Harbors. Flood Control and 
Navigation interests go hand in hand and you cannot have Flood Control 
without Navigation.
    With the tragedy that struck the Gulf Coast and East Coast, we must 
now turn our attention to the future and attempt to make certain that 
at least the flooding does not take place again. We can prevent that; 
the Dutch, the English and the Italians have done it and so can we if 
we treat flood control as something that we must do. The citizens of 
this great Nation deserve it.
    There are four anomalies of nature that cause death and destruction 
to our Nation. They are (1) earthquakes, (2) hurricanes, (3) tornadoes 
and (4) floods. The first three we can do very little if anything about 
except to prepare for the worst. We can build protection against 
floods, against the ``maximum probable flood'', one that has an 
``improbable occurrence but nevertheless a remotely possible one''.
    In order to provide such protection we believe that four things 
must be done. First, the environmental laws, or at least the way they 
are interpreted for flood control projects, must be changed or we stand 
to lose more lives and have another absolute environmental catastrophe 
such as the one we have witnessed in New Orleans and along the Gulf 
Coast. Second, cancel all cost-sharing for flood control projects 
unless we do intend to only protect those that can afford it and ignore 
those that cannot. Third, relax the requirements for the benefit to 
cost ratio for flood control projects for one reason, it is impossible 
to assign a dollar value to a human life. Fourth, investment in 
infrastructure throughout the Mississippi River watershed. The United 
States has the largest inland waterway navigation/commerce system in 
the world. This water commerce system is positioned in the center of 
the country and the infrastructure is the envy of the civilized world. 
This system keeps us competitive in the world market and must be 
properly maintained and operated. It is our opinion that these things 
must be done, for without flood control, nothing else really matters. I 
close with a simple reminder. The MR&T system is not complete and 
therefore will not pass the Project Design Flood! Thank you for your 
leadership and the resulting $100's of billions of dollars averted 
because you supported and funded the greatest civil works project on 
the planet . . . the MR&T!

    [This statement was submitted by Rob Rash, PE PLS, Mississippi 
Valley Flood Control .]

                          DEPARTMENT OF ENERGY

           Prepared Statement of the Alliance to Save Energy
    Honorable Chairwoman, Ranking Member, and members of the 
Subcommittee, I am Kateri Callahan, Chief Executive Officer of the 
Alliance to Save Energy. The Alliance to Save Energy (the Alliance) is 
a nonprofit organization that promotes the goal of doubling U.S. energy 
productivity by 2030 through Federal and local energy efficiency 
policies, programs, research, and education. The Alliance has worked 
for more than three decades to advance energy efficiency worldwide to 
achieve a healthier economy, a cleaner environment, and greater energy 
security. However, in this testimony I am representing not only the 
Alliance but also the energy efficiency community at large. We are 
submitting this testimony in support of funding for key energy 
efficiency priorities at the Department of Energy (DOE). We recognize 
the significant challenges facing the Federal Government to reduce 
spending and spur economic growth, yet we strongly believe that failing 
to fund energy efficiency investments at these levels would undermine 
our national economic, environmental and security interests. These 
programs have resulted in exceptional value for American consumers and 
businesses as a source of savings that are spent in other economic 
sectors, yielding benefits far beyond their nominal outlays.
    Energy efficiency is our Nation's most abundant energy source. 
Economy-wide improvements in energy efficiency have contributed to the 
large reduction in U.S. energy use over the last 30 years. Economy-wide 
improvements in energy efficiency, along with structural changes in our 
economy, have supplied more energy over the last 30 years than domestic 
coal, natural gas, and oil combined. The energy productivity of the 
U.S. economy--the amount of energy it takes to produce one dollar's 
worth of goods--has increased by 50 percent over the past three 
decades. The economic productivity improvements over this period 
reduced our national energy bill by about $700 billion.
    Besides lowering expenditures for those who implement efficiency 
measures, relatively modest energy efficiency investments also lessen 
dependence on imported energy sources, reduce pollution and its health 
and environmental impacts, improve America's competitiveness in the 
global marketplace, alleviate stress to the electric grid and water 
infrastructure, and forestall the need for costly new electricity 
generating capacity.
    The Department of Energy efficiency research, development, and 
deployment (RD&D) activities, pursued in concert with American 
manufacturers, builders, and other important facets of our economy has 
been the foundation upon which these savings can accrue.
    To that end, we request funding of $234 Million for the Building 
Technologies Office (BTO). The Building Technologies Program continues 
to successfully provide substantive and technical assistance to guide 
the development of more efficient codes and appliance standards, as 
well as research emerging technologies that could help transform the 
market by making buildings more efficient.
    Within the Building Technologies Office, we respectfully request 
that the funds be allocated in this manner:
  --$70 Million for Building Codes and Appliance Standards, with an 
        emphasis on ramping up support for States and local 
        jurisdiction building code activities. For building codes, this 
        should include: 1) Providing consistent and clear priorities 
        and goals to the model code bodies and to States; (2) providing 
        assistance to States and local jurisdictions on energy code 
        adoption and enforcement; and (3) providing assistance to 
        States and local jurisdictions with updated strategies for 
        benchmarking, improving compliance, and measuring compliance. 
        For the appliance standards program, DOE has recently begun to 
        catch up on rulemakings that are running behind legal deadlines 
        and is now working on more than a dozen products. We support 
        these efforts including consideration of adding several new 
        industrial products to the program.
  --$30 Million for Residential Building Integration, with the focus on 
        accelerating the development and adoption of advanced building 
        energy technologies and practices in new and existing homes. 
        The Residential Building Integration program has the capacity 
        to fundamentally transform homebuilding and renovation in this 
        country; however, even with the appropriate and laudable goals 
        of development and adoption of advanced building energy 
        technologies and practices for 70 percent efficiency 
        improvements, the program is unfocused. Funding should be 
        concentrated with the Industry Teams that can facilitate 
        research, demonstrate and test new systems, and facilitate 
        widespread deployment through their partnerships with builders, 
        the construction trades, equipment, smart grid technology and 
        systems suppliers, integrators and State and local governments. 
        Fewer teams, with sufficient funding each would be a better 
        model than the current one of providing too little funds to 
        many players, and successful models should be replicated more 
        widely. Direct engagement with builders, contractors, and 
        business is crucial to the success of buildings programs. 
        Funding should be spent primarily on industry teams that have 
        the capability to bring all actors to the table and transform 
        the market.
  --$10 Million for a New Energy Efficiency Initiative. We support a 
        new program that would be focused on stakeholder engagement 
        efforts with input and direction by the existing home 
        performance industry and the weatherization network. Working 
        with national organizations and companies specializing in home 
        performance and/or weatherization, the efforts will include 
        regional forums and will generate policy recommendations 
        leading to the development of a new residential energy 
        efficiency retrofit program to support increased energy 
        efficiency in all residential buildings and income levels.
  --$32 Million for Commercial Building Integration, with a need for 
        DOE to not only facilitate the research and development on 
        systems integration but also promote the widespread adoption of 
        comprehensive deep retrofits to existing buildings and 50-100 
        percent energy reductions in new construction relative to the 
        2001 model code. We support a program of core research and 
        development of more cost effective integration techniques and 
        technologies that could help the move towards both deep 
        retrofits and zero net energy ready buildings. In addition, DOE 
        needs to better engage with the stakeholders developing market 
        transforming policies and investing in retrofits (e.g., private 
        firms, State and local governments, non-profits) by 
        coordinating with and working through them.
  --$92 Million for the Emerging Technologies Program, which should be 
        focused on building envelope technologies and building 
        equipment technologies with an increasing focus on building 
        management technologies. Advanced heating, ventilation, and air 
        conditioning (HVAC) research should increase and focus on 
        innovative technologies that can provide reductions in primary 
        energy use. Work should continue on advanced water heating and 
        appliance technologies and systems. The program should 
        intensify efforts to increase efficiencies with nanobased 
        lubricants, advanced fluids, and next generation alternatives. 
        Advanced envelope technologies, including windows research and 
        development should continue, as should research into building 
        energy management capability. We also urge DOE to fund 
        innovative new technologies that will move us towards 
        efficiency reductions consistent with achieving net zero energy 
        ready buildings, consider resiliency and extreme weather 
        events, and coordinate with the private and public sectors.
    In addition to the funding for the BTO, we request $305 Million for 
the Advanced Manufacturing Office, divided as follows: at least 25 
percent of the budget should support deployment activities (including 
$8-10 million for the Industrial Assessment Centers); 25 percent should 
target research and development cost-shared with energy-intensive 
manufacturing sectors including iron and steel, metal casting, 
chemicals, aluminum, and forest products; and at least 15 percent 
should target combined heat & power (CHP) research and deployment.
    We also request $36 Million for the Federal Energy Management 
Program, which supports the budget request. FEMP provides project and 
policy expertise to all Federal agencies, assisting them to meet 
Congressional and Executive energy management goals: reducing waste in 
Federal agency energy use, leading by example, and spurring innovation 
and the commercialization of efficient technologies. For example, since 
2005, FEMP has facilitated $3.1 billion of private investments in 
Federal Government facilities through performance-based contracts, 
which resulted in cost savings of approximately $8.5 billion over the 
life of the energy-saving measures.
    We request $230 Million for the Weatherization Assistance Program 
and $63 Million for the State Energy Program (Office of Weatherization 
& Intergovernmental Assistance). We urge the Committee to provide 
funding at the level of $63 million for the State Energy Program, which 
allows States to assist with the development of energy efficiency and 
renewable energy projects, providing leverage for State and locally 
directed activities. Additionally, we ask the Committee to return 
funding to historical levels for the Weatherization Assistance Program, 
which helps low-income families, seniors, and individuals with 
disabilities make lasting energy efficiency improvements to their 
homes. Moreover, Weatherization has a proven track record of creating 
new jobs and contributing to the economy through the program's large 
supply chain of vendors, suppliers, and manufacturers.
    We request $123 Million for the Energy Information Administration. 
We also support continued funding of $123 million for the Energy 
Information Administration, in particular the data collection, 
analysis, and reporting activities on energy use and consumption.
    We request $200 Million for the Race to the Top for Energy 
Efficiency. We also support funding for the Race to the Top for Energy 
Efficiency initiative, funded at $200 million in the President's budget 
request, to support a competitive grant program that challenges the 
States to increase their energy productivity while meeting the State's 
unique energy needs. We believe these funds, allocated in the 
Opportunity, Growth and Security Initiative's budget, should be an 
additional amount included in the EERE accounts.
    Additionally, we strongly urge you to exclude any provision from 
the Energy and Water Development Appropriations bill that would 
prohibit DOE from enforcing the lighting energy efficiency standards 
that were enacted in 2007. Lighting remains one of the least expensive 
efficiency upgrades to consumers, and the standards, which 
manufacturers are already investing to meet, are expected to save the 
average household $100 or more a year and increase consumer choice by 
bringing innovative lighting options to market. Preventing the 
enforcement of the lighting standards will only drive up costs for 
efficient lighting, spur greater uncertainty in the marketplace, 
prevent job growth, waste energy, and diminish consumer choice.
Conclusion
    In closing, we commend you for your important work and are fully 
aware of the difficult decisions required over the coming weeks. Energy 
efficiency offers solutions that drive the U.S. economy by creating 
jobs and saving energy. Energy efficiency investments also lessen 
dependence on imported energy sources, reduce pollution and its health 
and environmental impacts, improve America's global competitiveness, 
and alleviate stress to the electric grid and water infrastructure.
    We urge the Appropriations Energy and Water Subcommittee to provide 
robust funding to these important DOE programs in fiscal year 2015. 
Thank you in advance for your consideration.

    [This statement was submitted by Kateri Callahan, Chief Executive 
Officer, Alliance to Save Energy.]
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the Chair and Members of the Subcommittee: Thank you for this 
opportunity to provide testimony on the importance and need for strong 
Federal R&D efforts in the fields of oil and natural gas, coal, and 
geothermal technologies. These activities reside in the U.S. Department 
of Energy's (DOE) fossil energy program (oil, natural gas, coal), and 
energy efficiency and renewable energy program (geothermal). In 
addition, a new crosscutting program for subsurface engineering 
integrates Office of Science activities with these applied research 
areas. These are an essential investment in this Nation's energy 
security.
    The American Association of Petroleum Geologists (AAPG) is the 
world's largest scientific and professional geological association. The 
purpose of AAPG is to advance the science of geology, foster scientific 
research, and promote technology. AAPG has over 40,000 members around 
the world, with nearly two-thirds living and working in the United 
States. These are the professional geoscientists in industry, 
government and academia who practice, regulate and teach the science 
and process of finding and producing energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
geosciences, and particularly petroleum geology play in energy security 
and our society.
    You are certainly aware of how oil and gas from shales has quickly 
boosted domestic energy production, adding well-paying jobs, 
stimulating manufacturing and enhancing U.S. energy security. This 
energy renaissance would not have been possible without fossil energy 
R&D, started in the 1970s at the DOE's predecessor agency, the Energy 
Research and Development Administration (ERDA).
    Methane hydrates could well represent the next energy renaissance. 
Methane is the predominant component of natural gas. Hydrates below 
artic permafrost and in sediments of the Outer Continental Shelf hold 
vast quantities of this potential resource. The DOE fossil energy 
program began research on methane hydrates in 1997, when methane 
hydrates were only a scientific curiosity. By the winter of 2011-2012, 
the DOE, in partnership with ConocoPhillips and Japan Oil, Gas and 
Metals National Corporation (JOGMEC), successfully completed a research 
well on the Alaska North Slope to produce experimental quantities of 
methane from subsurface hydrates.
    The DOE is now soliciting proposals for additional field 
experiments in Alaska. U.S. scientists lead the world in scientific 
understanding of this resource and continued Federal R&D support will 
enable us to remain at the forefront of developing this novel resource. 
Methane hydrate also has a significant role in the global carbon cycle 
and it is gaining recognition as an important component player in 
global climate processes and climate change. With increased funding 
DOE-supported scientists can accelerate this critical research area.
AAPG supports funding of the DOE methane hydrate program at an annual 
        level of $40 to $50 million, which would help move this novel, 
        potential energy source toward commercialization.
    What is frequently misunderstood, however, is that the Federal 
energy R&D investment cannot be solely focused on new and alternative 
energy sources. Growing domestic production from shales, is resulting 
in on-going improvements in efficiency and environmental safety. But 
fully realizing the potential of these resources for the benefit of 
U.S. consumers requires additional scientific insights and 
technological breakthroughs. After all, our Nation is not facing a 
choice between existing and new energy sources, although that is often 
how the energy debate is framed. Instead oil, natural gas, and coal 
currently supply 82 percent of the Nation's energy. These resources are 
the foundation of our energy future. Upon this foundation we are now 
developing and deploying new and alternative energy sources.
    Our Nation's R&D policies must recognize the need to keep this 
foundation strong while simultaneously investing in the energy sources 
of the future.
    Oil and natural gas technologies program.--AAPG strongly urges 
increased funding for the DOE oil and natural gas technologies 
programs. They are regularly either targeted for elimination or funded 
at levels insufficient to conduct necessary field experiments. This is 
ironic considering oil and natural gas deliver 62 percent of our 
Nation's energy.
    Oil supplies the overwhelming volume of all transportation fuels. 
Natural gas heats homes and businesses, generates electricity, is a 
chemical feedstock, and is emerging as a potential transportation fuel. 
Supplying the oil and natural gas consumed today and in the future 
requires significant technological advancements.
    Several commonly overlooked trends in the oil and natural gas 
sectors support a Federal role in oil and natural gas technologies R&D:

    1.   The independent oil and gas producer is responsible for 
            finding and producing most U.S. oil and natural gas 
            resources. According to the Independent Petroleum 
            Association of America (IPAA), a trade association, 
            independent producers produce 54 percent of the Nation's 
            oil, 85 percent of the Nation's natural gas, and develop 95 
            percent of the Nation's oil and natural gas wells. The 
            median-sized independent producer is the epitome of 
            American small business. Technology is vitally important 
            for these producers, who do not have the capacity to 
            conduct independent research.
    2.   Increasingly domestic oil and natural gas production is coming 
            from non-traditional (unconventional) resources, such as 
            the Marcellus Shale of Appalachia or the Bakken formation 
            of the Williston Basin. The Monterey Shale of California is 
            a new, huge but geologically unique resource that will 
            require additional scientific study and new technologies to 
            develop. These resources hold the key to American energy 
            security, but their development requires significant R&D 
            investment.
    3.   Federal R&D has historically provided support for the Nation's 
            universities and colleges, which have proven to be a rich 
            source of technological innovation. But as Federal support 
            for oil and natural gas technology development has waned, 
            so has the ability to conduct this type of research and 
            train the next generation of U.S. scientists and engineers. 
            There is a serious workforce shortage rapidly approaching 
            both industry and government.

    A robust Federal R&D program in oil and natural gas technologies, 
according to a 2010 study by the National Research Council ``could help 
to provide greater energy security for the United States and to help 
address future energy needs globally.''
AAPG requests the Subcommittee on Energy & Water Development and 
        Related Agencies appropriate $100 million for oil and natural 
        gas technology programs in the Department of Energy's Office of 
        Fossil Energy. This program includes research supporting 
        increased, environmentally responsible production of domestic 
        oil and natural gas resources including methane hydrates, and 
        the interagency unconventional oil and gas research program 
        with EPA and USGS. This funding recommendation helps mitigate 
        the fiscal year 2014 termination of the $50 million per year 
        funding for the Research Partnership to Secure Energy for 
        America.
    Coal program.--The Nation's coal resource is essential to U.S. 
energy security. AAPG supports research and development funding for 
coal, including clean coal technologies such as carbon capture and 
sequestration (CCS). Potential Federal restrictions in greenhouse gas 
emissions from coal-fired power plants will require advancements in the 
use of CO<INF>2</INF> for enhanced oil recovery and CO<INF>2</INF> 
storage in saline aquifers. Additional research and large-scale field 
trials are necessary to bring geologic storage and sequestration of 
CO<INF>2</INF> to commerciality.
AAPG supports $80.1 million for Carbon Storage R&D in the President's 
        fiscal year 2015 request.
    Geothermal energy technologies program.--Geothermal energy is an 
important alternative energy resource that provides base-load power to 
the Nation's electrical grid. Significant expansion of geothermal power 
production may be possible through the development of enhanced or 
engineered geothermal systems, but developing and proving these 
technologies requires R&D investment.
AAPG supports $61.5 million for the DOE geothermal program, the 
        President's fiscal year 2015 budget request.
    Subsurface Engineering.--DOE is proposing a new cross-cutting 
activity that integrates basic and applied research for characterizing, 
engineering and monitoring geologic environments, and benefits energy 
production, energy storage, CO<INF>2</INF> storage and disposal of 
hazardous materials.
AAPG supports the President's fiscal year 2015 request of $192 million 
        for this cross-cutting activity.
    Summary.--Thank you for the opportunity to present this testimony 
to the Subcommittee. Our Nation has the resources and capacity for a 
bright energy future. Ensuring this future requires prudent investment 
in R&D to deliver the science and technology needed to safely and 
efficiently supply the conventional energy sources we will rely on in 
coming decades, and the breakthroughs in new and alternative energy 
sources that will power the future.

    [This statement was submitted by Lee F. Krystinik, Ph.D. President, 
American Association of Petroleum Geologists.]
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the perspective of the 
American Geosciences Institute (AGI) on fiscal year 2015 appropriations 
for programs within the Subcommittee's jurisdiction. Department of 
Energy (DOE) investments in geoscience-related research and development 
(R&D) will help develop and sustain energy resources to support 
economic growth and resilient communities.
    AGI supports robust funding for science at DOE and the President's 
request of $5.111 billion for the Office of Science. AGI supports 
proposed increases to the Geothermal Energy Technologies Program and 
the continued funding of the Critical Materials Hub in the Office of 
Energy Efficiency and Renewable Energy. We support the Multiagency 
Collaboration on Unconventional Oil and Gas Research and DOE's proposed 
investment of $35 million in the Natural Gas Technologies Program. We 
note that there may be scope for increased collaboration between DOE 
and the U.S. Geological Survey in several of these programs. AGI 
supports funding for research and technology that will lead to a clean 
energy future and we also recognize that fossil fuels will continue to 
be important energy sources for several decades. We regret the severe 
cuts to Fossil Energy Research and Development, including the Focus 
Area for Carbon-Sequestration Science. We urge the Committee to fund 
continued research to support economically and environmentally 
efficient use of fossil fuels.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional associations that represent approximately 250,000 
geologists, geophysicists, and other earth scientists who work in 
industry, academia, and government. Founded in 1948, AGI provides 
information services to geoscientists, serves as a voice of shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to natural hazards, and the health of the environment.
DOE Office of Science
    The DOE Office of Science is the single largest supporter of basic 
research in the physical sciences in the United States. The Office of 
Science manages fundamental research programs in basic energy sciences, 
biological and environmental sciences, and computational science. The 
Biological and Environmental Research Program carries out important 
work in atmospheric modeling and the linkages between earth, 
biological, and human systems. AGI asks that you support the 
President's request of $5.111 billion for the Office of Science.
DOE Office of Energy Efficiency and Renewable Energy
    Geothermal Technologies Program.--The President is requesting a 
significant increase (of $15.725 million, or 34.4 percent) in funding 
for the Geothermal Technologies Program. This program is a world leader 
in supporting the development of geothermal energy, in funding applied 
geothermal research, and in linking the public and private sectors in 
this effort. AGI appreciates the work of the Geothermal Technology 
Program to facilitate data sharing across and between institutions. We 
note that ``the program will strengthen subsurface R&D collaboration 
with offices across DOE.'' Coordinating across DOE is an excellent 
first step but we urge the Committee to support interagency 
collaboration on subsurface R&D. The U.S. Geological Survey (USGS) is 
charged in its Organic Act with ``examination of the geological 
structure'' of the Nation and therefore has great experience and 
expertise in studying the subsurface. AGI asks the Committee to support 
interagency collaboration on subsurface R&D in order to avoid 
unnecessary duplication of effort and to ensure the most efficient use 
of Federal resources. AGI supports the requested increase for 
Geothermal Technologies.
    Advanced Manufacturing Program.--The Critical Materials Hub, a 
wide-ranging consortium led by Ames National Laboratory, is carrying 
out research that should increase resilience to possible disruptions in 
the supply chains of elements that are critical to the energy sector. 
The Hub is to ``develop solutions across the lifecycle of critical 
materials.'' We understand that DOE and the Hub focus on the mid-stream 
section of lifecycles, from processing to end-use applications and 
recycling, but the full lifecycle of mineral materials starts with 
understanding the earth processes that create ore deposits and 
continues through to ultimate disposal of the materials, which often 
involves storage or dispersal in the earth system. We urge DOE to take 
a more comprehensive and holistic view of the lifecycle of materials 
and to include geoscience aspects of materials in their lifecycle 
analyses. The USGS may be able to provide additional expertise in the 
geoscience of energy critical materials. AGI supports funding for the 
Critical Materials Hub of $25 million.
DOE Office of Fossil Energy Research and Development
    Natural Gas Technologies Program.--Developments in the production 
of natural gas have transformed the United States' energy portfolio and 
reduced the cost of energy significantly. It is appropriate that DOE is 
proposing a major increase ($14.4 million, or 69.9 percent) in the 
Natural Gas Technologies Program. AGI supports DOE's collaboration with 
USGS and the Environmental Protection Agency on the Multiagency 
Collaboration on Unconventional Oil and Gas Research. AGI supports 
funding of $35 million for Natural Gas Technologies.
    Coal Program.--The Energy Information Administration projects that 
about 50 percent of U.S. total energy use will come from coal, 
petroleum, and other liquids through at least 2040, and that more than 
30 percent of electricity will be generated from coal through 2040. 
Reducing greenhouse gas emissions is essential but, even with our best 
efforts, fossil fuels will remain important components of our energy 
system for decades, and we should not overlook any opportunity to 
improve the efficiency and lessen the impact of using fossil fuels. The 
President's budget proposes severe cuts to the Coal Program, including 
cuts to research on carbon capture and storage. AGI is particularly 
concerned about the proposed $29 million reduction in funds for Carbon 
Storage activities. Geological carbon sequestration requires both 
technology and detailed understanding of the storage reservoir. AGI 
believes that the proposed cut of $2.8 million (29 percent) to the 
Focus Area for Carbon Sequestration Science is premature and that 
further investigation of the geological aspects of carbon storage is 
warranted. We recognize that there may be overlapping responsibilities 
between USGS and DOE in Carbon Storage research and we urge the 
Committee to ensure that all Federal research is funded appropriately 
and coordinated efficiently.

    [This statement was submitted by Maeve Boland, Director of 
Geoscience Policy and Abigail Seadler, Geoscience Policy Associate, 
American Geosciences Institute.]
                                 ______
                                 
          Prepared Statement of the American Physical Society
    We write on behalf of the professional society of high energy 
physics, the Division of Particles and Fields (DPF) of the American 
Physical Society (APS). The Division of Particles and Fields has over 
3500 members and is one of the largest Divisions of the American 
Physical Society. We strongly endorse the written testimony of the 
Executive Committees of the High Energy Physics Users Organizations to 
the U.S. House Energy and Water Appropriations Subcommittee in support 
of the Department of Energy Office of Science and the National Science 
Foundation
    The declining budgets in the High Energy Physics program of the 
Department of Energy's Office of Science and the National Science 
Foundation will have devastating effects in our field that will be felt 
for decades. They will undermine our Nation's long-term leadership in 
fundamental science, our ability to capitalize on far-reaching 
technological innovations that have a critical effect on our economic 
growth, and our ability to train a new generation of the best and 
brightest scientists in the world who will contribute to our country in 
many different ways.
    We urge your committee to support fundamental science and sustain 
funding to our high energy physics research program.

    [This statement was submitted by the Executive Committee of the 
Division of Particles and Fields of the American Physical Society: Ian 
Shipsey, Chair; Nicholas Hadley, Chair-Elect; JoAnne Hewett, Vice 
Chair; Jonathan L. Rosner, Past Chair; Howard Haber, Secretary/
Treasurer; Laura Reina; Michael Tuts; Yuri Gershtein; Robert Bernstein; 
Robin Erbacher; Nikos Varelas; and Sally Seidel.]
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science Society with 39,000 members, wishes to submit the 
following recommendations in support of increased funding for the 
fiscal year 2015 budget for the Department of Energy (DOE) Office of 
Science. The DOE Office of Science has generated some of the Nation's 
most economically important innovations and supports a large share of 
basic research in the physical sciences as well as critical areas of 
microbiological research. The DOE Office of Science supports research 
through six core programs: Advanced Scientific Computing Research, 
Basic Energy Sciences, Biological and Environmental Research, Fusion 
Energy Sciences, High Energy Physics and Nuclear Physics. Some of the 
most powerful scientific advances have emerged from intersections 
between these programs, such as the Human Genome Project integrating 
biology with computing to launch a biotechnology revolution, or new 
biofuel energy produced with microbial enzymes or improved microbial 
hosts.
    The ASM strongly recommends increased funding for the DOE Office of 
Science and Biological and Environmental Research. In February, the 
National Science Board released its latest biennial measures of the 
U.S. position in global R&D, confirming that U.S. predominance in 
science and technology continues to falter as other nations accelerate 
their R&D investments. Since 2001, the U.S. share of worldwide R&D 
decreased from 37 percent to 30 percent. Despite these unfortunate 
trends downward, the U.S. is still investing twice as much in R&D as 
any other nation (though it has fallen to tenth place in terms of 
percentage of GDP). The U.S. also has maintained its global lead in 
research publications, patents and monetary value of its R&D based 
intellectual property exports. It is vitally important that Congress 
continues to make increased investments in basic research and the 
biological and environmental research funded by the DOE Office of 
Science. The opportunities to generate knowledge that will spurn 
innovation and support U.S. economic growth in the energy sector are 
too great to let advances from past investments move overseas.
    DOE Office of Science funding has proven to be the motivational 
force in a number of fields that might otherwise stagnate. DOE funds 
intramural projects at DOE national laboratories and grant recipients 
at universities and other institutions across the U.S. Reports on R&D 
in the U.S. regularly state the importance of federally funded 
university research in creating new companies and R&D jobs.
    DOE Office of Science funding has built and operates more than 30 
national scientific user facilities, which provide DOE and non-DOE 
researchers with the most advanced scientific tools, including 
supercomputers, particle accelerators, light sources and neutron 
sources and specialized facilities for studying the nanoworld or the 
environment. In fiscal year 2012, over 29,000 researchers from 
academia, industry and government labs utilized these unique facilities 
to perform research that might have been impossible elsewhere. The 
Office of Science also operates 10 of the 17 DOE national laboratories 
across the United States. This February, university scientists reported 
key surface structures on the viruses causing dengue fever and West 
Nile fever that help the pathogens replicate and spread infection. 
Their research utilized DOE's micro X-ray beam facility at Argonne 
National Laboratory to characterize the structures. The U.S. R&D 
enterprise benefits immeasurably from this unparalleled network of 
large scale research facilities, the collective expertise of DOE 
technical staff and training programs for scientists, engineers and 
mathematicians.
    Last May, DOE announced its fourth annual Early Career Research 
awards to boost the Nation's scientific workforce, allocating up to 
$15.3 million for research by 61 scientists at U.S. universities and 
national laboratories. DOE training grants help to ensure future 
expertise in critical R&D fields, many of which utilize microorganisms. 
For example, the 2013 R&D 100 Awards, which recognize top technology 
products, included products based on microbiology research at DOE 
laboratories: a lab kit that coordinates synthesis of foreign membrane 
proteins with synthesis of bacterial membranes to create membrane bound 
vesicles for use in drug discovery and other experiments; and a battery 
alternative that genetically modifies virus DNA to boost voltage 
produced by a biofilm of the virus (M13 phage), sandwiched between 
electrodes connected to external devices.
Office of Biological and Environmental Research
    The Biological and Environmental Research (BER) program has built a 
reputation as world class innovator in large scale genomics, biofuels, 
biogeochemical processes like terrestrial carbon storage and soil 
contaminant migration and climate change modeling. BER supports both 
basic research and scientific user facilities that redefine the crucial 
U.S. sectors of biotechnology, sustainable energy and environmental 
quality, with projects distributed between two divisions: Climate and 
Environmental Sciences (CESD) and Biological Systems Science (BSSD).
    The Biological Systems Science Division administers the Agency's 
programs in genomics based systems biology and radiological sciences, 
as well as the DOE Joint Genome Institute (JGI) and three DOE Bioenergy 
Research Centers. Using cutting edge genomics and powerful computing 
capability, BSSD supported research mines the genomes of microbial 
ecosystems to identify enzymes needed to process plant biomass, 
redesigns microbes for next generation biofuel production, advances 
understanding of global carbon cycle processes, and examines the role 
of biology in the fate of environmental contaminants. It also develops 
predictive computational models within the growing field of systems 
biology, along with tools for manipulating complex biosystems for 
practical applications. The JGI is a major user facility for genome 
sequencing that is an invaluable resource for the life sciences 
community.
    BER is preeminent in basic microbiology relevant to energy, climate 
and environment and in reengineering these microorganisms, ensuring a 
high value return on Federal investments of robust DOE funding. Among 
BER's impressive impact are exciting possibilities of cellulosic and 
hydrocarbon based biofuels made from nonfood feedstocks, and algae 
directly replacing gasoline and other fuels. BER funded scientists are 
identifying microbes that most efficiently break down plant fiber, 
while others are genetically modifying microbes to directly produce 
fuel. Some projects incorporate collaborations among multiple 
universities, national laboratories, private companies and nonprofit 
organizations. These efforts have great potential for slowing the 
release of carbon dioxide into the atmosphere and reducing atmospheric 
concentrations of carbon dioxide which would alleviate concerns about 
the impacts of global climate change.
    Recent DOE-BER Microbiology Research Highlights:
  --Recoding a Bacterial Genome Allows Biosynthesis of Proteins with 
        New Functions -Researchers have been able to expand the 
        possibilities of engineered protein functions by adding novel 
        amino acids to the repertoire that can be incorporated into 
        proteins. This work has tremendous implications for engineering 
        new organisms that can be used for producing proteins that 
        perform functions needed in DOE relevant processes, e.g. 
        biofuels production.
  --New Metabolic Pathway Discovered in Methane-Consuming Bacteria--
        Recent technological advances in natural gas extraction from 
        the deep subsurface also have vastly increased the supply of 
        methane for energy production and potentially as an alternate 
        carbon source for synthesis of fuels and other value-added 
        chemicals. These developments have focused increased attention 
        on biological processes that involve methane production. 
        Research on the role of methanotrophs in environmental carbon 
        cycle processes presents new opportunities for metabolic 
        engineering of these organisms as platforms for biological 
        conversion of methane to advanced biofuels and other products.
  --Novel Bioengineering Technique for Genome-Scale Tuning of Gene 
        Expression--Introduction of new genes encoding desired 
        functional attributes has long been a central tool for 
        metabolic engineering and synthetic biodesign of 
        microorganisms. Researchers developed a novel technique to more 
        accurately predict gene expression levels in engineered 
        biosystems. This new technique has the potential to allow much 
        more sophisticated forward design of genetic engineering 
        strategies to improve production of biofuels and other 
        bioproducts.
  --Higher Yields of Advanced Biofuels from Genetically Engineered 
        Yeast--The development of renewable substitutes for fuels and 
        chemicals supplied by petroleum is an important aspect of 
        achieving energy security. Ethanol is not an ideal gasoline 
        replacement due to its low-energy density, handling challenges, 
        and limited compatibility with the current transportation 
        fleet. Focus has shifted to the production of advanced 
        biofuels, designed to be ``drop-in'' fuels, having the same 
        properties as gasoline, diesel, or jet fuel.
  --New Understanding of Microbial Community Processes Improves Carbon 
        Cycle Models--Developing improved models of microbial processes 
        will generate more accurate projections of soil carbon 
        feedbacks on climate change and reduce a source of uncertainty 
        in current Earth system models (ESMs).
  --Plants, Fungi, and Microbes: Symbiosis in Carbon and Nitrogen 
        Cycling--Arbuscular mycorrhizal (AM) fungi form intimate 
        affiliations with the roots of many plant types. This classic 
        example of symbiosis is commonly understood to involve AM fungi 
        helping the plants take up soil nutrients. In exchange, the 
        fungi receive some of the sugars generated by the plants from 
        photosynthesis. These findings reveal another layer of 
        complexity in this symbiotic system and yield another important 
        puzzle piece towards understanding the complex routes by which 
        carbon and nitrogen flow through ecosystems.
  --Marginal Lands: A Valuable Resource for Sustainable Bioenergy 
        Production--Growing plants on marginal lands, or lands 
        unsuitable for conventional agricultural crops, is a promising 
        route towards attaining sufficient cellulosic biomass for the 
        production of biofuels without compromising food crops. If 
        properly managed, marginal lands could provide sufficient 
        biomass to support a viable cellulosic biofuel production 
        industry while benefiting conservation efforts and the 
        environment.
  --Watching Plant Biomass Breakdown to Improve Biofuel Production--
        Sustainable and cost effective production of biofuels from 
        plant biomass is hindered by the cost of pretreatment and low 
        sugar yields after enzymatic hydrolysis of plant cell wall 
        polysaccharides. Scientists at the U.S. Department of Energy's 
        (DOE) BioEnergy Science Center (BESC) and DOE National 
        Renewable Energy Laboratory (NREL) are using a combination of 
        advanced microscopic imaging methods to examine both fungal and 
        bacterial enzyme systems. With this new technology, they are 
        able to localize the enzymatic sites of action without 
        compromising the cell wall's structural integrity.
  --Soil Microbes Can Reduce Emissions of Nitrous Oxide, a Potent 
        Greenhouse Gas--The use of large amounts of nitrogen fertilizer 
        in modern agriculture has resulted in massive releases of 
        nitrous oxide rather than molecular nitrogen into the 
        atmosphere. In a new study, researchers have used a comparative 
        genomics approach to identify new gene sequences involved in 
        conversion of ammonia to molecular nitrogen, thus avoiding N2O 
        production completely, and demonstrated that this genetic 
        pathway is present in several abundant groups of soil microbes 
        not previously thought to be involved in nitrogen conversion.
    The Climate and Environmental Sciences (CES) Division plays a 
similarly unique role in research on terrestrial ecosystems, 
atmosphere, water and nutrient cycling in soils, climate change and 
environmental effects of energy production and use. Non-DOE researchers 
regularly access its user facilities (ARM Climate Research Facility and 
Environmental Molecular Sciences Laboratory), which provide the latest 
tools to analyze phenomena like contaminant mineral microbial 
interactions or biomarkers for disease. Recently reported CES supported 
work includes the discovery that soil containing high levels of certain 
types of symbiotic fungi contains about 70 percent more carbon than 
soils with other fungal types, a striking difference that might be 
attributable to varying fungal competition for nitrogen. Other research 
suggests that long term climate warming increases the microbial carbon 
use efficiency associated with degradation of complex carbon compounds 
such as phenol, but not of simple carbon compounds like glucose. 
Another CES focus, understanding the role of soil microorganisms in the 
fate and transport of environmental contaminants, continues to identify 
details important to environmental quality, such as the impact of 
bacterial biomass in the soil on which State of uranium is present, or 
finding a two gene cluster required by methylating bacteria to produce 
the neurotoxin methyl mercury from inorganic mercury in the 
environment.
    The DOE Office of Science funding is vitally important to U.S. 
innovation and economic growth and its programs clearly contribute to 
U.S. global competitiveness in science and technology. The ASM urges 
Congress to fund the DOE Office of Science at the highest level 
possible in fiscal year 2015. The DOE Office of Science advances 
science that addresses the growing challenges of energy and 
environmental change.
                                 ______
                                 
   Prepared Statement of the American Society of Agronomy, the Crop 
   Science Society of America and the Soil Science Society of America
    Dear Chairman Tom Harkin, Ranking Member Richard C. Shelby, and 
Members of the Subcommittee: The American Society of Agronomy (ASA), 
Crop Science Society of America (CSSA), and Soil Science Society of 
America (SSSA) urge the subcommittee to support $5.223 billion for the 
Department of Energy's (DOE) Office of Science in fiscal year 2015 
appropriations.
    Within the DOE Office of Science, we specifically support:
  --$1.807 billion for Basic Energy Sciences (BES)
  --$628 million for Biological and Environmental Research (BER)
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 members in academia, industry, and government, 12,500 
Certified Crop Advisers (CCA), and 781 Certified Professional Soil 
Scientist (CPSS), as the largest coalition of professionals dedicated 
to the agronomic, crop and soil science disciplines in the United 
States. We are dedicated to utilizing science to manage our 
agricultural system and sustainably produce food, fuel, feed, and fiber 
for a rapidly growing global population in the coming decades.
    Agriculture and agriculture-related industries contributed $742.6 
billion to the U.S. gross domestic product (GDP) in 2011, a 4.8-percent 
share. In 2012, 16.5 million full- and part-time jobs were related to 
agriculture--about 9.2 percent of total U.S. employment. However, even 
though increased agricultural productivity, arising from innovation and 
changes in technology, is the main contributor to economic growth in 
U.S. agriculture not all people at all times have to access to enough 
food for an active and healthy life. The global number of food-insecure 
people is estimated at 707 million in 2013, up 3 million from 2012. By 
2023, the number of food-insecure people is projected to increase 
nearly 23 percent to 868 million, slightly faster than population 
growth. The Nation's economic prosperity and security depend on our 
dedication to developing innovative, science-based solutions to meet 
our growing agricultural needs and managing efficient food systems.
    Energy, agriculture, and food production are inextricably linked. 
In 2007, 16 percent of the national energy budget went to producing, 
distributing, processing, preparing and preserving the plant and animal 
matter we consume. Plant breeding and advances in biotechnology can 
develop new plant varieties with characteristics that could help 
mitigate greenhouse gases by increasing crop yields, increase the 
storage of carbon in soil, and improve efficiency of fertilizers 
produced from fossil fuels.
Basic Energy Sciences
    The Basic Energy Sciences (BES) program is a multipurpose, 
scientific research effort that fosters and supports fundamental 
research to expand the scientific foundations for new and improved 
energy technologies and for understanding and mitigating the 
environmental impacts of energy use. The research disciplines that the 
BES program supports include chemistry, soil, mineralogical, and 
geosciences. These subjects influence virtually every aspect of energy 
production, conversion, transmission, storage, efficiency, and waste 
mitigation.
    The Chemical Sciences, Geosciences, and Biosciences subprogram 
supports the quest to understand and control chemical processes and the 
transformation of energy at the molecular scale in systems spanning 
simple atoms and molecules, active catalysts, and larger biochemical or 
geochemical systems.
Biological and Environmental Research
    The Biological and Environmental Research (BER) program produces 
advanced environmental and biological knowledge that supports national 
security through improved energy production, international scientific 
leadership, and research that improves the quality of life for all 
Americans. BER supports these vital missions through competitive and 
peer-reviewed research at national laboratories, universities, and 
private institutions.
    Genomic science within BER supports basic, multidisciplinary 
research aimed at achieving a systems-level understanding of plants, 
microbes, and microbial communities relevant to Department of Energy 
missions in bioenergy, carbon management, and the environment. By 
revealing the genetic blueprint and fundamental principles that control 
plant and microbial systems, the Genomic Science program is providing 
the foundational knowledge underlying biological approaches to 
producing biofuels, sequestering carbon in terrestrial ecosystems, and 
cleaning up contaminated environments. The fundamental scientific 
advances emanating from this program are transferable to a broad range 
of application areas and lay a foundation for new generations of 
industrial biotechnologies.
    We must close the innovation deficit if the United States is to 
remain the world's innovation leader in agriculture. China continues to 
exhibit the world's most dramatic R&D growth at 20.7 percent annually, 
compared to the United States at 4.4 percent growth over the same time 
period. By 2009, agriculture R&D fell to a historically low 0.035 
percent share of the United States economy, a level far below the total 
U.S. R&D spending and that which is necessary to meet the critical 
challenges facing U.S. agriculture in the 21st century.
    Support for Department of Energy's Office of Science is essential 
to maintain the capacity of the United States to conduct both basic and 
applied agricultural research, to improve crop and livestock quality, 
and to deliver safe and nutritious food products while protecting and 
enhancing the Nation's environment and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.

    [This statement was submitted by Karl E. Anderson, Director of 
Government Relations.]
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record to support the highest 
funding level possible for the Department of Energy (DOE) Office of 
Science for fiscal year 2015. ASPB supports the fiscal year 2015 
request for the Office of Basic Energy Sciences at $1.8 billion and the 
Office of Biological and Environmental Research at $628 million. The 
testimony highlights the importance of biology--particularly plant 
biology, which is a major backbone for enhanced bioenergy production--
as the Nation seeks to address energy security and other vital issues.
    ASPB recognizes the difficult fiscal environment our Nation faces 
but believes investments in scientific research will be a critical step 
toward economic recovery. We would also like to thank the Subcommittee 
for its consideration of this testimony and for its support for the 
basic research mission of the DOE Office of Science.
    ASPB is an organization of approximately 4,500 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members across the Nation and throughout the world. A 
strong voice for the global plant science community, our mission--
achieved through work in the realms of research, education, and public 
policy--is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
Fuel, Food, Environment, and Health: Plant Biology Research and 
        America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
most life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of domestic fuel security and 
environmental stewardship; the continued and sustainable development of 
better fuels, foods, fabrics, pharmaceuticals, and building materials; 
and in the understanding of basic biological principles that underpin 
improvements in plant growth and home-grown energy sources for all 
Americans.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, discoveries will enable 
energy crops that are more drought and pest tolerant, thereby greatly 
boosting yields. Bioenergy research encompasses fundamental and applied 
plant biology, engineering, chemistry, and physics, representing 
critical frontiers in both basic biofuels research and bioenergy 
production. Similarly, with the increase in plant genome sequencing and 
functional genomics, the interface of plant biology and computer 
science has become essential to our understanding of complex biological 
systems, ranging from single cells to entire ecosystems. This research 
is critical for our future in bioenergy production.
    Despite the fact that foundational and mission-oriented plant 
biology research--the kind of research DOE funds--underpins vital 
advances in practical applications in energy, health, and the 
environment, plant scientists have had to maximize and leverage modest 
Federal funding in order to understand the basic function and 
mechanisms of plants. A strong investment in plant biology research is 
important considering the significant positive impact crop plants have 
on the Nation's economy and in addressing some of our most urgent 
challenges like energy and food security.
    In order to address these future challenges, ASPB organized a two-
phase Plant Science Research Summit in September 2011 and January 2013. 
With support and funding from DOE, the National Science Foundation, the 
U.S. Department of Agriculture, and the Howard Hughes Medical 
Institute, the Summit brought together representatives from across the 
full spectrum of plant science research to develop a research agenda. 
Released in August 2013 as Unleashing a Decade of Innovation in Plant 
Science: A Vision for 2015-2025 (plantsummit.files.wordpress.com/2013/
07/plantsciencedecadalvision10-18-13.pdf), the report puts forth a ten-
year consensus plan to fill critical gaps in our understanding of plant 
biology and address the grand challenges we face. As a research 
community, our vision is to create plant systems that are flexible and 
adaptable to new and existing challenges by increasing the predictive 
and synthetic abilities of plant biology. In achieving these goals, the 
plant science research community will make significant contributions 
to:
  --Exploring, conserving, and utilizing our natural resources;
  --Protecting, maintaining, and improving energy crop productivity; 
        and
  --Creating new plant-inspired industries.
Recommendations
    Because the ASPB membership has extensive expertise and 
participation in the academic, industry and government sectors, ASPB is 
in an excellent position to articulate the Nation's plant science 
priorities as they relate to fundamental plant biology and, 
specifically, with regard to recommendations for bioenergy research 
funding through DOE's Office of Science.
    Within the Office of Science, the programs in Biological and 
Environmental Research (BER) and Basic Energy Sciences (BES) are 
crucial to understanding how basic biological processes work. For this 
reason, ASPB supports the administration's fiscal year 2015 request for 
the Office of Basic Energy Sciences and the Office of Biological and 
Environmental Research. Sustained funding for these programs is vital 
as the discoveries made in these areas will ultimately be the 
foundation for the next fuels and technologies we use in our daily 
lives.
    In addition:
  --We commend the DOE Office of Science, through its programs in BES 
        and BER, for funding the Bioenergy Research Centers and the 
        Energy Frontier Research Centers. These centers provide a model 
        for collective science innovation that complements DOE's 
        essential investment in individual investigator and small group 
        science. ASPB strongly encourages additional funding for the 
        DOE Office of Science that would specifically target funding at 
        individual or small-group grants for bioenergy and plant growth 
        research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE Office of 
        Science has been the major source of funding for fundamental 
        studies of photosynthesis, which is the primary source of 
        chemical energy on the planet. However, the current funding 
        available for photosynthetic research is not commensurate with 
        the central role that photosynthesis plays in energy capture 
        and carbon sequestration. Hence, ASPB calls for the Office of 
        Science to expand its research portfolio in the area of 
        photosynthesis and carbon capture.
  --Considerable research interest is now focused on the processing of 
        plant biomass for energy production. Fundamental discoveries of 
        the genes that control plant growth and enable plant growth in 
        response to stresses, including drought, are needed to secure 
        our energy future. If biomass crops, including woody plants, 
        are to be used to their full potential, extensive effort must 
        be expended to improve our understanding of their basic biology 
        and development, as well as their agronomic performance and 
        conversion efficiency in processing to fuels and high-value co-
        products. Therefore, ASPB calls for DOE to support research 
        targeted at efforts to increase the utility and agronomic 
        performance of bioenergy feedstocks both in the field and for 
        their end users in the bioeconomy.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. For more information about the 
American Society of Plant Biologists, please see www.aspb.org.
    Fiscal year 2015 Budget Testimony from American Society of Plant 
Biologistswww.aspb.org
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Energy and Water Development this testimony on 
fiscal year 2015 appropriations for the Department of Energy (DOE). 
Specifically, the governors request fiscal year 2015 funding of no less 
than the current levels for DOE's Office of Energy Efficiency and 
Renewable Energy, including at least $63 million for the base formula 
State Energy Program and at least $230 million for the Weatherization 
Assistance Program, and no less than current funding for the Office of 
Science and ARPA-E. In addition, the governors request $122.5 million 
for the Energy Information Administration, and sufficient funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve.
    The governors recognize the fiscal challenges that continue to 
confront Congress this year. They also believe that strong Federal-
state partnerships for energy must be continued and strengthened 
through robust funding and close program collaboration. The CONEG 
governors strongly support the efficient use of energy in all sectors, 
and a reliable and diverse mix of affordable and environmentally sound 
energy options. As technology and innovation drive the transformation 
of domestic energy production and energy markets, an effective Federal 
partner in energy is critical for the nation's consumers--individuals 
and businesses--to count upon diverse sources of energy, an effective 
and reliable energy infrastructure network, and the efficient use of 
energy throughout the economy.
    Continued adequate Federal funding for critical energy programs and 
initiatives is crucial to improving the nation's energy security and 
independence while helping businesses and households across the nation 
reduce their energy costs. Maintaining funding for the programs of the 
Office of Energy Efficiency and Renewable Energy, the Office of 
Electricity Delivery and Energy Reliability, the Office of Science, and 
ARPA-E are sound investments that reinforce the foundation of the U.S. 
economy by strengthening the resiliency and efficiency of the nation's 
energy infrastructure, and creating new products and new jobs.
Office of Energy Efficiency and Renewable Energy
    The governors request no less than the current level of funding for 
the Office of Energy Efficiency and Renewable Energy (EERE) in fiscal 
year 2015. The Office leads a large network of researchers, 
manufacturers, and state and local governments who work together to 
advance research on and greater use of energy efficiency and renewable 
energy technologies throughout the U.S. economy. The office 
successfully strives to develop cost-competitive clean electricity 
generation and thermal technologies that take advantage of the nation's 
abundant solar, wind, water, biomass and geothermal energy resources. 
EERE's partners continually develop cost-effective innovative 
technologies with the goal of advancing clean, efficient energy use, 
creating jobs, and reducing the energy costs in the residential, 
commercial, manufacturing, and transportation sectors.
State Energy Program
    The CONEG governors request at least $63 million in fiscal year 
2015 for the State Energy Program (SEP), a proven cost-shared program 
that brings the Federal and state governments and private sector 
together in partnerships that help the nation increase its energy 
security and economic competitiveness. SEP partnerships help deliver 
results ``on the ground'' by facilitating private sector delivery of 
energy innovation in high value programs and projects; increasing 
market acceptance of energy efficiency, renewable energy and domestic 
energy resources; and using innovative approaches to reach diverse 
market segments across the nation.
    The governors particularly urge that these funds be provided as 
base SEP formula funding so these partnerships can continue to identify 
and deliver energy use reductions and energy cost savings in 
residential, commercial, industrial, power generation, agricultural and 
transportation sectors across the nation. The base SEP program is 
particularly important to smaller states since it allows them to 
identify and leverage non-Federal resources toward energy efficiency, 
conservation and renewable energy initiatives.
    The SEP funds allow each state to carry out a wide variety of 
activities most appropriate for its unique energy profile, needs and 
goals--activities that provide meaningful economic benefits to business 
and consumers. SEP provides an indispensable source of funding for 
state energy offices to conduct important research, regional 
collaboration, outreach, and policy work. In the Northeast, SEP funds 
have contributed to residential energy audits, installation of real-
time energy meters in buildings, solar installations at water and 
wastewater treatment facilities, and residential retrofits--all 
resulting in reduced energy use, reduced emissions, and lower energy 
costs to households and businesses. SEP funds have also contributed to 
saving and creating jobs by leveraging investment in clean energy 
projects and helping energy-intensive industries become more 
competitive by reducing their energy costs.
    The SEP program yields proven energy and economic benefits. The 
most recent Oak Ridge National Laboratory cost-benefit analysis of the 
program found that every $1 in SEP funding yields $7.22 in annual 
energy cost savings, $10.71 in leveraged funding, and annual energy 
savings of 1.03 million source BTUs. The DOE estimates that, based on 
recent appropriations levels, the SEP program results in an annual 
energy cost savings of more than $300 million.
Weatherization Assistance Program
    The CONEG governors request at least $230 million in fiscal year 
2015 for the Weatherization Assistance Program (WAP) to help alleviate, 
immediately and long term, the energy burden of low-income households. 
This level of funding is needed for WAP to effectively carryout its 
mission to help low-income families improve the efficiency of their 
homes, reduce their energy costs, and live in a safer, more healthy 
home. Adequate funding for WAP is particularly important in the 
Northeast where winters are long and cold, and many low-income homes 
must heat with expensive delivered fuels.
    A total of 7.4 million households nationwide now live in more 
energy efficient homes, due to WAP and its leveraged investment. Much 
more work lies ahead. Over 30 million homes are eligible for 
weatherization, yet less than 100,000 of these low-income homes can be 
weatherized each year based on recent WAP appropriations. 
Weatherization programs are cost effective investments that have 
demonstrated success in reducing the primary heating fuel use by an 
average of 23 percent per household. The U.S. Department of Energy 
estimates that, depending on fuel prices, the annual energy bill of 
households receiving weatherization services is reduced by an average 
of $437. For every $1 invested, WAP returns $2.51 in benefits, 
including $1.80 in energy savings, according to DOE.
Office of Electricity Delivery and Energy Reliability
    The governors request no less than the current level of funding for 
the Office of Electricity Delivery and Energy Reliability (OE) in 
fiscal year 2015. A secure, reliable, efficient, and safe 
interdependent energy infrastructure--wholesale and retail, 
transmission grids and pipelines, petroleum terminals, barge, rail and 
trucking fleets--is vital to the security and economic competitiveness 
of the nation's people and its businesses. Equally important to the 
nation's security and economy are effective partnerships and 
collaboration--among the public and private sector and across political 
jurisdictions and levels of government--that can reduce or mitigate 
potential risks to the nation's energy networks, moderate the impacts 
of a disruptive event, and speed an effective response and recovery.
    Therefore, the governors also urge the Congress to provide Federal 
funding grants to states that will enable them to continue as effective 
partners in planning and implementing energy assurance initiatives. The 
northeast states, like many other regions across the country, have 
first-hand experience with the extensive, costly impacts that afflict 
the safety, health and pocketbooks of households, businesses, and 
public services when a region's energy infrastructure--wholesale 
delivery and service to individual homes and businesses--is disrupted 
or destroyed on a massive scale by extreme weather and other hazards. 
State officials are ``front-line players''--before, during and 
afterwards--when extreme weather and other risks threaten energy 
infrastructure. They provide information and coordination among energy 
providers, communities, first responders and recovery personnel, and 
state and Federal agencies in their own and neighboring states. Direct 
Federal funds to states will enable them to continue the informational 
and outreach networks, and participate in training exercises that are 
vital to effective and timely responses when critical energy 
infrastructure is threatened.
Office of Science
    The CONEG governors request no less than current funding levels for 
the Office of Science in fiscal year 2015. The basic research conducted 
and sponsored by the Office is vital to strengthening the nation's 
leadership in science, and maintaining and enhancing U.S. 
competitiveness in the international field of scientific research. 
Basic research is a foundation to advancing the efficient production, 
delivery and use of energy throughout the nation's economy. For 
example, the Office of Basic Energy Sciences has established 46 Energy 
Frontier Research Centers (EFRCs) involving universities, national 
laboratories, nonprofit organizations, and for-profit entities to 
integrate the expertise and talent of the nation's leading scientists 
to conduct research toward meeting the critical energy challenges of 
strengthening the nation's energy security and protecting the global 
environment. Energy Innovation Hubs are integrated research centers 
that facilitate the collaboration of top scientists from academia, 
industry, and government to accelerate the path of critical energy 
technologies from basic laboratory research to pre-deployment of new 
technologies.
Advanced Research Projects Agency--Energy
    The CONEG governors request no less than current funding levels for 
Advanced Research Projects Agency--Energy (ARPA-E) in fiscal year 2015. 
Innovation in energy technologies is vital to achieve the goal of 
ensuring reliable, secure energy through the development and delivery 
of environmentally sound domestic energy and the creation of diverse, 
clean, sustainable and affordable energy portfolios. ARPA-E was created 
to accelerate research and development on high-risk, high-reward energy 
technologies--investment that is critical to advancing the nation's 
energy future, but may not be a feasible investment for the private 
sector. This transformative R&D is done in partnership with industry 
and academia, focusing on innovative breakthrough technologies for the 
generation, storage, distribution, and use of energy. ARPA-E strives to 
maximize speed and efficiency, and its management principles and 
practices have been recognized by government and industry.
Energy Information Administration
    The governors request at least $122.5 million in fiscal year 2015 
funding for the Energy Information Administration (EIA). As the 
independent statistical arm of the Department of Energy, EIA is the 
leading source for reliable impartial data, analyses and forecasts on 
U.S. energy production, demand, consumption, imports and prices. EIA's 
workload has greatly increased as national and global energy markets 
undergo dynamic change, and as emerging technologies change the 
landscape of energy production and delivery. These changes have made 
more vital than ever the comprehensive, timely, objective information 
and analyses that EIA provides to Federal, state and local government 
and private sector policy-makers as they develop critical energy, 
economic, security, and environmental strategies. For example, changes 
in natural gas markets and in environmental requirements for distillate 
fuels can affect the logistics chains that provide products to the 
Northeast, a region that is particularly vulnerable to supply 
disruptions and price volatility. EIA's close monitoring of market 
developments and the accurate and timely price and supply data in EIA's 
state heating oil and propane survey allows decision-makers to act 
quickly in the event of a supply disruption. EIA also collects, 
analyzes and distributes a wide range of information to help consumers 
make informed household decisions, understanding the interaction 
between energy, the economy and the environment.
Northeast Home Heating Oil Reserve
    The CONEG governors request sufficient fiscal year 2015 funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve. 
The Northeast is uniquely dependent on home heating oil. Over 25 
percent of northeast homes use fuel oil for heating. These homes 
account for over 80 percent of residential heating oil use nationwide, 
making the region particularly vulnerable to the effects of supply 
disruptions and price volatility.
    In the event of a supply disruption, the Reserve provides a buffer 
that allows additional time for supplies to reach the region. Reserve 
locations are strategically placed throughout the region to respond 
rapidly and efficiently to any emergency supply interruption.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
    CURC fiscal year 2015 Budget Recommendation.--CURC is recommending 
that the Carbon Capture and Storage (``CCS'') & Power Systems research 
& development (``R&D'') program (part of the Fossil Energy Program) be 
funded at $410 million, an increase of $133 million over the 
President's Request and $18 million more than Congress appropriated in 
fiscal year 2014.
    Introduction and Importance of Coal.--This statement is submitted 
on behalf of the membership of the Coal Utilization Research Council 
(``CURC'').\1\ The United States' vast and inexpensive coal resources 
are an important source of American jobs and economic growth. In 2013, 
nearly 40 percent of the electricity delivered to consumers in the U.S. 
was generated from existing coal-fueled power plants. This fleet 
produces electricity at an average cost of 3 cents/kWh power as opposed 
to 6-10 cents/kWh for any new baseload power plant that would be built 
today. Low cost electricity is a stimulus to the economy: with every 10 
percent reduction in the average price of electricity, there is a 1 
percent increase in GDP.\2\ Low cost electricity provides a competitive 
edge for U.S. manufactured goods and improves our balance of payments. 
Further, the ready availability, reliability, and consistent price of 
coal has guaranteed fuel options for U.S. electricity generation and 
assured electricity consumers of affordable, reliable power even during 
times of volatile price swings by other fuel sources. And while every 
energy resource has its own set of advantages and challenges, coal has 
a long history of success in meeting its environmental challenges. We 
have successfully addressed environmental challenges through the 
application of technology and while coal use has doubled since the 
1970's, emissions of criteria pollutants from coal, per unit of 
electricity generated have decreased by 85 percent.
---------------------------------------------------------------------------
    \1\ CURC is an organization of coal-using utilities, coal 
producers, equipment suppliers, universities and institutions of higher 
learning, and several State government entities interested and involved 
in the use of coal resources and the development of coal-based 
technologies (see www.coal.org).
    \2\ Deschenes, Climate Policy and Labor Markets, Working Paper 
16111, National Bureau of Economic Research, June 2010, www.nber.org/
papers/w16111.
---------------------------------------------------------------------------
    CURC 3-Part Program..--CURC has developed a comprehensive 
technology program designed to support an achievable energy future. The 
CURC program calls for the application of technology to three different 
market segments of the coal industry, (i) today's existing fleet of 
coal plants; (ii) a transitional market for new coal-fueled facilities 
over the next 10 to 15 to years; and (iii) a future market that 
contemplates new, transformational electricity generation systems that 
can serve as a replacement option for the existing fleet of baseload 
plants in the next 15-25 years. To be successful, this program needs 
enhanced levels of funding targeted to specific technology areas 
identified in the program, and it will require a regulatory and public 
policy framework that supports coal use. CURC's fiscal year 2015 
recommendations for the Department of Energy's Fossil Energy R&D 
Program and specifically the CCS & Power Systems program budget are 
keyed to CURC's 3-Part Technology Program, with a particular focus on 
those RD&D activities identified in the CURC-EPRI Coal Technology 
Roadmap (``Roadmap'').\3\ Full funding and aggressive implementation of 
the Roadmap is expected to result in coal-based power plants in 2025 
that continue to provide affordable electricity that is competitive 
with natural gas and other fuels. Through a combination of improved 
conversion efficiency and significantly reduced cost to capture carbon 
dioxide (``CO<INF>2</INF>''), these next generation plants will emit 75 
percent less CO<INF>2</INF> than today's new natural gas-based power 
plant. Additional benefits include vastly improved water and by-product 
management.
---------------------------------------------------------------------------
    \3\ Members of CURC, together with the Electric Power Research 
Institute (``EPRI''), have developed a Technology Roadmap (``Roadmap'') 
that defines the research, development and demonstration (``RD&D'') 
necessary to ensure that the benefits of coal utilization in the U.S. 
continue into the future.
---------------------------------------------------------------------------
    Background for CURC fiscal year 2015 Budget Recommendation.--The 
CURC proposed increases to the requested CCS & Power Systems R&D budget 
will allow for development of technologies that can be applied to both 
the existing and new fleet of coal power plants, as well as industrial 
coal processes. Activities that advance technologies for the benefit of 
the existing fleet as well as new coal generation systems are needed, 
such as improvements to the next generation of CO<INF>2</INF> capture, 
including sorbents, solvents and advanced membranes for retrofit or new 
plant applications; programs aimed at improving the reliability, 
flexibility and efficiency of the existing fleet; and advanced water 
management. In addition, greater emphasis toward accelerated 
development of promising transformational technologies, which are 
distinguishable by their reliance upon novel chemical reactions or 
alternative combustion methods where a stream of CO<INF>2</INF> is 
produced through application and operation of the technology itself, 
rather than the installation and operation of separate and additional 
CO<INF>2</INF> capture equipment, is required. CURC believes that the 
rapid development of transformational energy systems is required so 
that they can be commercially available within the next 15 years, a 
time when a significant portion of the existing coal-fired electric 
generating fleet may be candidates for retirement. CURC's budget 
recommendations also call for the initial funding of R&D activities 
beyond the laboratory and bench scale applications. Many technologies 
are now ready for pilot scale application. Lastly, CURC emphasizes the 
need for a program to support ``breakthroughs'' in technology R&D 
across several program areas that encourage revolutionary approaches to 
converting coal to useful energy and products. This also includes 
aggressive R&D to examine beneficial uses of coal ash, carbon dioxide 
and other constituents that remain after coal use. Much of this 
innovation work should be initiated at universities and research 
institutions. CURC's detailed programmatic and budget recommendations 
are provided below.
Advanced Energy Systems
  --Advanced Combustion (Transformational Energy) Systems. R&D in this 
        program should support accelerated development of 
        transformational technologies including pressurized oxy-
        combustion, chemical looping and supercritical CO<INF>2</INF> 
        cycles. CURC recommends a total of $60 million for this program 
        in fiscal year 2015, an increase of $45 million over the 
        President's request. Of this, $30 million should support 
        additional pilot plant tests, completing design studies for 
        large pilot plants, and advanced materials issues associated 
        with the development of these advanced high temperature and 
        pressure transformational energy systems. Another $15 million 
        should support work in the areas of efficiency improvement, 
        mercury control, and oxy-combustion as recommended in the 
        Roadmap. The final $15 million should support new, 
        supercritical CO<INF>2</INF> (S-CO<INF>2</INF>) cycle 
        development by investigating S-CO<INF>2</INF> cycles in coal-
        fired power plants, new fired heater designs, and recuperative 
        heat exchangers, which will be necessary to properly evaluate 
        the potential of using CO<INF>2</INF> as the working fluid in 
        coal-fired power plants.
  --Gasification. CURC recommends $32 million for this program, an 
        increase of $10 million over the request, designed to support 
        Roadmap-identified advancements in both cost and performance 
        for power (Integrated Gasification Combined Cycle, ``IGCC'') 
        and poly-generation (power plus chemicals) gasification 
        systems. CURC recommends that funds support activities that 
        represent a shift in the gasification program towards more 
        compact, modular sized systems; higher efficiency; utilization 
        of higher moisture content coals; reduced water usage; and 
        advanced manufacturing applications for gasification systems. 
        Examples of R&D to support this shift includes advancing dry-
        feed, high pressure systems; development of compact gasifiers; 
        and integration optimization. Activities that merely support 
        incremental improvements to current systems (e.g. refractory 
        liner life) should be phased out except for those activities 
        that reduce costs for integration.
  --Turbines. CURC recommends $20 million (an increase of $9 million 
        over the President's request) as follows: (1) $10 million to 
        initiate R&D related to high pressure ratio, high temperature 
        turbines for S-CO<INF>2</INF> cycles, and (2) $10 million to 
        complete Phase II hydrogen turbine development already underway 
        in the program, in preparation for future market opportunities 
        for hydrogen use.
  --Coal and Coal Biomass to Liquids. CURC recommends $5 million for 
        this program (which was zeroed out in the President's budget) 
        to improve cost and efficiency of coal-to-fuels technology 
        implementation. This program will help to establish U.S. 
        leadership in the growing and highly competitive global 
        gasification market, particularly as there is increased 
        interest for on-shoring of manufacturing in the U.S.
    Cross Cutting Research.--CURC recommends $79.3 million for the 
Cross Cutting Research program (an increase of $44 million over the 
request). The Cross-Cutting program funds several activities important 
to the existing fleet of plants, such as sensors and controls and water 
management, as well as R&D applicable to both the new and existing 
fleet, including high temperature materials. CURC is very supportive of 
these and other cross cutting subprograms, and unless otherwise stated, 
CURC recommends that cross cutting subprograms be funded at fiscal year 
2014 enacted levels including the AUSC program at $5 million. Our 
further recommendations are as follows:
  --Water Management R&D: Funding should be increased to $10 million.
  --University Training and Research: Increase funding to $5 million 
        for university training and research, which is extremely 
        important to the development of talent for this industry (which 
        is currently experiencing a very large generation gap) that 
        will provide a continued source of scientific innovation.
  --Materials R&D: While CURC applauds the proposal of $1.5 million to 
        support cross-cutting materials R&D, and recommends that this 
        activity support development needs for supercritical 
        CO<INF>2</INF> systems, this is not enough. CURC again 
        recommends that an additional $14 million be allocated to 
        support the development of a component test (COMTEST) facility 
        which is critical to assessing high temperature and pressure 
        materials (A-USC), under real operating conditions while firing 
        a variety of U.S. coals. India, China, Japan, and Europe all 
        have nationally funded programs for development of such 
        materials. If the U.S. is to supply its own power generation 
        industry and become competitive in the growing global market, 
        the test facility is essential to development of materials and 
        fabrication techniques that will enable U.S. suppliers to 
        manufacture these products and export the components and know-
        how
  --Breakthrough Technology: CURC recommends $16 million to initiate an 
        innovative, breakthrough technology R&D program focused on 
        novel approaches to converting coal to useful energy and 
        products, such as nanotechnologies, bioprocesses and new 
        materials, supported by academia and research institutions. 
        Funding for projects should be sufficient to support 
        innovation.
    Carbon Capture.--CURC is in alignment with programmatic direction 
and the proposed funding levels for pre- and post-combustion capture, 
and is requesting no change from the President's proposed budget for 
this program.
    Carbon Storage.--CURC recommends $87 million for fiscal year 2015, 
an increase of $7 million over the President's request. The Regional 
Carbon Sequestration Partnerships (``RCSPs'') have made significant 
progress in fully characterizing storage opportunities in a variety of 
geographic areas. CURC recommends that the RCSP projects be funded at 
$57 million annually through 2020 so they can fulfill each project's 
requirements through closure and final reporting. CURC is also 
recommending that DOE initiate a new program to characterize geologic 
storage sites for commercial scale (large volume, 1 million tonnes per 
year, ``MTPY'') CO<INF>2</INF> saline storage. At present, there is 
only one planned project, FutureGen 2.0, slated to inject 
CO<INF>2</INF> into a saline formation at a minimum of 1 MTPY. While 
CURC supports the storage of CO<INF>2</INF> in enhanced oil recovery 
(EOR) reservoirs, the EOR capacity in the U.S. is not sufficient, nor 
is the EOR opportunity geographically distributed to accommodate broad 
deployment of CO<INF>2</INF> storage. Further, saline storage has been 
tested in only one geologic area, the Illinois Basin, and one geologic 
formation, Mt. Simon. CURC recommends $10 million to initiate this 
program for DOE to assess and characterize the geologic storage 
potential of two geographically diverse sites for accepting large 
volumes (more than 1 MTPY) of CO<INF>2</INF>.
    NGCC CO<INF>2</INF> Capture Demonstration.--CURC applauds the 
Administration for recognizing the management of CO<INF>2</INF> 
emissions is not limited to coal through the proposed $25 million to 
support the demonstration of CO<INF>2</INF> capture on a natural gas 
combined cycle (``NGCC''). However, if the Administration wishes to be 
successful, the requested amount is woefully inadequate to demonstrate 
commercial operation of CCS. Second, CURC recommends that any funding 
for NGCC capture of CO<INF>2</INF> be in addition to--and not taken out 
of--funds for Coal RD&D.

    [This statement was submitted by Ben Yamagata, Executive Director, 
Coal Utilization Research Council.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2015 appropriation of a 
minimum of $5.4 billion for the Department of Energy Office of Science 
(DOE SC). This is the level authorized for DOE SC in 2011 by the 
America COMPETES Act, and represents a commitment to the sustainability 
of the unique national laboratory system, as well as the critical 
extramural research program.
    FASEB, a federation of 26 scientific societies, represents more 
than 120,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. Our 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences.
    The DOE SC is the principal Federal agency supporting fundamental 
energy research and is the Nation's largest supporter of basic research 
in the physical sciences, providing funding for research at over 300 
institutions in all 50 States. The DOE SC also funds and manages ten 
world-class DOE national laboratories, which provide over 29,000 
government, university, and industry scientists with access to 
supercomputers, x-ray light sources, and sophisticated technologies for 
nanoscience and genome sequencing. Unique resources for academic and 
government scientists, the DOE SC labs are also critical to the 
research and development capabilities of over forty Fortune 500 
companies including GE Healthcare, Ford Motor, Boeing, and Pfizer and 
dozens of small businesses.
    Recent highlights from DOE SC-funded scientific research include:
  --Developing a Longer Lasting Battery: During normal use of an 
        electrode battery, tiny cracks develop in the surface, reducing 
        its lifespan. Researchers have created a polymer coating that 
        heals these tiny cracks as they occur, dramatically increasing 
        the lifespan of the battery. So far, researchers are able to 
        extend the life of the battery by ten times, and hope to 
        improve this even more with further refinement of the material.
  --Engineering More Precise Light Sensors: Photodetectors, or light 
        sensors, are used in an extremely broad range of applications 
        from positron emission tomography (PET) scanners in medical 
        imaging to scanning shipping containers for homeland security 
        purposes. Researchers have developed a manufacturing process 
        for large-scale photodetectors to make them more cheaply while 
        increasing precision by one hundred times. Produced through a 
        collaboration of several universities, Argonne and Fermi 
        National Labs, and industry, they can detect nuclear materials 
        and have national security applications.
  --Producing Cheaper Biofuels: Scientists at the DOE Bioenergy Science 
        Center, with collaboration from the Oak Ridge National 
        Laboratory and eighteen partner institutions, have developed a 
        method to eliminate the need to ``pretreat'' plant matter 
        during the production of biofuels. Pretreatment involves using 
        chemicals to break down some of the plants tougher fibers in 
        order for the next steps of hydrogen production to begin. 
        Pretreatment is typically the most expensive step in producing 
        plant-based biofuels. The new method includes using a 
        bacterium--originally discovered over 20 years ago--to break 
        down the plants tough fibers and catalyze the beginning of 
        hydrogen production as well. This single mechanism 
        bioprocessing is a major step to market-ready plant-based 
        biofuels.
  --Generating New Pathways to Clean Energy: Researchers at Argonne 
        National Lab have discovered a new method of generating 
        hydrogen for use as clean, renewable fuel. Capitalizing on a 
        well-known reaction using titanium dioxide, scientists added 
        bacteria found in the salt flats of the western U.S. to help 
        catalyze a stronger output. The titanium/bacteria mix 
        outperforms most other systems for hydrogen production using 
        only sunlight and salt water for the basic chemical reaction. 
        This marriage of technology and nature brings us closer to a 
        sustainable energy future.
Providing Unique Resources to the Scientific Community and the Nation
    DOE SC-funded scientists and engineers are making extraordinary 
discoveries in all areas of energy research that improve human health, 
protect the environment, spur economic growth, and strengthen national 
security. National labs advance strategic U.S. goals and create a 
research infrastructure unlike any other in the world--a system that 
makes efficient use of advanced instruments and technical expertise by 
increasing access for researchers across the Nation without duplication 
of resources, minimizing costs to all.
    With its crucial mission and unique research facilities, investment 
in the DOE SC programs should be one of our highest research 
priorities. DOE SC-funded facilities benefit the entire research 
community, both public and private, by providing unparalleled 
scientific and technological capabilities. Now is the time to provide 
robust Federal funding for the fundamental energy research required to 
build a secure and sustainable energy future.
    To promote sustainability and maintain the system of national 
laboratories, FASEB recommends a minimum of $5.4 billion for the DOE SC 
in fiscal year 2015. This is the level authorized for DOE SC in 2011 by 
the America COMPETES Act, and should represent a return to the 
commitment of sustainable increases in this critical research program.
    Thank you for the opportunity to offer FASEB's support and 
recommendations for the DOE SC.
                                 ______
                                 
                 Prepared Statement of Efficiency First
    As the voice of the home performance contracting industry, 
Efficiency First respectfully urges your support for funding to advance 
programs at the Department of Energy that invest in residential energy 
efficiency and whole-house initiatives, as outlined in this testimony, 
in the fiscal year 2015 Energy and Water Development Appropriations 
bill. On behalf of our stakeholders and members, thank you for this 
opportunity to express our support for these important programs and 
initiatives.
    Efficiency First (EF) is a national trade association will members 
across the country that unites the home performance workforce, building 
product manufacturers and related businesses and organizations in an 
effort to advance cost-effective energy efficiency solutions for 
residential customers to create jobs, boost the economy, and fight 
rising energy costs.
    Efficiency First offers its strong support for whole-home 
residential efficiency programs and initiatives. By looking at a home 
as a system, customers make better energy choices. For example, 
installing a high-efficiency HVAC unit in a home without insulation in 
its attic will not result in the home owner receiving the heating and 
cooling efficiently, nor the comfort expected. Home performance 
contractors and professionals help home owners make smart energy 
decisions by making home assessments, recommendations, and improvements 
based on building science and the whole-home structure. Yet, as 
building science has developed, so has the home performance industry 
which is still on the cutting edge as it strives to serve and educate 
homeowners around the country about the ways and means for reducing 
their energy use. Public programs that support this industry are vital 
as it continues to develop.
    The following programs at the Department of Energy, in the Energy 
Efficiency and Renewable Energy Office and Office of Weatherization & 
Intergovernmental Assistance, deserve the support of the American 
taxpayer as these programs, by supporting an American-based industry 
and American jobs that will strengthen the economy, the electric grid, 
and our national security; will provide a significant return on their 
investment.
    $30 M for Residential Building Integration.--We support a 
Residential Buildings Integration office that will focus on 
accelerating the development and adoption of advanced building energy 
technologies and practices in new and existing homes. The Residential 
Building Integration program has the capacity to fundamentally 
transform homebuilding and renovation in this country. However, we 
recommend that the funding be focused on research, development and the 
widespread deployment of whole-house energy efficiency through their 
partnerships with builders, the construction trades, equipment, smart 
grid technology and systems suppliers, integrators and State and local 
governments. Fewer teams, with sufficient funding each would be a 
better model than the current one of providing too little funds to many 
players, and successful models should be replicated more widely. Direct 
engagement with builders, contractors, and business is crucial to the 
success of buildings programs. Funding should be spent primarily on 
industry teams that have the capability to bring all actors to the 
table and transform the market with an emphasis on addressing whole-
house energy efficiency and energy performance based policy 
initiatives.
    $10 M for a New Energy Efficiency Initiative.--We support a new 
program that would be focused on stakeholder engagement efforts with 
input and direction by the existing home performance industry and the 
weatherization network. Working with national organizations and 
companies specializing in home performance and/or weatherization, the 
efforts will include regional forums and will generate policy 
recommendations leading to the development of a new residential energy 
efficiency retrofit program to support increased energy efficiency in 
all residential buildings and income levels.
    $200 M President Race to the Top for Energy Efficiency.--Modeled 
after the successful Education Race to the Top, this effort will 
challenge States and utilities to develop innovative new policies that 
would advance energy productivity. The President's Budget Request for 
the Department of Energy for fiscal year 2015 includes an Opportunity, 
Growth, and Security Initiative (OGSI) which is outside the Bipartisan 
Budget Act yet adds funds innovative ideas not in earlier fiscal years. 
OGSI includes $200 million for an innovative Race to the Top awards to 
support State governments that implement effective policies such as 
those that would advance residential energy efficiency upgrades. Note, 
most of these funds would be provided to the States with only a modest 
amount reserved by DOE for technical assistance. A September 2013 study 
by ACEEE on a similar proposal notes that the program could result in 
estimated net savings of $11.8 billion and cut energy by 1.30 Quads and 
carbon dioxide emissions by 71.25 MMT by 2030. These results are a 
great investment for the American taxpayer, returning $8.40 in energy 
savings for every $1 invested. We believe funding for this initiative 
should be placed in addition (plus up) in the Energy Efficiency and 
Renewable Energy accounts.
    $63 M for State Energy Program.--We urge the Committee to provide 
funding at the level of $63 million for the State Energy Program, which 
allows States to assist with the development of energy efficiency and 
renewable energy projects, and support funding a State competitive 
grant programs with monetary awards to States to use to improve their 
energy productivity programs.
    $230 M for Weatherization Assistance Program.--We ask the Committee 
to return funding to historical levels for the Weatherization 
Assistance Program, which helps low-income families, seniors, and 
individuals with disabilities make crucial lasting energy efficiency 
improvements to their homes. However, we recommend that the Committee 
direct the program to undertake efforts to include private home 
performance contractors, leveling-the-playing-field for independent, 
qualified contractors to participate in this program.
    Efficiency First believes that energy efficiency is vital to our 
economic growth and international competitiveness. Again, thank you for 
providing this opportunity to submit testimony. We would also 
appreciate the opportunity to brief you or your staff on these 
important programs and initiatives and the successful energy savings we 
anticipate they will achieve. We look forward to working with you.

    [This statement was submitted by Brian Bovio, Chair, Efficiency 
First.]
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association
    The Electric Drive Transportation Association (EDTA) is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation. We are writing regarding the 
fiscal year 2015 funding for the Department of Energy's programs that 
advance electric drive technologies, including the Vehicle Technologies 
and Hydrogen and Fuel Cell Technologies Programs.
    Our members represent the entire value chain of electric drive, 
including vehicle manufacturers, battery and component manufacturers, 
utilities and energy companies, smart grid and charging infrastructure 
developers. Collectively, we are committed to realizing the economic, 
national security, and environmental benefits of displacing oil with 
hybrid, plug-in hybrid, battery, and fuel cell electric vehicles.
    Oil provides 93 percent of the energy used for transportation in 
the United States. The Energy Information Agency reports that in 2011, 
100 companies produced 84 percent of the world's oil. National oil 
companies (NOCs)--i.e., government-controlled entities, accounted for 
58 percent of the world's production. In 2012, the Organization of the 
Petroleum Exporting Countries (OPEC) collectively controlled 
approximately 73 percent of the world's total proved oil reserves and 
produced more than 40 percent of the world's total oil supply. Each 
OPEC country has at least one NOC; most also allow international oil 
companies to operate within their borders.
    While U.S. oil imports are currently decreasing, our transportation 
sector remains almost completely dependent on a single commodity, whose 
price is set by the global market and whose availability is subject to 
significant geopolitical uncertainty. This dependence poses a real and 
ongoing threat to U.S. energy and economic security. Development of 
domestic alternatives for transportation enhances energy security, 
protects consumers and the economy from price volatility and increases 
U.S. competitiveness in the global technology and manufacturing 
markets.
    The Department of Energy's (DOE) Vehicle Technologies program 
leverages private sector investments to promote innovation in 
transportation, including advanced vehicle and infrastructure chains. 
The program is a critical element of the national effort to address oil 
dependence and we support the requested increase in funding for its 
work.
    The Vehicle Technologies program includes the EV Everywhere Grand 
Challenge, which advances critical research in batteries and power 
electronics, electric drive motors and components, and charging 
technologies that will reduce vehicle costs and increase range and 
charging capabilities. Included in that research and development are 
Batteries and Electric Drive Technology activities that are achieving 
battery performance increases and cost reductions. Vehicle Systems 
Simulation & Testing activities are developing next generation and 
wireless charging, systems integration, and codes and standards for 
communication with the grid. The program also includes the Workplace 
Charging Challenge, in which EDTA participates, that promotes private 
investment in electric drive infrastructure by encouraging employers to 
provide charging options for their employees.
    We also recommend that the SuperTruck initiative be expanded beyond 
Class 8 to include Class 7 and Class 8a vehicles, which are a 
significant part of the commercial fleet. The EIA projects that, in the 
U.S., heavy-duty vehicles (including tractor trailers, buses, 
vocational vehicles, and heavy-duty pickups and vans) will see the 
fastest increases in energy demand among all transportation modes from 
2010 to 2040. Increased efficiency and fuel diversity in this segment 
will have a significant impact on fleet fuel consumption and emissions.
    Wider eligibility is particularly timely, as EPA and the DOT's 
National Highway Traffic Safety Administration (NHTSA) are slated to 
issue the second round of medium- and heavy-duty vehicle fuel 
efficiency and greenhouse gas standards in 2016. The SuperTruck program 
should also recognize the multi-stage manufacturing that characterizes 
this segment and include participation by manufacturers throughout the 
process, including chassis original equipment manufacturers, 
intermediate and final stage manufacturers, including hybrid suppliers. 
These manufacturers not only contribute to efficiency advances, but 
also to a robust and competitive U.S. manufacturing sector.
    Through the Fuel Cell Technologies program, the Department of 
Energy is working with industry to accelerate the availability of fuel 
cell electric vehicles. Fuel cell electric vehicles (cars, trucks and 
non-road vehicles), along with battery electrics, are crucial ``zero 
emission/zero petroleum'' options in the alternative fuel 
transportation portfolio.
    The Committee has previously recognized the program's achievements 
in technology development and cost reduction. We ask that the committee 
continue that support, particularly in the areas of vehicles and 
infrastructure deployment activities and in early market development, 
including education, validation and enabling activities. Further, we 
encourage this support at levels sufficient to enable the industry to 
build on technology and market achievements to meet 2015 
commercialization targets.
    The Batteries and Energy Storage Hub, in the Office of Science, is 
also a vital part of the portfolio of programs needed to achieve large 
scale petroleum use reductions. Working together, the DOE labs, 
universities and private industry are developing next generation energy 
storage solutions that will accelerate electrified transportation, 
enhance the performance of the grid and establish the technical 
groundwork for the U.S. to manufacture and benefit from these advances.
    Finally, we strongly support the DOE's deployment programs, 
including the Clean Cities program's work with local and regional 
coalitions to expand deployment of electric drive vehicles (hybrid, 
plug-in hybrid, battery, and fuel cell electric vehicles), other 
alternative fuel vehicles, and recharging/fueling infrastructure as a 
path to increased energy security. These efforts have a demonstrated 
record of success, including the cumulative displacement of more than 5 
billion gallons of petroleum with alternative fuels.
    Acknowledging that budget limitations require difficult choices, we 
respectfully ask that vehicle and fuel diversity programs be recognized 
as critical investments in that reduce oil dependence, protect American 
consumers from price volatility and increase U.S. manufacturing 
competitiveness.
    We thank you for your consideration.

    [This statement was submitted by Brian P. Wynne, President, 
Electric Drive Transportation Association.]
                                 ______
                                 
      Prepared Statement of the Environmental Defense Action Fund
    On behalf of the Environmental Defense Action Fund (EDAF) I urge 
your support for an important new initiative to advance energy 
efficiency policies and measures to dramatically reduce America's 
energy waste. Please support funding for the ``Race to the Top for 
Energy Efficiency'' in your work on the fiscal year 2015 Energy and 
Water Development Appropriations bill.
    EDAF's mission is to preserve the natural systems on which all life 
depends. Guided by science and economics, we find practical and lasting 
solutions to the most serious environmental problems--including 
America's wasteful energy consumption. We believe Race to the Top is 
one of those solutions.
    The President's Budget Request for the Department of Energy for 
fiscal year 2015 includes an Opportunity, Growth, and Security 
Initiative (OGSI) which is outside the Bipartisan Budget Act yet adds 
funds for innovative ideas not in earlier fiscal years. OGSI includes 
$200 million for an innovative Race to the Top performance-based awards 
to support State governments that implement effective policies to cut 
energy waste and modernize the grid. We believe funding for this 
initiative should be placed in addition (plus up) in the Energy 
Efficiency and Renewable Energy accounts.
    Modeled after the successful Education Race to the Top, this effort 
will challenge States and utilities to develop innovative new policies 
that would advance energy productivity. This voluntary initiative 
allows States the flexibility to pursue ideas that make sense for their 
circumstances and economic conditions. By allowing States the 
opportunity to address their energy needs by their unique design, the 
programs will allow the States to be the nursery of new ideas which can 
then be shared with other States to further energy savings.
    We recognize that the Federal Government faces significant budget 
challenges. For this reason the ``Race to the Top'' would provide 
merely the seed money for innovative thinking, pushing policymakers and 
program managers in the States to design new policies that will drive 
energy efficiency, smart grid, and demand response. These limited funds 
will drive innovative policies that will help States best-use their 
program dollars--further leveraging these funds. In fact, a September 
2013 study by ACEEE on a similar proposal notes that the program could 
result in estimated net savings of $11.8 billion and cut energy by 1.30 
Quads and carbon dioxide emissions by 71.25 MMT by 2030. These results 
are a great investment for the American taxpayer, returning $8.40 in 
energy savings for every $1 invested. By providing the initial funding 
for innovation, and additional support to those with winning proposals, 
the ``Race to the Top'' will be able to drive innovation at minimal 
cost, sending resources to the States who know best how to save energy 
in their borders.
    EDAF believes that energy efficiency is vital to our economic 
growth and international competitiveness. Thank you for providing this 
opportunity to submit testimony. We would also appreciate the 
opportunity to brief you or your staff on this new initiative and the 
successful energy savings we anticipate it will achieve. We look 
forward to working with you.

    [This statement was submitted by Elgie Holstein, Senior Director, 
Environmental Defense Action Fund.]
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for fiscal year 2015 to the Senate Appropriations 
Subcommittee on Energy and Water Development. We appreciate this 
opportunity to share our views on certain programs and priorities of 
the Department of Energy (DOE) and the Federal Energy Regulatory 
Commission (FERC).
    EEI is the association of U.S. shareholder-owned electric 
companies. Our members provide electricity for 220 million Americans, 
directly employ more than 500,000 workers, and operate in all 50 States 
and the District of Columbia. In order to sustain high levels of safe, 
reliable and affordable electricity, EEI companies invest more than $80 
billion per year in improving and expanding electric services to 
American consumers and businesses.
    This year, I want to focus on three initiatives where EEI is 
working very closely with DOE, FERC and other Federal agencies: (1) 
strengthening industry-government cyber and physical security 
coordination, (2) institutionalizing the unprecedented industry-
government partnership on storm response and restoration, and (3) 
improving grid resilience with spare equipment.
Industry-Government Coordination on Cyber and Physical Security
    The electric and nuclear power sectors are the only critical 
infrastructure sectors with mandatory and enforceable cybersecurity 
standards. The Energy Policy Act of 2005 created an Electric 
Reliability Organization (ERO) to develop and enforce these standards. 
In 2006, the North American Electric Reliability Corporation (NERC) was 
designated as the ERO. NERC has worked with the electric power industry 
to develop NERC Critical Infrastructure Protection (CIP) standards, 
which FERC approved and made mandatory for owners and operators of the 
bulk electric system in 2008. Since then, these CIP standards have been 
updated as the threat landscape continues to evolve.
    In September 2012, FERC created a new Office of Energy 
Infrastructure Security (OEIS) that allows the Commission to conduct 
outreach with owners, users and operators of energy delivery systems 
regarding identification, communication and elimination of cyber and 
physical threats to energy facilities. On behalf of the entire electric 
industry, NERC operates the Electricity Sector Information Sharing and 
Analysis Center (ES-ISAC). The primary function of the ES-ISAC is to 
collect industry information on security-related events and share with 
its government partners any potential threats to the electricity 
sector, as well as methods and tools to mitigate the potential impact 
from these threats.
    Following creation of the ES-ISAC, the electric industry 
established the Electricity Subsector Coordinating Council (ESCC), the 
principal liaison between the Federal Government and the electric power 
sector in this area. The Council's mission is to coordinate efforts to 
prepare for, and respond to, all sorts of national-level incidents 
affecting critical infrastructure. Comprising thirty CEOs and trade 
association leaders representing all segments of the industry, 
including EEI, the ESCC meets three times a year with its government 
counterparts, including senior Administration officials from the White 
House, FERC, DOE, DHS, the FBI and other government agencies, and is 
supported by a senior executive-level group that convenes at least 
monthly. The ESCC epitomizes the sort of industry-government 
partnerships and interdependencies so vital to protecting U.S. critical 
infrastructure.
    In November 2013, NERC conducted a 2-day, grid-wide cyber and 
physical security exercise involving over 2,000 individuals from 230 
industry and government organizations. Designated ``GridEx II,'' the 
exercise was designed to stress the bulk-power system through a 
simulated series of prolonged coordinated cyber attacks against certain 
automated systems used by power system operators, compounded by 
physical attacks against other key facilities. On the second day, NERC 
involved the ESCC and other senior-level Administration and industry 
officials from across North America in a tabletop discussion to examine 
the policy-level issues and decisions that would need to be made to 
manage the impact of a national security event impacting public health 
and safety. As a follow up, EEI and the ESCC have partnered with DOE 
and DHS on a series of briefings around the United States and in Canada 
to bring together utility operators with local law enforcement. These 
meetings have allowed government officials to provide information on 
the current threat environment, to discuss mitigation strategies, and 
to allow participants to further develop relationships between local 
first responders and the industry.
    On March 7, 2014, FERC directed NERC to submit reliability 
standards within 90 days that will require utilities to take steps to 
address physical security risks and vulnerabilities related to the 
reliable operation of the bulk-power system. EEI is working with NERC 
and FERC on this process. We look forward to updating the Subcommittee 
on the many other proactive actions industry is taking with its Federal 
partners to protect critical electric grid assets.
Industry-Government Partnership on Storm Response and Restoration
    Superstorm Sandy and Nor'easter Athena brought together the 
electric power industry and the Federal Government in an unprecedented 
manner. For the first time, the Federal Government embedded an electric 
utility representative from EEI into Federal Emergency Management 
Administration (FEMA) headquarters. Through EEI's mutual assistance 
network, 80 electric utilities and tens of thousands of utility workers 
from around the country and Canada came together to work around the 
clock to restore power to 10 million customers.
    With DOE's firm support, EEI created an unprecedented public-
private partnership, working in close coordination with the White 
House; the Departments of Defense, Homeland Security and 
Transportation; FEMA; and the State and local governments, to expedite 
power restoration efforts. The coordination of workers on the ground, 
and the widely strengthened partnership among EEI's members, the 
Administration, and State and local emergency resources, resulted in an 
enhanced EEI mutual assistance program, which now consists of a 
``national response event'' (NRE) framework that has been designed, 
implemented, and exercised to respond to widespread power outages that 
impact a significant population or several regions across the U.S.
    EEI is very focused on continuing this groundbreaking public-
private partnership to address both weather-related events and physical 
and security threats. As a result, EEI requests full funding for DOE's 
Infrastructure Security and Energy Restoration (ISER) program within 
the Office of Electricity and Energy Reliability (OE). The ISER program 
helps industry to secure U.S. energy infrastructure against all types 
of hazards, respond to and reduce the impact of disruptive events, and 
assist in the quick restoration of electricity when events occur. The 
Operational Energy and Resilience (OER) subprogram, initiated in fiscal 
year 2014, is an enhanced capability that enables the Department to 
better protect against and mitigate threats and hazards to energy 
infrastructure.
    Finally, EEI requests full Subcommittee support for OE's fiscal 
year 2015 request to build out the new Energy Resilience Operations 
Center (E-ROC). Once completed, the center will become DOE's focal 
point for critical coordination with energy owners and operators and 
other Federal and State agencies (including tribal and territorial) 
during emergencies impacting energy infrastructure. A fully funded E-
ROC will enable OER to continually monitor energy system status and 
facilitate communication with EEI companies and the rest of industry. 
The Department will be able to provide State and local partners and 
Federal policy officials with critical information on threats, 
warnings, hazards, and best practices. Real-time situational awareness 
capability will provide first responders and energy system owners and 
operators with the information they need for prioritization of 
restoration efforts and for distribution of back-up power.
    Requested funding for fiscal year 2015 also provides for needed 
additional personnel to be located in each FEMA region to develop 
regionally-tailored resiliency approaches, support the National 
Incident Management Assistance Team, and provide enhanced technical 
expertise, monitoring, and information sharing in support of OER.
Improving Grid Resilience with Spare Equipment
    Utilities plan for all types of contingencies and have spare 
equipment available as part of their business continuity planning. 
Recognizing that catastrophic destruction of a significant substation 
can cause substantial power loss, EEI created the Spare Transformer 
Equipment Program (STEP) in 2006.
            STEP
    STEP provides a ready mechanism for participating utilities to 
share assets in the event of catastrophic destruction. More than 50 
electric power companies geographically dispersed across the country 
and engaged in bulk power transmission services are members of STEP. 
This number continues to grow as additional companies participate in an 
effort to ensure greater resilience and reliability. Coordination 
involving the transfer of spare equipment has already been reviewed and 
approved by FERC and State utility regulators, thereby requiring no 
additional regulatory approvals to access this spare capacity during a 
declared emergency.
            STEP Connect
    To complement the existing program, EEI is developing STEP Connect, 
an online tool for electric company asset owners and operators to 
network with other STEP Connect members concerning sharing of 
transmission and generation step-up (GSU) transformers and related 
equipment, including bushing, fans, and auxiliary components. STEP 
Connect will establish a digital, formal, secure, and efficient program 
to communicate equipment needs, in the event of an emergency or of 
other non-routine failures. With respect to the transportation and 
logistics issues, moving these large pieces of equipment can be a slow 
process, but just as the industry partnered with Federal, State, and 
local governments to address transportation issues during the Sandy 
recovery, it would do the same to move transformers in an emergency.
Conclusion
    Mr. Chairman, EEI's close coordination with government in the wake 
of Superstorm Sandy helped facilitate this partnership with Federal 
agencies to address physical and cybersecurity threats to our electric 
infrastructure. The result of these public-private partnerships is now 
a high level of collaboration between the electric power industry, DOE, 
FERC and other key Federal agencies to help secure U.S. energy 
infrastructure against all hazards, whether natural or man-made, 
physical or cyber.
    EEI has a long history of government collaboration to protect the 
grid and make it more resilient. We truly value the partnership that we 
share with your Subcommittee, and we look forward to continuing our 
dialogue with you and your staff on these and other issues throughout 
the year.

    [This statement was submitted by Thomas R. Kuhn, President, Edison 
Electric Institute.]
                                 ______
                                 
Prepared Statement of the Fermi National Accelerator Laboratory, US LHC 
       Users Association, and SLAC National Accelerator Labratory
    We urge the Senate to support current funding for High-Energy 
Physics within the Department of Energy Office of Science and the 
National Science Foundation. We request that the portfolio of funding 
for fundamental research be balanced. High-energy-physics research is a 
key part of these programs and yields valuable benefits to our Nation 
as described below. We are the Executive Committees of the Users 
Organization of the Fermi National Accelerator Laboratory \1\ 
(Fermilab), located outside of Chicago, Illinois, the US LHC Users 
Association \2\ and the SLAC National Accelerator Labratory \3\ in Palo 
Alto, CA. We represent the more than 3,500 scientists who perform 
research at Fermilab, our country's premier particle-physics 
laboratory; at the Large Hadron Collider (LHC) at CERN in Geneva, 
Switzerland; at the SLAC National Accelerator Laboratory, and on cosmic 
and astrophysical experiments located around the world. Also known as 
high-energy physics (HEP), our field is the study of the particles that 
are the building blocks of the universe, and how they come together to 
create the cosmos and influence its evolution. Much of the technology 
we have invented to facilitate these studies, such as the World Wide 
Web, has proved to be extremely beneficial to our society as a whole.
---------------------------------------------------------------------------
    \1\ The Fermilab Users Executive Committee: Sandra Biedron 
(Colorado State U.), Tulika Bose (Boston U.) Mary Anne Cummings (Muons, 
Inc.), Andre de Gouvea (Northwestern U.), Craig Group (U. of Virginia), 
Bill Lee (Fermilab), Vivian O'Dell (Fermilab), Breese Quinn (U. of 
Mississippi), B. Lee Roberts (Chair, Boston U.), Mandy Rominsky 
(Fermilab), Marcelle Soares-Santos (Fermilab), Greg Snow (U.of 
Nebraska-Lincoln), Nikos Varelas (U. of Illinois at Chicago).
    \2\ US LHC Users Executive Committee: Kevin Black (Boston U.), 
Sridhara Dasu (U. of Wisconsin), John Harris (Yale U.), Harvey Newman 
(Chair, Caltech), Michael Tuts (Columbia U.), Gordon Watts (U. of 
Washington), Darin Acosta (U. of Florida), Kenneth Bloom (U. of 
Nebraska-Lincoln), Tom LeCompte (Argonne National Lab), Usha Mallik (U. 
of Iowa), Sheldon Stone (Syracuse U.), Julia Thom (Cornell U.).
    \3\ SLAC Users Executive Committee: Sunil Golwala (Caltech), Anna 
Goussiou (U. of Washington), Lisa Kaufman (Indiana U.), Mike Kelsey 
(SLAC), Usha Mallik (U. of Iowa), Maria Elena Monzani (SLAC), Patric 
Muggli (MPI), Homer Neal (SLAC), Nicola Omodei (Stanford U.), Michael 
Peskin (SLAC), Ian Shipsey (Purdue U.) Michael Sokoloff (U. of 
Cincinnati).
---------------------------------------------------------------------------
    The U.S. Department of Energy (DOE) Office of Science and the 
National Science Foundation support high-energy-physics research at 
U.S. national laboratories and universities. More than 190 U.S. 
institutions in 45 States host physicists, astrophysicists, engineers, 
students and accelerator scientists who work in high-energy physics. 
More than half of these institutions are funded through the DOE Office 
of Science. We urge the Committee to provide the current level of 
funding for High-Energy Physics for fiscal year 2015.
    Our field is international by its nature, since no single nation 
can afford to carry out the full fundamental physics research program. 
We are working with our international partners toward a worldwide 
program, where complementary, unique world-leading facilities will 
exist in the U.S., in Europe and in Asia. U.S. high energy physics is 
in transition, which began with the closure of the SLAC B-factory in 
2008 after nine successful years. This was followed by the closure of 
the Fermilab Tevatron accelerator program in 2011 after three extremely 
successful decades, which included evidence for the observation of the 
Higgs boson. U.S. physicists played important leadership roles in the 
construction of the LHC, and in the definitive discovery of the Higgs 
boson in 2012. They are continuing to play major leadership roles in 
the upgraded program that will begin in 2015. This transition comes at 
a critical time for our field in the United States and requires 
sustained funding in order to maintain our leadership role in world 
high-energy-physics research.
    The accelerator complex at Fermilab is now being used to continue 
pioneering research with powerful beams of neutrinos, and intense beams 
of muons for experiments that complement the discovery potential of the 
LHC. These proposed new programs will provide the basis for vibrant, 
world-class research based in the U.S. for the next several decades. 
HEP has gone through a year-long self study, and the High Energy 
Physics Advisory Panel (HEPAP) subpanel P5 will lay out a coherent plan 
to achieve this goal when it reports in May of this year.
    The quest to understand the composition of our universe, especially 
the dark matter that modifies the motion of stars in galaxies and the 
dark energy that appears to be driving the expansion of the universe, 
is also part of our field. Three important experiments with significant 
participation from high-energy physicists are the Dark Energy Survey, 
using the Dark Energy Camera built at Fermilab, the Large Synoptic 
Survey Telescope whose camera is being built at SLAC, and the Large 
Area Telescope on the Fermi Gamma Ray Space Telescope spacecraft, which 
was funded by the DOE, NASA and foreign partners. High-energy 
experimenters are also searching for evidence of dark matter particles 
in several underground laboratories, where the detectors are shielded 
from cosmic radiation by their depth in the earth. They will also 
continue the hunt for dark-matter particles at the higher energy soon 
to be available at the LHC. These fundamental questions capture the 
imagination of young people and the general public.
Impact of Budget Cuts
    We are deeply concerned with the administration's budget request 
for fiscal year 2015, which contains a $52 million (6.6 percent) cut to 
High Energy Physics in the Department of Energy Office of Science 
budget. Over the past decade, the overall budget for High Energy 
Physics has been significantly reduced. After the sequester, we greatly 
appreciated Congress restoring funds to our fiscal year 2014 budget. 
Significant layoffs and furloughs occurred at the high-energy 
laboratories in fiscal year 2012 and 2013, and the restoration 
stabilized this situation. The Administration's fiscal year 2015 
request, if not modified, would require a return to cuts in research 
efforts and personnel, both at Fermilab, SLAC and at universities and 
laboratories across our country. It is crucial to the health of our 
field that the U.S. continue to have a world-class on-shore facility 
built on the foundation of the United States' preeminent national 
laboratory in particle physics, Fermilab, and positioned to attract 
investments from our international partners. This will ensure a 
balanced worldwide program where intense beams of neutrinos and muons 
are available in the U.S. and the highest energy proton beams are 
available in Europe.
    The largest and longest-lasting impact of reduced resources will be 
in our training of the next generation of scientists. As discussed 
below, the unique training students in high-energy physics receive 
prepares them for a wide range of jobs in fields as diverse as finance 
and proton oncology at hospitals. Severe budgetary cuts will have 
lasting effects that will be felt for decades, with science 
opportunities being delayed or lost to other nations. Our reputation 
that permits us to attract the best and brightest students and 
scientists in the world will be damaged.
Value of High-Energy-Physics Research
    In our modern economy, science and technology (S&T) drive growth, 
as detailed in the National Academies' report, Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future; its 2010 update, Rising Above the Gathering Storm 
Revisited, the recent book, Knowledge and the Wealth of Nations; and 
many other publications. Continued leadership in S&T fields is critical 
to our Nation's economic growth, national security, and scientific and 
overall position in the world community. Innovation by a highly trained 
workforce is key.
    Without new technological developments within the U.S., our economy 
will not grow and other countries will surpass us. The most 
revolutionary technologies often require revolutions in our fundamental 
knowledge and understanding, and are invented in the course of research 
activities of our most talented minds in pursuit of testing, measuring, 
and understanding new ideas and concepts. As an example: no one could 
have predicted the nature of our present society from the first studies 
of electrons at the dawn of the 20th century; however, without these 
pioneering studies we would not be communicating via email, fax, 
cellphone, or text messages today. It has also famously been said that 
the light bulb could not have been invented by incremental improvements 
to the candle! Revolutionary technologies arise from new ways of 
thinking about society's problems--often derived from experiments that 
ask new questions that cannot be answered using existing technology.
    High-energy physics strives to understand the most fundamental 
aspects of nature. While we can rarely predict the outcome, the quest 
for knowledge has always led to numerous technological advances, a few 
of which are described below. What is predictable is that our 
continuing quest will educate and train some of the best and brightest 
students, who will contribute to our Nation in many different arenas.
Value of Technology Development
    While the primary purpose of high-energy-physics research is 
discovery science, our work often demands the creation or development 
of new technology in order to accomplish our goals. Many of our 
experiments require technology that does not exist before the project 
is undertaken. Therefore, many of our researchers spend a significant 
part of their careers advancing high-tech particle detectors, 
developing complex computing algorithms and processing one of the 
largest volumes of Big Data on the grid, inventing new kinds of 
particle accelerators, or pushing the limits of high-speed electronics. 
Without continuous innovation we would not be able to complete our 
experiments. And once these advances are made, they are adopted in 
fields as diverse as medicine, materials research, and manufacturing.
    Two examples of technology that has been transferred to the medical 
imaging community stand out. Construction of the Fermilab Tevatron 
accelerator required construction of 1000 superconducting magnets. At 
that time, the superconducting wire needed for these magnets could only 
be made in small quantities. Through a very successful joint 
government/business venture, Fermilab researchers helped to build up 
that industry, which now provides the wire for the ubiquitous MRI 
machines routinely used for medical imaging. The detectors used in 
Positron Emission Tomography scans were first developed by HEP. The 
PET-CT scanner was named by TIME magazine as the medical invention of 
the year in 2000.
    The development of new technologies for the next generation of HEP 
experiments are producing technologies which are very likely to be 
adapted in the future. The camera built for the Dark Energy Survey, led 
by Fermilab physicists, and that being built for the Large Synoptic 
Survey Telescope, led by SLAC physicists, are pushing the limits of 
today's technology. These technological developments will ultimately 
influence the digital cameras available at your local electronics store 
as well as devices no one has yet dreamed up. An ongoing R&D effort by 
a university/national laboratory collaboration is inventing new, cost-
effective particle detectors with the unique power to resolve events on 
trillionth-of-a-second time-scale. These will also doubtless lead to 
new industrial, research, and medical applications.
    High-energy physicists invented particle accelerators and continue 
to steward their development. Of more than 30,000 particle accelerators 
throughout the world, only a handful are dedicated to high-energy 
physics. Computers, cell phones, car engine wiring, shrink-wrap 
plastic, cancer treatment and the production of medical isotopes for 
diagnosis all depend on this key technology sector. For example, the 
tire industry now uses particle accelerators to treat their tires, 
reducing both the amount of rubber needed (by three pounds per tire) 
and the amounts of chemicals used in the production process. This 
industry is both more efficient and better for our environment because 
of the application of particle accelerators. The two-mile electron 
accelerator at SLAC is no longer used for HEP, and has become a 
powerful x-ray free electron laser source that enables new studies in 
structural biology and material science. This is a perfect example of 
the broader importance of HEP-developed accelerator technology as an 
important new tool for the Basic Energy Sciences community in the DOE 
Office of Science.
Value of Science Education
    The United States has long been the destination of choice for the 
best science students from around the world. Our universities provide 
an education that is second to none. Our national laboratories provide 
research opportunities that are unavailable elsewhere. Fermilab is an 
excellent example of this. Numerous students from foreign institutions 
travel to Fermilab to complete their research. Many of these students 
then choose to stay in the U.S. after completing their degrees.
    Our students learn a variety of skills that are applicable in 
numerous fields. They learn to work on problems to which the answer is 
unknown and to adapt to unforeseen challenges. They learn skills in 
computer programming, data analysis, simulation of complex problems, 
and electronics development, among others. They learn to work in teams 
as members of international collaborations, finding innovative 
solutions to challenging problems. They learn how to take a project 
from start to finish, write a document detailing it, and present it to 
an audience. The complex analytical thinking necessary to solve 
problems in fundamental science cannot be taught in a classroom, but is 
nonetheless crucial for solving problems in business and industry in 
the 21st century.
    Many of our students continue their immediate careers as post-
doctoral associates. This provides a post-graduate education that 
further develops their skills. Post-docs generally take on more complex 
projects and develop leadership and management skills, including 
mentoring the graduate students that they work with. Most high-energy 
physics experiments involve from 20 to 3000 scientists, and face 
challenges that are similar to those in many businesses. Scientists 
trained in high-energy physics work in telecommunications, software 
development, aerospace, education, medicine, government, and finance, 
to name a few. About 90 percent of our Ph.D. students put their skills 
to work in other fields. Private businesses are the largest and most 
diverse employers of scientists trained in high-energy physics. Several 
former HEP researchers have founded or led small and large companies, 
including Richard Wellner, chief scientist at Univa UD, a cloud 
management software company; Francisco Vaca, CEO of Vaca Capital 
Management LLC; George Coutrakon, now Technical Director of the 
Northern Illinois Proton Treatment and Research Center; Homaira Akbair, 
former CEO of SkyBitz, a satellite-based tracking company; Rolland 
Johnson, founder and president of Muons, Inc., an accelerator R&D 
company; and Nagesh Kulkarni, CEO of Quarkonics Applied Research Corp., 
a business and technology consulting company.
    Our researchers are engaged in education at all levels and 
understand the importance of scientific literacy in our society. For 
example, hundreds of public lectures are given around the country by 
high-energy physicists each year. Our scientists visit local schools to 
share the excitement of science through physics demonstrations or 
presentations of their work. More than 38,000 students attend Fermilab 
education activities each year.
Summary
    Scientific research in general, and high-energy physics in 
particular, provides value to our Nation that will be lost without 
sustained funding from the U.S. government. The knowledge that is 
gained will lead to future innovation that will maintain our world-
class scientific capabilities. The path to that knowledge will lead to 
advances in technology that will help sustain our economic recovery. 
And the education of students from the U.S. and abroad will provide the 
knowledgeable workforce that will carry us through the next half-
century.
    It is critically important to maintain our world-class position in 
scientific research. The repercussions of severe cuts will be felt for 
a long time. We urge the House Energy and Water Development 
Appropriations Subcommittee to support our scientific research program 
for the long-term health of the Nation, and to sustain funding to high-
energy physics and priority projects at Fermilab in order to reinvest 
in this core-discovery scientific discipline.
                                 ______
                                 
  Prepared Statement of the Fuel Cell and Hydrogen Energy Association
    Chairman Feinstein and Ranking Member Alexander: On behalf of the 
members of the Fuel Cell and Hydrogen Energy Association, I am writing 
to urge strong support for fuel cell and hydrogen energy programs in 
the Department of Energy (DOE) for fiscal year 2015 in the Energy and 
Water Appropriations bill. Our industry-based request (see below) 
places less emphasis on research and development, and more on 
deployment activities. Increases for market transformation, technology 
validation, and codes and standards, recognize the advancements that 
have been made, and the work that must continue. In total, we are 
requesting the following: $125 million for the fuel cell and hydrogen 
energy programs managed by the Office of Energy Efficiency and 
Renewable Energy (EERE); and $50 million for the Solid State Energy 
Conversion Alliance (SECA) solid oxide fuel cell program in the Office 
of Fossil Energy (FE).
    While the 2015 fiscal year budget request from the administration 
remains essentially unchanged from the final fiscal year 2014 funding, 
it is a decrease from last year's budget request. We are aware tough 
choices need to be made but our industry continues to find value in the 
Department of Energy programs that have helped reduce cost, improve 
durability and performance, and prepare products for the marketplace.
    Fuel cells are a unique set of clean, efficient, and resilient 
energy technologies for stationary power generation, backup power, 
material handling equipment, and motor vehicles. Fuel cells generate 
electricity electrochemically, and therefore are more efficient than 
traditional power-generation technologies.
    As the committee considers this program within the Energy and Water 
Appropriations bill, we would note that the programs managed by DOE are 
complementing the significant private sector investments in fuel cells 
and hydrogen.
    This ongoing collaboration is paying off. Our products are 
delivering on the promise of using domestic fuels more efficiently and 
improving resiliency--noteworthy accomplishments that have been 
assisted by the EERE and FE programs within the Department of Energy.
Recent Progress
    Our industry proudly recognizes numerous market studies outlining 
how fuel cells are competing against traditional stationary, portable, 
automotive and material handling applications.
    For example, the largest stationary fuel cell project in the 
country was placed in service at a major utility last year. This news 
was followed a by series of high-profile announcements by Fortune 500 
companies choosing fuel cells for their power needs, both for the 
positive environmental impact, and because they make a real difference 
on a company's bottom line. Apple, Google, eBay, Walmart, Microsoft, 
Verizon, Sprint, Staples, FedEx, AT&T, Sprint, Sysco, Whole Foods, and 
many others have all adopted fuel cells to provide reliable, clean, and 
efficient power for their datacenters, telecommunications networks, 
buildings, and warehouses.
    Warehouses and other logistic-based businesses continue to acquire 
fuel cell forklifts and material handling equipment to replace 
traditional platforms. The transition has helped businesses streamline 
operations, improve productivity, and make better use of warehouse 
space.
    Automobile companies including General Motors, Honda, Toyota, 
Daimler, Nissan, and Hyundai have invested billions of dollars in fuel 
cell technology, resulting in a new generation of electric vehicles 
scheduled to arrive in U.S. showrooms over the next few years, with one 
major manufacturer set to lease vehicles in limited quantities this 
spring.
    Our industry also applauds the creation of the H2USA public-private 
collaboration which aims to bring Fuel cell electric vehicles (FCEVs) 
to the market by developing hydrogen infrastructure in the United 
States. This collaboration comes on the heels of an eight-State 
Memorandum of Understanding committed to facilitating the deployment of 
3.3 million Zero Emission Vehicles (ZEV), including FCEVs, on the road 
by 2025. California has led this effort by dedicating $200 million to 
building a network of at least 100 hydrogen refueling stations by 2024.
Efficient Use of Domestic Fuels--Power Generation
    Power generation from natural gas represents an increasing share of 
our energy mix, and fuel cells have the ability to use these resources 
more effectively. According to the Energy Information Administration, 
fuel cells outperform other technologies in key areas such as 
electrical efficiency. Continued support of the technologies managed by 
the Office of Fossil Energy through the SECA program will not only 
allow us to improve the efficiency of our power generation, but will 
have the added benefit of providing export opportunities for generation 
equipment as well as Carbon Capture and Storage technologies.
Efficient Use of Domestic Fuels--Transportation
    Fuel cell electric vehicles are zero-emission vehicles with the 
only tailpipe emission being water vapor. FCEVs are two to three times 
as efficient as a traditional internal combustion vehicle which results 
in dramatically reduced emissions on a well-to-wheels basis. For 
example, FCEVs using hydrogen generated from natural gas via steam 
methane reformation reduce CO2 emissions by more than 60 percent 
compared to gasoline powered vehicles.
    Hydrogen generated from renewable resources is also an extremely 
promising option that can have a significant impact on CO2 emissions. 
When processing biogas generated from wastewater, landfills or 
gasification processes, hydrogen is being delivered at very competitive 
prices, and in some cases producing negative GHG emissions.
Improved Resiliency and Reliability
    Utilities are deploying multi-megawatt fuel cell systems at 
substations to decrease the load on the grid through distributed 
generation, while telecommunications companies are adopting fuel cells 
for primary and backup power for cellular towers and data centers.
    Fuel cells offer an efficient, independent and extremely reliable 
power source for critical infrastructure that can easily be installed, 
maintained and shielded against disruption. Since many of these systems 
are directly connected to natural gas infrastructure, they are 
protected from many disruptions that plague grid-provided power. 
Additionally, the lack of moving parts and durability give fuel cell 
stacks the long term lifespan and ease of maintenance essential to 
reliable back-up power, exhibiting upwards of 99.99 percent 
reliability.
Conclusion
    Our industry greatly appreciates the support this committee has 
shown for these technologies over the years. We also note that fuel 
cells and hydrogen are a key component of an `all of the above' 
strategy, which recognizes the complexity of energy markets and 
diversity of our national resources. We look forward to continuing our 
conversation with you and your colleagues as we look for ways to 
introduce cleaner, more efficient energy technologies to the market.

                          DEPARTMENT OF ENERGY
                    EERE sub-program recommendations
------------------------------------------------------------------------
                                                      Fiscal year 2015
                                                          Industry
            Sub Program                Activity      Recommendations (in
                                                         thousands)
------------------------------------------------------------------------
1. Fuel Cell R&D..................  Research                     $33,000
2. Hydrogen Fuel R&D..............  Research                      36,000
3. Technology Validation (D)......  Deployment                    10,000
4. Safety, Codes & Standards (D)..  Deployment                     7,000
5. Systems Analysis (D)...........  Deployment                     5,000
6. Manufacturing R&D..............  Research                       7,000
7. Market Transformation (D)......  Deployment                    26,000
8. NREL Support (D)...............  Deployment                     1,000
9. Education......................  ..............                     -
10. SBIR/STTR.....................  ..............                     -
                                                   ---------------------
                                    ..............              $125,000
------------------------------------------------------------------------

    [This statement was submitted by Morry Markowitz, Executive 
Director, Fuel Cell and Hydrogen Energy Association.]
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association (GTA) appreciates the opportunity to 
provide the Senate Subcommittee on Energy and Water with our industry's 
statement concerning recommended fiscal year 2015 funding levels for 
the Department of Energy Fossil Program.
    While we as a Nation are faced with serious budget constraints and 
the need to maintain progress in energy development, GTA believes that 
it also critical that program funding reflect the critical needs of 
both our ``all-of --the above'' energy program and the emerging 
realities of the energy economy. We strongly believe that R&D programs 
need to focus on critical areas of energy technology development and 
advanced manufacturing, keeping our economy strong and preserving jobs, 
and promoting American technology development to keep our preeminent 
position as a global technology provider.
    The current Fossil Energy budget includes approximately $11 million 
for gas turbine technology R&D. GTA would urge the House to consider 
raising the funding to approximately $50 million for reasons to be 
detailed below. This of course would require a re-establishment of 
program priorities but with gas being the key to our energy future, 
some have called it the `foundation fuel'' and others refer to it as 
the ``bridge fuel'', we need to support gas turbine research in an 
unprecedented way- to improve and make energy production more 
efficient; to further reduce greenhouse gas emissions; and to keep our 
manufacturing and technology competitive with global competition (as 
detailed in the attached ICF study).
    Energy production and electrical production from natural gas have 
increased to record levels consistent with the advent of the shale gas 
revolution. We are entering a strong period where the American economy 
will become more dependent on natural gas and gas turbine technology as 
never before. GTA believes that it is incumbent on the Department of 
Energy to support the gas turbine technology advancement at all levels 
which in turn will support our environment and power efficiency goals 
as recognized by both Congress and the Administration.
Specific Recommendations
    The current generation of gas turbines has efficiency levels of 
approximately 58-59 percent. Through governmental support in certain 
other countries the efficiency is nearing 60-61 percent which is 
advancing significantly towards the industry's long term goal of 63-65 
percent. Maintaining our competitive efficiency advantage is critical 
to maintain our manufacturing base and its jobs, producing electricity 
more efficiently, and moving toward our goal of carbon reduction in the 
energy sector. It will also help our industry maintain its competitive 
position for export of both products and technology. The advancement of 
this technology must be done with the Department of Energy leading a 
combined private/public strategic partnership to insure success and 
rapid market deployment.
    We need to accelerate and increase funding of certain programs at a 
significantly higher level in order to promote the development of more 
efficient large turbines for the electricity generation and small 
turbines to meet growing demand for industry and distributed 
generation.
    A goal that the current program had but did not meet was developing 
the fundamental technologies needed for advanced hydrogen turbines and 
to integrate this technology with CO<INF>2</INF> separation, capture, 
and storage into a near-zero emission configuration that can provide 
electricity with less than a 10 percent increase in cost over 
conventional plants. This program needs significantly more funding to 
meet that goal. We also need to develop oxygen-fired (oxy-fuel) 
turbines and combustors that will achieve even higher efficiencies, 
with near-100 percent CO<INF>2</INF> capture and near-zero 
NO<INF>X</INF> emissions.
    Additional needs are the development and integrated testing of new 
combustors, turbine components, advanced cooling technology, and 
materials required for oxy-fuel combustors and turbines needed to make 
these systems commercially viable. The knowledge and confidence that 
generating equipment will operate reliably and efficiently on different 
fuels is essential for the deployment of new technology. Years of 
continued under-funding of the Advanced Turbines program has already 
significantly delayed the completion dates for turbine R&D necessary 
for advanced IGCC as a case in point.
    Among other programs that should be led by the Department of energy 
are: increased fuel flexibility for higher Hydrogen fuels and alternate 
fuels; lower emission for NO<INF>X</INF> and CO on natural gas and 
alternate fuels; advancement in manufacturing of ceramic and composite 
materials; additive manufacturing; hot gas path cooling and materials. 
These are a few examples that will not only advance the industry but 
will make the U.S. more competitive globally.
    Gas Turbines are a key to the future of our energy economy.
  --Gas turbines produce less than half the CO<INF>2</INF> per megawatt 
        hour than other fossil fuels
  --Gas turbines are key to stabilizing the electrical grid.
  --Gas turbines are essential to backing up renewable energy sources 
        with a rapid response capability.
  --Gas turbines are a vital part of the growing distributive 
        generation infrastructure.
    It is imperative that we recognize the value of gas turbine 
technology and support the development of this technology through the 
Department of Energy relying on its expertise in public/private 
partnerships to maximize the potential of every R&D dollar.
    The GTA respectfully requests $50 million in fiscal year 2015 
appropriations for the Fossil Energy Turbine Program to meet critical 
national goals including grid stability and reliability, fuel 
conservation, fuel flexibility, greenhouse gas reduction, and criteria 
pollutant reduction, as well as to insure the U.S. maintains its 
dominate position in the global market.
                                 ______
                                 
            Prepared Statement of the Health Physics Society
    The Health Physics Society (HPS) appreciates this opportunity to 
comment with written testimony for the public record on programs funded 
for fiscal year 2015.
    The Health Physics Society is the Nation's professional association 
of radiation safety professionals, with a membership that includes 
scientists, engineers, educators, administrators, technologists, and 
students. Our single highest Federal priority is continued funding for 
the Integrated University Program (IUP), appropriated to the Nuclear 
Regulatory Commission (NRC). This program supports health physics 
education at U.S. colleges and universities. These teaching programs 
bestow undergraduate scholarships, graduate fellowships, and faculty 
grants, and represent the most important pipeline for new professionals 
in the radiation safety disciplines. Specialists in radiation safety 
facilitate appropriate management of radiation sources in healthcare, 
energy, defense, homeland security, environmental protection, 
agriculture, science, space exploration, construction, and industrial 
settings. These diverse activities cross-cut many public and private 
sectors and support many national programs--yet no single Federal 
agency shepherds or champions the health physics profession. Continued 
support for health physics teaching programs addresses the increasing 
shortage of well-educated radiation safety professionals. This shortage 
of a well-trained nuclear science workforce is counterproductive to the 
health and safety of workers, members of the public, and the 
environment. Thus, the Integrated University Program for health physics 
education is vital to our Nation's future.
    Background.--In recent years, and despite the growing need for 
well-educated radiation safety professionals, the Department of 
Energy's Office of Nuclear Energy discontinued support for the 
Congressionally authorized health physics fellowship and scholarships. 
Congress in fiscal year 2008, led by the House Subcommittee on Energy 
and Water Development and Related Agencies, transferred management 
responsibility and appropriations for a nuclear sciences education 
program, including health physics, to the NRC. The Health Physics 
Society welcomes this insightful action. The NRC remains strongly 
committed to radiation safety education and training due to its own 
activities associated with most of the sectors covered by the health 
physics profession. The NRC quickly addressed the need for educated 
health physics professionals by initiating grant opportunities for 
student and faculty support. Not only has the NRC ably administered the 
Integrated University Program, but also it has directed important 
assistance to academic programs at colleges and universities throughout 
the country, including support to minority educational institutions and 
technology colleges.
    Low-dose Radiation Research.--The Health Physics Society also 
supports continued funding for the Department of Energy's Low Dose 
Radiation Research Program named in the EINSTEIN act. Improved 
understanding of the biological effects of low-dose, low-dose-rate 
ionizing radiation is essential for establishing appropriate, science-
based standards for environmental restoration of former DOE nuclear 
facilities, and for other applications in radiation protection.

    [This statement was submitted by Darrell R. Fisher, President, 
Health Physics Society.]
                                 ______
                                 
          Prepared Statement of the Home Performance Coalition
    As a leader in the performance industry, the Home Performance 
Coalition urges your support for funding to advance programs at the 
Department of Energy that invest in residential energy efficiency and 
whole-house initiatives, as outlined in this testimony, in the fiscal 
year 2015 Energy and Water Development Appropriations bill. On behalf 
of our stakeholders, thank you for this opportunity to express our 
support for these important programs and initiatives.
    The Home Performance Coalition is a national non-profit 501c3 
organization that works with governmental agencies, utilities, State 
programs, contractors, and other stakeholders to strengthen and advance 
the whole-home energy efficiency upgrades through standards 
development, stakeholder engagement, policy analysis, research, and 
education.
    The Home Performance Coalition offers its strong support for whole-
home residential efficiency programs and initiatives. By looking at a 
home as a system, customers make better energy choices. For example, 
installing a high-efficiency HVAC unit in a home without insulation in 
its attic will not result in the home owner receiving the heating and 
cooling efficiently, nor the comfort expected. Home performance 
contractors and professionals help home owners make smart energy 
decisions by making home assessments, recommendations, and improvements 
based on building science and the whole-home structure. Yet, as 
building science have developed, so has the home performance industry 
which is still on the cutting edge as it strives to serve and educate 
homeowners around the country about the ways and means for reducing 
their energy use. Public programs that support this industry are vital 
as it continues to develop.
    The following programs at the Department of Energy, in the Energy 
Efficiency and Renewable Energy Office and Office of Weatherization & 
Intergovernmental Assistance, deserve the support of the American 
taxpayer as these programs, by supporting an American-based industry 
and American jobs that will strengthen the economy, the electric grid, 
and our national security; will provide a significant return on their 
investment.
    $30 M for Residential Building Integration.--We support a 
Residential Buildings Integration office that will focus on 
accelerating the development and adoption of advanced building energy 
technologies and practices in new and existing homes. The Residential 
Building Integration program has the capacity to fundamentally 
transform homebuilding and renovation in this country. However, we 
recommend that the funding be focused on research, development and the 
widespread deployment of whole-house energy efficiency through their 
partnerships with builders, the construction trades, equipment, smart 
grid technology and systems suppliers, integrators and State and local 
governments. Fewer teams, with sufficient funding each would be a 
better model than the current one of providing too little funds to many 
players, and successful models should be replicated more widely. Direct 
engagement with builders, contractors, and business is crucial to the 
success of buildings programs. Funding should be spent primarily on 
industry teams that have the capability to bring all actors to the 
table and transform the market with an emphasis on addressing whole-
house energy efficiency and energy performance based policy 
initiatives.
    $10 M for a New Energy Efficiency Initiative.--We support a new 
program that would be focused on stakeholder engagement efforts with 
input and direction by the existing home performance industry and the 
weatherization network. Working with national organizations and 
companies specializing in home performance and/or weatherization, the 
efforts will include regional forums and will generate policy 
recommendations leading to the development of a new residential energy 
efficiency retrofit program to support increased energy efficiency in 
all residential buildings and income levels.
    $200 M President Race to the Top for Energy Efficiency.--Modeled 
after the successful Education Race to the Top, this effort will 
challenge States and utilities to develop innovative new policies that 
would advance energy productivity. The President's Budget Request for 
the Department of Energy for fiscal year 2015 includes an Opportunity, 
Growth, and Security Initiative (OGSI) which is outside the Bipartisan 
Budget Act yet adds funds innovative ideas not in earlier fiscal years. 
OGSI includes $200 million for an innovative Race to the Top awards to 
support State governments that implement effective policies such as 
those that would advance residential energy efficiency upgrades. Note, 
most of these funds would be provided to the States with only a modest 
amount reserved by DOE for technical assistance. A September 2013 study 
by ACEEE on a similar proposal notes that the program could result in 
estimated net savings of $11.8 billion and cut energy by 1.30 Quads and 
carbon dioxide emissions by 71.25 MMT by 2030. These results are a 
great investment for the American taxpayer, returning $8.40 in energy 
savings for every $1 invested. We believe funding for this initiative 
should be placed in addition (plus up) in the Energy Efficiency and 
Renewable Energy accounts.
    $63 M for State Energy Program.--We urge the Committee to provide 
funding at the level of $63 million for the State Energy Program, which 
allows States to assist with the development of energy efficiency and 
renewable energy projects, and support funding a State competitive 
grant programs with monetary awards to States to use to improve their 
energy productivity programs.
    $230 M for Weatherization Assistance Program.--We ask the Committee 
to return funding to historical levels for the Weatherization 
Assistance Program, which helps low-income families, seniors, and 
individuals with disabilities make lasting energy efficiency 
improvements to their homes. Moreover, Weatherization has a proven 
track record of creating new jobs and contributing to the economy 
through the program's large supply chain of vendors, suppliers, and 
manufacturers.
    The Home Performance Coalition believes that energy efficiency is 
vital to our economic growth and international competitiveness. Again, 
thank you for providing this opportunity to submit testimony. We would 
also appreciate the opportunity to brief you or your staff on these 
important programs and initiatives and the successful energy savings we 
anticipate they will achieve. We look forward to working with you.

    [This statement was submitted by Steven Cowell, Chair, Home 
Performance Coalition.]
                                 ______
                                 
    Prepared Statement of the Integrated Building and Construction 
                               Solutions
    IBACOS (Integrated Building And Construction Solutions) urges the 
Subcommittee on Energy and Water Development to provide $22.5 million 
in fiscal year 2015 Appropriations for the Building America Activity in 
the Department of Energy's (DOE) Office of Energy Efficiency and 
Renewable Energy, Building Technologies and Residential Building 
Integration Programs.
    DOE's Building America Program: Leading the Way to 50 percent 
Energy Savings and Beyond
    Executive Summary.--Residential buildings currently consume 
approximately 22 percent of the primary energy in the U.S. Of the over 
134 million housing units in the U.S., more than 17 million were built 
between 2000 and 2011. The Department of Energy's (DOE) Building 
America Program has a proven industry-driven research approach that can 
reach the DOE's long term goal of 50 percent energy savings in new and 
existing houses by 2030 and near term goal to deploy zero net energy 
ready homes with industry partners. Appropriate research investments in 
systems integration and evaluation are necessary to upgrade the 
performance of our housing stock and achieve these goals. Significant 
benefits to homeowners include reduced utility bills, and to the U.S. 
economy by maintaining housing as a major source of jobs and economic 
growth.
    While one key DOE strategy is to ``Deploy the Technologies We 
Have,'' the Pacific Northwest Laboratories has stated ``It is not clear 
that 50 percent improvement [to the 2006 energy code] can be achieved 
prescriptively.'' The competitively selected industry Teams in the 
Building America Program continues to be the key element to solve the 
whole building systems integration challenges associated with reducing 
energy consumption in new and existing residential building. Each team 
is comprised of a wide cross section of industry stakeholders, 
including builders, energy upgrade contractors, utilities, designers, 
engineers, building scientists, manufacturers, and suppliers. The 
unique nature of the Teams enable the development of advanced energy 
saving strategies that can be implemented by builders and energy 
upgrade contractors on a production basis, while meeting consumer 
requirements and building performance criteria.
Achieving 50 percent Savings in New and Existing Residential Buildings
    The next level of energy savings cannot be cost effectively 
achieved by simply adding ``more'' of the individual technologies that 
we already know will work. The Building America Teams are charged with 
finding energy savings in a way that does not put builders and 
homeowners at greater risk of building durability problems, and 
maintains occupant health, safety and comfort. Finally, these solutions 
must be cost effective for the consumer. The work the Teams undertake 
is analogous to the systems integration a manufacturer undertakes, 
combining a number of energy efficient components into systems, and 
combining those systems to deliver the finished product. For example, 
carmakers have to integrate how a brake system and engine in a hybrid 
car charges the battery to enhance fuel efficiency, while keeping the 
passengers safe. In the same way, a builder integrates insulation, 
types of windows, and heating and cooling components into a balanced 
whole-house system that maximizes energy efficiency, improves comfort 
and enhances durability. Exploration into new systems and construction 
strategies to achieve these goals present significant risk to the 
builder and energy upgrade contractor, and is costly for the following 
reasons:
  --The housing market is highly fragmented with close to 500,000 
        contractors and builders; typical industry has less than 10,000 
        actors.
  --The house industry has little ability to drive common research in 
        new or existing homes. In fact, industry, spends less than 0.4 
        percent on R&D which is significantly lower than other 
        industries.
  --Builders and energy upgrade contractors do not readily change what 
        they have done for fear of a lawsuit, and need proven and risk-
        free systems-integrated solutions they can implement with 
        confidence.
    The research done by the Building America Teams also has great 
benefits:
  --Successful strategies that are widely adopted can create jobs and 
        help further economic recovery, while lowering costs for 
        homeowners
  --Successful systems integration research that simultaneously looks 
        at new construction and retrofit can accelerate the adoption 
        and more rapidly grow the market of perceived high risk 
        emerging technologies
  --Houses that properly use systems integration strategies can be more 
        resilient.
    Builders need the systems-integrated, whole-house performance 
solutions the Building America Teams provide in order for any future 
energy code to be written, enacted by jurisdictions, and implemented. 
At the same time, the Teams work to transfer whole house solutions to 
the retrofit market. Building America provides the systems-integrated 
strategies for new construction programs such as Challenge Home and 
ENERGY STAR, and technical approaches for energy upgrade programs such 
as Home Performance with Energy Star and the DOE Weatherization 
Assistance Program.
Technical Research vs. Market Priming
    The DOE's Quadrennial Technology Review states:
       ``The Department undertakes three types of activities related to 
        building efficiency: codes and standards, R&D, and market 
        priming (listed in order of decreasing impact and leverage). 
        Codes, standards, and market-priming activities are primarily 
        directed at reducing non-technological barriers to increased 
        energy productivity, while R&D addresses technological 
        challenges.''
    Building America is a key residential systems integration research 
program, and should not be confused with other programs designed to 
overcome market barriers.
Program Status
    As one of the most effective programs engaging with industry 
stakeholders to further DOE's goals, it is critical to increase the 
level of funding to Teams in fiscal year 2015. Teams are undertaking a 
wide range of research activities across a spectrum of technologies 
related to building enclosures and mechanical systems integration in 
new and existing buildings. While potentially up to 30 percent of the 
Nation's builders and energy upgrade contractors could reasonably 
achieve a 30 percent energy saving target, it is estimated that less 
than 1 percent can achieve the 50 percent savings goal and beyond to 
zero net energy ready homes. To develop solution sets to help the 
industry move forward to the 50 percent level, all areas of energy use 
in the house must be addressed. This means increased complexity on the 
part of the new construction builder and all associated trade partners, 
the energy upgrade contractor, and suppliers and manufacturers. This 
translates to significantly more effort on the part of each Building 
America Team lead. More than 40,000 homes have been constructed or 
retrofitted in over thirty-four States with energy savings up to 50 
percent. Building America has significantly increased the output of 
valuable guidance to the building industry, which is available through 
Building America's publication website. Continued robust funding is 
needed to research how residential buildings can contribute to DOE's 
energy efficiency goals, through Building America research with 
builders, contractors, and suppliers.
    Additionally, funding should be focused with the Industry Teams 
that can facilitate research, demonstrate and test new systems, and 
facilitate widespread deployment through their partnerships with 
builders, the construction trades, equipment and systems suppliers and 
integrators. Fewer teams, with sufficient funding each would be a 
better model than the current one of providing too little funds to many 
players.
    Recommendation for fiscal year 2015 Funding.--DOE should be 
directed to maintain a focus on funding for the Building America Teams 
with the following language:
    ``The Committee recommends that $22.5 M shall be used for the 
Building America Program at DOE's Office of Building Technologies to 
fund the research activities of the competitively selected Building 
America research teams, the Building America lead research laboratory, 
and other national laboratories conducting research to achieve Building 
America's specified energy performance targets.''

    [This statement was submitted by Mark Tilly, Partner and Chief 
Executive Officer, Integrated Building and Construction Solutions.]
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The National Association for State Community Services Programs 
(NASCSP) urges the U.S. Senate Committee on Appropriations Subcommittee 
on Energy and Water Development to fund the Department of Energy's 
(DOE) Weatherization Assistance Program (WAP) in fiscal year 2015 at no 
less than $230 million. NASCSP also urges the Committee to support 
base-formula appropriations of $63 million for the State Energy Program 
(SEP) in fiscal year 2015.
    In the constrained budget climate right now, we understand that 
difficult decisions have to be made amongst competing priorities. 
Notwithstanding, the Weatherization Assistance Program is proven, cost-
effective, and successful, delivering savings to low-income Americans 
as well as creating thousands of new jobs. Last year alone, more than 
100,000 homes were weatherized by the DOE WAP network and a remarkable 
one million homes were weatherized between April 2009 and September 
2012, far exceeding all goals and expectations.
    Weatherization provides the foundation for clean energy investments 
that create jobs, increase American competitiveness, saves families and 
businesses money through improved energy efficiency, and reduces 
pollution. We appreciate your past support for these important programs 
and respectfully request that you fund WAP at $230 million for fiscal 
year 2015.
    For more than three decades, the Weatherization Assistance Program 
has helped low-income families, seniors, and individuals with 
disabilities make lasting and cost-effective energy efficiency 
improvements to their homes. To date, more than 7.4 million homes have 
been weatherized, providing as much as $450 in annual savings on a 
household's energy bill. WAP also supports thousands of high quality 
jobs. The National Association of State Community Services Programs 
estimates that there are about 10,000 highly skilled jobs in the 
weatherization network, with countless more supported in related 
businesses including materials suppliers, vendors, and manufacturers. 
WAP has helped the construction industry and given a boost to American 
manufacturers and small businesses during challenging economic times.
    In addition, electric and gas utilities in many States depend on 
the WAP delivery network to carry out low-income residential efficiency 
initiatives, leveraging resources and increasing the impact of WAP in 
these States. Funding WAP at $230 million, closer to historic funding 
levels, will ensure that States have the resources to support 
weatherization programs that help reduce the burden of high energy 
prices on low-income families.
    Some examples of the Program's accomplishments include:
  --Served over 7.4 million low-income homes since the program's 
        inception, with millions more high-energy use units still 
        eligible and in dire need of services;
  --Saves low-income families an average of $250 to $450 per year in 
        heating, cooling, and electric costs, depending on their 
        housing type, location, and fuel source;
  --Returns $2.51 for every dollar spent in energy and non-energy 
        benefits over the life of the weatherized home;
  --Serves as a foundation and catalyst for the entire Home Performance 
        industry, as a leader in residential energy efficiency retrofit 
        standards, technical skills, and workforce training;
  --Impacts communities through local purchasing and jobs, supporting 
        over 10,000 local, American businesses nationwide;
  --Reduces residential and power plant emissions of carbon dioxide by 
        2.65 metric tons per year per home; and
  --Decreases national energy consumption by the equivalent of 24.1 
        million barrels of oil annually.
    The WAP is still as relevant now as it was when it was formed in 
response to the energy crisis of more than 35 years ago. The savings to 
America's most vulnerable citizens are significant and make a huge, 
immediate difference in their lives. These families have an average 
energy burden--the percentage of their income needed to pay residential 
energy bills--around 15 percent of their income as compared to around 3 
percent for non-low-income households, or five times greater. The 
lowest income families have a much higher energy burden than that. For 
example, in the State of Michigan, House Energy and Commerce Chair Fred 
Upton's home State, there are 273,000 households below 50 percent of 
the Federal poverty level. Those families have an energy burden of 37 
percent--yes, their energy bills account for over 1/3 of their 
household income. With lower energy bills, these families have more 
usable income to buy other essentials like food, shelter, clothing, 
medicine, and healthcare and thus invest in local businesses and 
communities. WAP provides a positive return on investment to meet its 
primary objectives of making homes warmer in winter and cooler in 
summer, creating safer and healthier indoor environments.
    Because of the advanced diagnostics and technology developed in 
WAP, the program is the foundation for the growing home performance 
industry and green energy efficiency retrofit workforce. There are 
approximately 10,000 living-wage jobs in the Weatherization network, 
with many more supported in related businesses, such as material 
suppliers. Workers are highly trained and receive on-going instruction 
to further develop their skills. WAP is at the core of the larger 
energy efficiency retrofit market, and its technology and training 
curricula play an integral role in developing the standards and 
workforce for the broader home performance industry. WAP managers, 
trainers, and technical experts figured prominently in the development 
of the Guidelines for Home Energy Professionals and continue to play a 
key role in the development of standard work specifications, 
standardized training curricula, worker certifications, and training 
facility accreditations.
    NASCSP urges the Subcommittee to fund the Weatherization Assistance 
Program at not less than $230 million for fiscal year 2015, the funding 
level necessary to sustain a national program to serve low-income 
families in all local communities as it has traditionally done. WAP is 
clearly a proven investment, has provided significant energy savings, 
and has helped over 7.4 million families live in safer, more 
comfortable living conditions. This is a program that has proved its 
worth and effectiveness for over 30 years. NASCSP looks forward to 
working with Committee members in the future to ensure that this 
program continues as a sustainable national program to benefit low-
income Americans. NASCSP also supports base-formula appropriations of 
$63 million in fiscal year 2015 for the State Energy Program.

    [This statement was submitted by Timothy R. Warfield, Executive 
Director, National Association for State Community Services Programs.]
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chair Feinstein, Ranking Member Alexander and members of the 
Subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO). NASEO is submitting this 
testimony in support of funding for a variety of U.S. Department of 
Energy programs. Specifically, we are testifying in support of no less 
than $63 million for the base, formula State Energy Program (SEP). SEP 
is the most successful program supported by Congress and DOE in this 
area. This should be base program funding that allows States to target 
their energy opportunities within program guidelines, with no DOE-
directed competitive portion, which focuses primarily on DOE's internal 
priorities. SEP is focused on working with private business to help 
facilitate direct energy project development, where most of the 
resources are expended. SEP has set a standard for State-Federal-
private cooperation and matching funds to achieve critical Federal and 
State energy goals. The base SEP funds are the critical linchpin to 
help States in building on these activities and expanding energy-
related economic development, much as SEP has done for over 30 years. 
We also support the $230 million level for the Weatherization 
Assistance Program (WAP). These programs are successful and have a 
strong record of delivering savings to low-income Americans, 
homeowners, businesses, and industry. We also support the funding level 
provided in the fiscal year 2015 Budget Request for the Energy 
Information Administration (EIA) of $122.5 million. EIA's State-by-
State data is very helpful and has been improving. The State Heating 
Oil and Propane Program (SHOPP) is critical and needs to expand. EIA 
funding is a critical piece of energy emergency preparedness and 
response, and there are significant EIA responsibilities under EISA. 
The severe propane issues this past winter reminds us how important the 
EIA data has become. With changing markets and increased price 
volatility, EIA needs are increasing. NASEO continues to support 
funding for a variety of critical buildings programs, including the 
Residential Building Integration Program at least at the fiscal year 
2012 level, and the Building Energy Codes Program at a $15 million 
funding level. NASEO also supports funding for the Office of 
Electricity Delivery and Energy Reliability (OE) above the level of the 
$180 million fiscal year 2015 Budget Request. Specific funding should 
be provided for the Division of Infrastructure Security and Energy 
Restoration of no less than $22.6 million, which funds critical energy 
assurance activities. This office was key to State and Federal efforts 
in Superstorm Sandy response. Moreover, this office's actions were 
essential to enabling State and private efforts to mitigate the propane 
supply disruption in the Midwest and New England during the winter of 
2013-14. We also strongly support the R&D function, cyber security, 
Operations and Analysis function, and the smart grid and related grid 
integration programs of OE. The Office of Energy Efficiency and 
Renewable Energy's Advanced Manufacturing program should be funded to 
promote efficiency efforts and to maintain U.S. manufacturing jobs, 
though we are concerned that both advanced manufacturing technologies 
and deployment efforts to support existing manufacturing should be 
supported. In addition, the Clean Cities Program is an exceptional 
public-private partnership program operated by States, cities, and 
their partners, which is working with the market to diversify the 
Nation's transportation system through transportation fuel 
infrastructure expansion in natural gas, electricity and other 
alternative fuels. We are also interested in working with this 
Subcommittee, Congress and the Administration on the proposed ``Energy 
Productivity Innovation Challenge (EPIC)/Race to the Top'' initiative. 
However, the proposed EPIC should not supplant SEP funding.
    Formula SEP funding provides a basis for States to share best 
practices among themselves. These best practices allow States to get a 
great deal accomplished. These types of activities include catalyzing a 
range of energy financing programs (e.g., revolving loans, utility-
based programs, energy savings performance contracts) operated in 
partnership with the private sector; and public-private efforts to open 
new energy product and services markets in such areas as high 
performance buildings, advanced materials for manufacturing, and new 
grid technologies.
    In January 2003 (and updated in 2005), Oak Ridge National 
Laboratory (ORNL) completed a study and concluded, ``The impressive 
savings and emissions reductions numbers, ratios of savings to funding, 
and payback periods . . . indicate that the State Energy Program is 
operating effectively and is having a substantial positive impact on 
the Nation's energy situation.'' ORNL found that $1 in SEP funding 
yields: 1) $7.22 in annual energy cost savings; 2) $10.71 in leveraged 
funding from the States and private sector in 18 types of project 
areas; 3) annual energy savings of 47,593,409 million source BTUs; and 
4) annual cost savings of $333,623,619. Energy price volatility makes 
the program more essential as businesses and States work together to 
maintain our competitive edge.
    Examples of Successful State Energy Program Activities: The States 
have implemented thousands of projects. We have previously supplied to 
Subcommittee staff examples of programs and projects implemented. Here 
are a few representative examples.
    Alabama.--Forty-one Alabama businesses are saving a total $4.6 
million annually in energy costs as a result of the AlabamaSAVES loan 
program, which the Alabama State Energy Office created using SEP funds. 
The program provides low-interest loans, in partnership with the 
private sector, to make energy-efficiency upgrades at business and non-
profit facilities. The program has provided $22.5 million in loans to 
date, such as the following: 1) Wise Alloys, with 1100 employees, will 
save approximately $1.7 million a year in energy costs as a result of 
energy efficiency retrofits; and 2) Dixie Group in Roanoke--two loans 
totaling $3.76 million for lighting, boiler and insulation upgrades and 
high-efficiency production equipment, which has decreased steam 
consumption by 70 percent and electricity use by 20 percent.
    Alaska.--Alaska established the $250 million Alaska Energy 
Efficiency Revolving Loan Fund in 2010. The fund is available to 
finance energy efficiency improvements for public facilities throughout 
the State. SEP funds were used to collect benchmarking data on about 
1200 public facilities, plus approximately an additional 100 University 
and State-owned facilities, in order to identify high-energy using 
buildings.
    California.--This State is improving energy efficiency in State-
owned buildings through the State Property Revolving Loan Fund Program. 
This sustainable loan program is supporting energy upgrades in more 
than 60 buildings located throughout the State--including energy 
retrofit projects in 18 California Highway Patrol Offices. California's 
Clean Energy Business Financing Program (CEBFP) provides low-interest 
loans to clean energy manufacturing companies and is supported by SEP 
funds and the California Energy Commission.
    Illinois.--The Illinois Energy Office initiated the Innovative 
Energy Program in 2013 using SEP funds. The program provides financial 
and technical assistance for energy efficiency and renewable energy 
projects that incorporate advanced energy storage; offering rebates for 
geothermal heat pump installations in the residential and small 
commercial sectors; and supporting a series of statewide electric 
vehicle education forums targeting municipal entities, private fleet 
owners, and others.
    Iowa.--In order to create economic value from all waste streams in 
Iowa, the Energy Office has undertaken a project to launch a economic 
analysis tool to evaluate waste-to-energy projects. Investors can input 
their data to receive a cost analysis to determine if their investment 
in waste-to-energy projects is financially sound and net positive. Over 
the last 3 years, Iowa has also successfully undertaken the Iowa B3 
Benchmarking project and has benchmarked over 1,800 public buildings.
    Kentucky.--The Kentucky Department of Energy Development and 
Independence (DEDI) helps teams of designers, architects, and school 
administrators develop and construct, cost-effective zero-net energy 
capable schools. The energy use reductions and cost savings have been 
dramatic. During the period from fiscal year 2009 to fiscal year 2012 
the Energy Utilization Index (EUI) of K-12 public schools statewide 
dropped from 64 kBtu/sq.ft./yr to a 58 kBtu/sq.ft./yr; a remarkable 
achievement in only 3 years. The program proved to be so successful 
that two utilities, LG&E and KU, are providing partial funding for 
school energy managers in their service territories as part of the 
utilities' Demand Side Management program. In fiscal year 12/13 
Kentucky's K-12 public schools spent $134 million on energy in 
buildings but had avoided costs that totaled some $15 million.
    Louisiana.--In Louisiana, the State energy office in coordination 
with Energy has invested $14.7 million in 61 energy efficiency 
improvements that has resulted in $30 million in annual fuel savings. 
The SEP program has also supported their Home Energy Rebate Option 
Program (HERO), which has resulted in over 1,100 home retrofits and a 
30 percent average increase in energy efficiency per home.
    Maine.--SEP funds supported Maine's Home Energy Savings Program 
which launched in 2010. To date, approximately 5,000 Mainers have 
conducted residential energy audits with more than 3,000 of these 
homeowners receiving rebates for whole-house energy upgrades. More than 
100 licensed construction companies have been certified to participate 
in the program, which has resulted in excess of $27 million worth of 
residential energy retrofit projects.
    Mississippi.--The Mississippi Energy Office is utilizing SEP funds 
to support programs aimed at reducing energy consumption and costs in 
public buildings. One example is the Woolfolk State Office Building in 
downtown Jackson, MS. A 15-story office complex, housing more than 10 
State agencies, the Woolfolk Building operates with a total of 60 air 
handling units (AHUs). An energy consumption report showed that all 
AHUs were operating 24 hours per day, 7 days a week, despite the 
building being unoccupied at night and on weekends. Override 
thermostats were installed on each floor so that only areas needing 
HVAC could be selected for operation after normal hours. The project 
cost was $5,200 with savings of $96,000 per year.
    Montana.--Montana's Alternative Energy Revolving Loan Program 
(AERLP) was created using a variety of funding sources, including SEP 
funds. AERLP provides a financing option to Montana homeowners, small 
businesses, non-profits and government entities to install alternative 
energy systems. Funds are paid back to the program over time and loaned 
out again and again, extending the funding benefits for years. Loans 
are capped at $40,000 and carry a 3.25 percent interest rate (rate 
adjusted annually) with terms of up to 15 years.
    New Hampshire.--Since 2005, the State has reduced energy usage per 
square foot by 20 percent, and reduced fossil fuel usage by 24 percent, 
resulting in real savings to the taxpayers of New Hampshire and 
meaningful reductions in reliance on imported energy. The State Energy 
Office utilizes SEP funding to provide ongoing training on building 
management and energy system commissioning for State facility managers 
to ensure that energy savings are maintained over the life of State 
buildings.
    New Mexico.--New Mexico has used SEP funding for management of the 
Renewable Energy Production Tax Credit (REPTC) program that supports 
renewable energy successes and that has incentivized the potential new 
development of 1,508 MW in wind and 29 MW in solar, which would create 
approximately $3 billion in construction activity for rural 
communities. The New Mexico State Energy Office is supporting utility-
scale wind, biomass, and solar projects which, in turn, assist utility 
companies in meeting the Renewable Portfolio Standard. Currently, there 
are 774 megawatts (MW) of wind and 160 MW of solar operating in New 
Mexico, which have created approximately $2 billion in construction 
activity over the past 10 years and provided approximately 10 percent 
of electricity retail sales in New Mexico from investor-owned 
utilities.
    North Dakota.--In North Dakota, industrial energy efficiency 
activities supported through SEP funding include the North Dakota State 
University (NDSU) Agricultural Energy Efficiency program, a grant to 
support utility rebates and grants for municipal utilities to upgrade 
their municipal utility systems. NDSU is using SEP funding to conduct 
workshops on energy-conserving farming practices. To date, nearly 45 
workshops have been held with over 850 participants attending.
    South Carolina.--The South Carolina Energy Office (SCEO) 
administers the ConserFund Loan Program, designed to provide funding 
for energy efficiency retrofits and renewable energy or alternative 
transportation projects for government or non-profit entities. In 
fiscal year 2014, SCEO closed eight ConserFund loans with a total 
expected savings of $12,421,112. Over the life of the program, they 
have provided 64 loans for a total projected lifetime savings of 
$69,909,914.
    South Dakota.--The South Dakota Energy Office (used SEP funds to 
support energy efficiency retrofits applications in a variety of public 
facilities. For example, funding was recently used to replace old 
inefficient HVAC motors with new energy efficient motors and variable 
speed drives. To date, 85 motors are scheduled to be replaced with 
significant savings projected. The State Energy Office also provides 
zero interest loans to South Dakota's K-12 public schools for energy 
efficiency projects.
    Tennessee.--The Tennessee Energy Education Initiative (TEEI) was 
launched by the Tennessee State Energy Office, using SEP funds, to 
provide education to consumers, businesses, and State and local 
agencies on a variety of energy efficiency and renewable energy 
options. The initiative is developing curriculum for Evaluation, 
Measurement, & Verification and Energy Efficiency through Behavioral 
Change workshops that will initially target State and local government 
agencies. To date, 2,837 persons have attended the sessions. In 
addition, SEP funds are utilized to engage in the Tennessee Valley 
Authority's Integrated Resource Planning Process to help ensure cost-
effective energy efficiency and renewable energy options are 
considered.
    Washington.--SEP funding was used for a renewable energy and energy 
efficiency financing program. The loans, loan guarantees, and grants 
from this program are encouraging a number of innovative energy 
technologies. By the end of 2012, more than 30 projects were completed 
under this program, with more on the way.

    [This statement was submitted by David Terry, Executive Director, 
National Association of State Energy Officials.]
                                 ______
                                 
       Prepared Statement of the National Hydropower Association
    The National Hydropower Association \1\ submits this statement in 
support of $90 million for the U.S. Department of Energy's (DOE) Water 
Power Program and its research and development (R&D) initiatives for FY 
2015.
---------------------------------------------------------------------------
    \1\ NHA, with over 180 members, is the national trade association 
dedicated to promoting the Nation's largest renewable electricity 
resource and advancing the interests of the hydropower, pumped storage, 
and ocean, tidal, conduit and in-stream hydrokinetics industries.
---------------------------------------------------------------------------
    In addition, NHA also strongly advocates directing additional 
resources to the operations and maintenance (O&M) programs of the U.S. 
Army Corps of Engineers (USACE) and Bureau of Reclamation (BuRec) to 
increase both capacity and generation at the Federal facilities, as 
well as to those programs that fund the engagement and review of 
applications for third-party development at USACE's and BuRec's water 
infrastructure.
Requesting $90 million in FY 2015 funding for the DOE Water Power 
        Technologies Program
    Funds should be directed across all water power technology 
sectors--hydropower, pumped storage, marine and hydrokinetic (MHK), and 
conduit technologies. The DOE divides funding generally across 2 broad 
program areas: hydropower and MHK. For fiscal year 2015, NHA supports 
funding $40 million for hydropower and $50 million for MHK.
    Over the last 18 months, a notable surge in Federal and State 
policymaking in support of hydropower has taken place. Examples 
include: passage of 2 hydropower regulatory improvement bills--the 
Hydropower Regulatory Efficiency Act (HREA) and the Bureau of 
Reclamation Small Conduit Hydropower and Rural Jobs Act; support for 
new hydropower development on non-powered dams as part of the 
President's Climate Action Plan; adoption of State-FERC MOUs and State 
programs to support small hydro and conduit projects, and more.
    As a result of this policy leadership, the U.S. hydropower industry 
is transitioning from a period of stasis to one of increased growth. 
FERC reports that 387 MW of new hydropower capacity was brought online 
in 2013, which was an increase from 288 MW of new capacity installed 
the year before in 2012.\2\ The Commission also reports tens of 
thousands of megawatts of proposed pumped storage, hydropower, conduit 
and MHK projects in the early stages of the approval process.
---------------------------------------------------------------------------
    \2\ http://www.ferc.gov/legal/staff-reports/2013/dec-energy-
infrastructure.pdf.
---------------------------------------------------------------------------
    This is a resurgence unparalleled in the hydropower industry in the 
last 3 decades. As the need for new sources of clean dispatchable 
baseload power has grown, policymakers, utilities, State PUCs, grid 
operators and others are turning back to the original renewable 
resource--hydropower.
Importance of the Department of Energy Water Power Technologies Program
    The renewed and growing commitment for research and development 
(R&D) initiatives on the Federal level through the DOE Water Power 
program has been as instrumental to the hydropower renaissance underway 
as the work on regulatory improvements and incentives.
    In fact, Energy Secretary Moniz recently announced a new DOE 
initiative for the hydropower industry to develop a long-range national 
Hydropower Vision. This landmark vision will establish the analytical 
basis for an ambitious roadmap to usher in a new era of growth in 
sustainable domestic hydropower over the next half century.\3\
---------------------------------------------------------------------------
    \3\ http://energy.gov/eere/water/new-vision-united-states-
hydropower.
---------------------------------------------------------------------------
    The DOE Water Power Program is growing the U.S. global position by 
funding cutting-edge research to produce the next generation of 
hydropower, pumped storage, conduit and marine and hydrokinetic (MHK) 
technologies, and by accelerating the development of markets for these 
technologies. Over the years, the program has been the smallest of the 
DOE R&D programs, yet as described below, will play a central role as 
the country looks to transition to a clean energy economy, bring more 
new renewable energy online and integrate increasing amounts of 
intermittent energy resources.
    The Water Power Program supports cutting-edge research, 
development, demonstration and deployment efforts for innovative new 
technologies and operations that could generate cost-effective 
renewable electricity from across the water power sector and improve 
the security and reliability of the electric grid. Federal R&D support 
also stimulates private investments in the construction, manufacturing, 
engineering and environmental science sectors and strengthens the 
thousands of businesses that make up the U.S. supply chain. The further 
development of these industries can expand and employ a substantial 
skilled workforce.\4\
---------------------------------------------------------------------------
    \4\ The U.S. hydropower industry employs upwards of 300,000 workers 
with a domestic supply chain that spans the country. These supply chain 
companies work on U.S. projects, but also provide equipment and 
expertise on hydropower projects around the globe. See: https://
fortress.maptive.com/ver3/nhasupplychainsnapshot.
---------------------------------------------------------------------------
    NHA's request for continued Federal support for the Water Power 
Program is in line with both the Administration's and Congress' pledge 
to spur investments that create well-paying domestic jobs and economic 
opportunities for localities.
    Increasing hydropower generation provides more clean and renewable 
megawatts to the grid, and also increases the amount of grid 
reliability, stability and integration services needed to support the 
penetration of intermittent resources, like wind and solar. Hydropower 
and pumped storage projects can provide utility and grid-scale energy 
storage, and other ancillary services, but doing so will require 
projects to operate in new ways and with new technologies.
    This makes continued Federal research investments vitally important 
and needed if the DOE is to achieve its goal for water power 
technologies to provide 15 percent of the Nation's energy by 2030.\5\
---------------------------------------------------------------------------
    \5\ http://energy.gov/eere/water/about-water-power-program.
---------------------------------------------------------------------------
Priority Hydropower R&D Needs
    NHA has identified industry R&D priority topics that will enhance 
the industry's ability to grow and develop new projects, technologies, 
and operational modes, to maintain and enhance generation at existing 
projects as well as support new project deployment.\6\
---------------------------------------------------------------------------
    \6\ This list is not exhaustive and NHA incorporates by reference 
its past Energy and Water Appropriations statements (particularly 
fiscal year 2014), which contain additional details and further R&D 
proposals and items.
---------------------------------------------------------------------------
  --Resource assessments--the HREA of 2013 directed the DOE to conduct 
        an assessment of pumped storage opportunities to support 
        integration of intermittent resources and of conduit project 
        opportunities, for which a national study has never been 
        performed.
  --Technology advancements/innovations--while the DOE is currently 
        supporting several initiatives for turbines (conventional, 
        pumped storage in-conduit and MHK), generators, fish passage 
        technology, etc., further investigation is warranted--
        particularly funding for demonstrations. Federal and State 
        resource agencies and other stakeholders prefer independent 
        analysis and study of new technology improvements before 
        agreeing to deployment in the field.
  --Market development/benefit recognition--one of the barriers to 
        increased hydropower project deployment is the undervaluation 
        of its energy and grid attributes, which if addressed, would 
        establish revenue streams to support the significant capital 
        outlays required in the sector. The DOE can analyze the market 
        gaps that exist across the various RTOs and regions, which 
        could assist in the development of new market proposals and 
        products--capacity, fast-ramping, integration, etc.
  --Small hydropower--one of the major potential growth areas for the 
        industry is in the small hydropower sector. However, U.S. small 
        hydropower resources are underutilized due to the capital 
        expense, mitigation and licensing costs that occur relative to 
        the project size. Advances in small turbine designs to reduce 
        the cost of installation and/or environmental mitigation would 
        lead to an increase in hydropower generation.
  --Climate modeling/drought management--climate change presents 
        opportunities and challenges for the hydropower industry and 
        all industries that rely on water. The DOE has only just begun 
        to examine some of these issues. Topics such as increased 
        reservoir storage, both existing and new, project operational 
        changes (to maintain and/or increase generation while serving 
        other needs) and better short and long-term forecasting are all 
        potent areas for future scientific investigation.
  --Pumped Storage--99 percent of energy storage in the U.S. and 
        globally comes from hydropower pumped storage. However, while 
        thousands of megawatts of new projects are proposed, most are 
        finding financing difficult. The DOE can assist by 
        investigating ways to reduce costs for new technology, such as 
        variable speed turbines (not currently deployed in the U.S.) 
        and modular pumped storage, and validate the transmission and 
        grid benefits of such projects.
  --MHK--Commercialization of technologies to harness these resources 
        require Federal funding to augment research and development 
        efforts already underway. The nascent marine energy today is in 
        a position similar to wind and solar 1 to 2 decades ago, where 
        support is needed to develop promising technologies on the 
        verge of commercial viability. Early funding support, along 
        with development of full-scale device testing centers (still 
        unavailable here in the U.S.), are taking place in Europe and 
        elsewhere, with the U.S. falling behind in the deployment of 
        these technologies.
Additional Initiatives
  --EPAct 2005 Section 242 hydropower production incentive--In the 
        fiscal year 2014 omnibus appropriations bill, report language 
        included $3.6 million in funding for this incentive designed to 
        help bring down costs that in turn can determine the viability 
        of a given project. NHA supports continued funding for the 
        program, which DOE is currently in the process of implementing. 
        With the uncertainty of the extension of the production tax 
        credit (PTC) and investment tax credit (ITC), certainty with 
        the Section 242 program will not only help hydropower 
        developers overcome cost barriers, but the commitment to this 
        program will also assist the electric power industry in making 
        important contributions to air quality and renewable energy 
        supply goals.
  --Funding support for hydropower development at Federal facilities--
        NHA also urges the Committee to direct support to the Army 
        Corps of Engineers Civil Works and the Bureau of Reclamation 
        efforts to operate, maintain, and upgrade their existing 
        hydropower projects, as well as to build on their existing non-
        powered infrastructure.\7\
---------------------------------------------------------------------------
    \7\ Recent Federal studies show that thousands of megawatts of new 
capacity exist at non-powered dams owned or operated by the Corps and 
significant growth potential at existing Bureau dams, canals and 
conduits.
---------------------------------------------------------------------------
Conclusion
    NHA urges Congress to adopt $90 million for the DOE Water Power 
Program and to adequately fund the hydropower programs of the Corps of 
Engineers and the Bureau of Reclamation.
    These investments will increase not only the amount of clean, 
renewable hydropower generation, but also the grid services needed to 
expand the use of intermittent, variable energy resources as well. NHA 
further directs the Committee to the DOE Water Power Program's 
Hydropower and MHK reports covering activities from fiscal year 2008 
through fiscal year 2014.
    These reports highlight in detail the successful initiatives, 
programs and awards funded through the Program to improve technology 
performance, lower costs and deploy new and innovative technologies.\8\
---------------------------------------------------------------------------
    \8\ See http://energy.gov/sites/prod/files/2014/04/f14/CH-
4.4.14.pdf for Hydropower and also see http://energy.gov/sites/prod/
files/2014/04/f14/MHK%20FNAL.pdf for MHK.

    [This statement was submitted by Jeffrey Leahey, Deputy Executive 
Director, National Hydropower Association .]
                                 ______
                                 
 Prepared Statement of the National Research Center for Coal and Energy
    Chairwoman Feinstein and Ranking Member Alexander: Thank you for 
the opportunity to offer testimony in support of a robust program of 
research and development for the Office of Fossil Energy for fiscal 
year 2015.
    Numerous studies have confirmed that fossil energy will be a 
mainstay of the energy supply for both the United States and globally 
for at least the next several decades. We will of necessity continue to 
rely on coal in the near term even though concerns have been raised 
about the global climate change effects of carbon emissions resulting 
from the use of fossil fuels. These concerns can be mitigated by 
deploying advanced coal technologies made available through strategic 
investments by our Nation in our own future, and by the efforts of many 
other nations working collaboratively on our global future.
    Table 1 summarizes our recommendations. Comments in support of 
these recommendations are provided in the remainder of this testimony.

 TABLE 1.--FUNDING RECOMMENDATIONS FOR FOSSIL ENERGY R&D APPROPRIATIONS
                          FOR FISCAL YEAR 2015
                          [Dollars in millions]
------------------------------------------------------------------------
           Line item              Request    Recommendation    Subtotal
------------------------------------------------------------------------
    CCS Demonstration.........           25              25  ...........
    Carbon Capture............           77             130  ...........
    Carbon Storage............           80             110  ...........
    Advanced Energy Systems...           51             115  ...........
    Cross-Cutting Research....           35              89  ...........
    NETL Coal R & D...........           34              37  ...........
Coal R&D Program..............  ...........  ..............          506
    Oil/Unconventional Fossil             0              32  ...........
     Energy...................
    Natural Gas Technologies..           35              68  ...........
Oil and Natural Gas Programs..  ...........  ..............          100
    Program Direction.........          114             134  ...........
    Plant and Capital                    16              17  ...........
     Equipment................
    Environmental Restoration.            8              11  ...........
Other Programs................  ...........  ..............          162
                               -----------------------------------------
      Total...................          475             768  ...........
------------------------------------------------------------------------

                             coal programs
Carbon Management Programs
    Capturing carbon dioxide from combustion and other coal conversion 
processes is the first step in successfully managing our carbon 
emissions. Funding is needed for demonstrating promising technologies 
at the pilot plant and commercial scales to prove out economically 
viable designs. Additional research is needed for developing 
transformational technologies that will be more efficient and less 
costly than currently available technologies. Funding at a level of 
$130 million is recommended for the Carbon Capture program.
    Carbon Storage programs are being undertaken by the Regional Carbon 
Sequestration Partnerships. Additional focus is needed for off-shore 
applications. Given the magnitude of carbon emissions from power 
generation facilities, increased emphasis is required for 
characterizing, monitoring, and demonstrating storage in saline 
aquifers to absorb the CO2 generated. Funding for the Carbon Storage 
program is recommended at a level of $110 million.
    We recommend funding at the requested level of $25 million for the 
CCS Demonstration program that focuses on developing technologies for 
capturing carbon emissions from natural gas power generation 
facilities. Lessons learned from these programs will also contribute to 
technology development for application to coal-based systems.
Advanced Energy Systems
    The Advanced Energy Systems program is comprised of a number of 
advanced technology areas. Funding for the overall program is 
recommended at a level of $115 million. Restoration of the program for 
Coal & Coal Biomass to Liquids is recommended at $5 million to continue 
work in this area to reduce carbon emissions. Funding increases over 
the Request are recommended for Advanced Combustion (+$10 million to 
$25 million) and Gasification (+$18 million to $40 million). An 
increase of $9 million over the Request is recommended for Hydrogen 
Turbines to a level of $20 million to focus on increasing combined 
cycle efficiencies for both coal-derived and natural gas fuels, along 
with continuing work on supercritical CO2 cycles. Within our 
recommendation, funding should be provided to restore the fuel cells 
program and to support work on design studies for large pilot plants, 
emissions control, and advanced cycles.
Cross-Cutting Research
    Support for the Cross-Cutting Research program is recommended at a 
level of $89 million. Funding for Coal Utilization Science should be 
allocated at $10 million each for Computational Systems Dynamics 
(subsurface studies) and for the Computational Energy Science Focus 
Area (carbon capture studies). The University Coal Research program is 
the only program marked for the support of university research. Funding 
is recommended at $5 million to hasten the development of newer, less 
costly technologies and also to provide funding for developing our 
workforce of future coal scientists. Plant Optimization Technologies 
should be supported at a level of $32 million, including $10 million to 
continue the Water Management R&D initiated in fiscal year 2014, $14 
million for a COMTEST facility for advanced materials development, $6 
million for Sensors and Controls, and $2 million for Cross-cutting 
Materials R&D.
    Within our recommendation, the Rare Earths initiative started in 
fiscal year 2014 should be continued at $15 million and funding of $14 
million is proposed for ``breakthrough'' technology development 
programs that show promise of rapid commercial deployment.
NETL Coal Research & Development
    Funding for Federal personnel in the in-house NETL Coal R&D program 
is recommended at $37 million. Historically, this funding was allocated 
as part of the Program Development account. We recommend that funding 
for the NETL Coal R&D personnel be reinstated as part of the Program 
Development account.
                      oil and natural gas programs
    The focus of the oil and natural gas programs is on the 
environmentally friendly extraction and production of these fuels from 
on-shore and off-shore environments using conventional and 
unconventional technologies. Additional research is needed to ensure 
that our production technologies recover more of these precious 
resources and reduce the amount of oil/gas left behind in depleted 
reservoirs.
    Restoration of the Oil/Unconventional Fossil Energy program is 
recommended at $32 million. This funding will enable continuation of 
the previous EPACT programs in addressing safety in offshore 
environments such as deepwater and arctic production sites, and for the 
environmentally friendly development of onshore resources. Current 
estimates are that we recover only 5 percent--8 percent of the oil 
available in fields such as the Bakken shale. Research in enhanced oil 
recovery (EOR) would enable the production of more of these resources 
as are recovered in conventional oil fields.
    Increased funding is recommended for Natural Gas Technologies, to a 
level of $68 million. Funding would include support for resource 
conservation and efficient production in shale fields, gas hydrates, 
and work required under the multi-agency MOU to address the development 
of our abundant shale gas resources. Research in the use of alternative 
fracking fluids would reduce the stress placed on our water supplies, 
especially in areas like Texas that have water shortages. Increased 
funding for Natural Gas Technologies is needed to continue to fruition 
the long-term advanced research projects initiated to address 
environmental concerns related to ground water protection, fugitive 
emissions, and the physical integrity of components in the extraction 
and transportation sectors related to natural gas.
    The United States has benefited from previous research pioneered at 
the National Energy Technology Laboratory that developed technologies 
such as directional drilling and well completion techniques. As a 
result, our Nation anticipates having plentiful supplies of natural gas 
that provides energy for home heating, power generation, and the 
production of high-value chemicals and liquid transportation fuels. We 
recommend that Congress authorize funding for research on new ways to 
use natural gas in chemicals and other value-added manufacturing and in 
the transportation sector either as fuel directly or as feedstock for 
liquid fuels production. Advanced programs in these areas would ensure 
energy independence through lower cost supplies and would promote 
economic development through the creation of new jobs.
                other programs in fossil energy account
    Funding for Program Direction is recommended at a level of $134 
million. Increased funding is necessary to offset previous reductions 
in the level of staffing of both Federal and contractor employees which 
impacts the ability of the Office of Fossil Energy undertake enhanced 
energy initiatives. If the Subcommittee supports our recommendation of 
including the NETL Coal R&D funding in the Program Direction account, 
this line item should be funded at a level of $171 million. A total of 
$17 million is recommended for the Plant and Capital Equipment account 
and $11 million is recommended for Environmental Restoration.
    Thank you for the opportunity to offer recommendations regarding 
the Fossil Energy program.

    [This statement was submitted by Richard A. Bajura, Director, 
National Research Center for Coal and Energy.]
                                 ______
                                 
       Prepared Statement of the Officer Nuclear Energy Institute
    The Nuclear Energy Institute \1\ (NEI) appreciates the opportunity 
to provide testimony on DOE and NRC programs to the House 
Appropriations Subcommittee on Energy and Water Development.
---------------------------------------------------------------------------
    \1\ NEI is responsible for establishing nuclear industry policy on 
matters affecting the nuclear energy industry, including regulatory, 
financial, technical and legislative issues. NEI members include all 
companies licensed to operate commercial nuclear power plants in the 
United States, nuclear plant designers, engineering/construction firms, 
fuel facilities, and other organizations and individuals involved in 
the nuclear energy industry.
---------------------------------------------------------------------------
    In general, NEI believes the Federal Government should have an 
efficient and cost-conscious regulator and a robust, results-focused 
nuclear energy research and development program.
    In fiscal year 2015, the NRC needs to significantly improve the 
efficiency and transparency of its regulatory processes consistent with 
its own principles of good regulation. Regulatory activities and 
rulemakings need to be prioritized based on these principles, which 
will result in the deferral or cessation of numerous activities and 
rulemakings. Importantly, the NRC's resources and staff levels should 
be reduced concordant to the reduction in the number of operating 
reactors and material licensees from fiscal year 2014.
    In regard to R&D, DOE should focus on (1) developing technologies 
and other solutions that can improve the reliability, sustain the 
safety, and extend the life of current reactors; (2) developing small 
modular reactors and new reactor designs that will enable nuclear 
energy to help meet the Nation's energy and environmental goals; (3) 
developing a sustainable used fuel management program; and (4) 
minimizing the risks of nuclear proliferation.
    Specifically, the nuclear energy industry:
  --Supports a robust and sustainable strategy for used nuclear fuel 
        management;
  --Recommends adequate funding for the DOE and NRC to complete the 
        licensing of the proposed Yucca Mountain repository;
  --Opposes reinstating a tax on nuclear power plant operators to pay 
        the cost of decontaminating and decommissioning the Federal 
        Government's uranium enrichment plants;
  --Recommends a reduction from the request for the NRC budget to be 
        implemented by freezing its budget and licensee fees at the 
        fiscal year 2013 level;
  --Supports funding for the DOE Office of Nuclear Energy, including 
        the small modular reactor program;
  --Supports completion of the Mixed Oxide (MOX) Fuel Facility;
  --Supports the timely and efficient cleanup of all DOE defense-
        related facilities;
  --Supports the loan guarantee program for clean energy technologies, 
        including advanced nuclear power plants, and:
  --Opposes the termination of the Integrated University Program at DOE 
        and NRC.
Used Nuclear Fuel Management
    NEI continues to support the recommendations of the Blue Ribbon 
Commission on America's Nuclear Future (BRC). Specifically, the 
industry supports comprehensive reform for the Federal program with the 
establishment of a new organization dedicated solely to implementing 
the nuclear waste management program and empowered with the authority 
and resources to succeed. This new management entity should have direct 
access to future revenues from Nuclear Waste Fees and access to the 
balance of the Nuclear Waste Fund. The entity should pursue one or more 
consolidated storage facilities for used nuclear fuel while making 
substantial progress toward developing a repository for fuel disposal. 
Recognizing that comprehensive reform is unlikely this year, NEI 
requests inclusion of the following proposals for incremental 
advancement of the Federal program:
  --Fund and direct DOE to design and certify a rail car or cars for 
        use with licensed and anticipated transportation casks.
  --Fund DOE to perform an analysis of the current state of the Yucca 
        Mountain project including the status of land withdrawals, 
        water rights, and other necessary permits and approvals that 
        are required before both the construction authorization is 
        granted and construction begins.
  --Fund DOE to design a consolidated storage facility for all used 
        fuel and greater-than-class-c waste from decommissioned sites 
        without an operating reactor.
  --Fund DOE to define a process for siting a consolidated storage 
        facility using a consent-based siting process and to execute 
        the first phase of this process which must be an educational 
        phase.
    Delays in the government program to manage and dispose of used fuel 
have resulted in extended use of dry cask storage systems at commercial 
nuclear reactor sites. The DOE's high-burnup used fuel dry storage 
demonstration effort will provide technical data to support the 
continued dry storage of high-burnup used fuel as well as its eventual 
transportation to a repository or consolidated storage facility. The 
industry fully supports this important project, and NEI further 
recommends that DOE be funded to develop the capability to open a 
commercial dry transportation cask for detailed fuel examination in a 
hot cell facility. Such a facility will support DOE's ongoing effort by 
providing vital data that cannot otherwise be obtained and become a 
valuable part of the country's R&D infrastructure.
    Consistent with current law, The Nuclear Waste Policy Act (NWPA), 
Congress should provide sufficient funds to the Department of Energy 
and the Nuclear Regulatory Commission to complete the licensing of the 
proposed Yucca Mountain repository.
Uranium Enrichment D&D Tax
    NEI strongly opposes any plan to reinstate the uranium enrichment 
decontamination and decommissioning tax. Neither the consumers nor the 
generators should be forced to bear the additional financial stress of 
this unwarranted tax. Despite its negative impact, the Obama 
administration continues to propose reinstatement of this tax as a 
means of raising revenue. The three uranium enrichment plants in 
question operated for 25 years as defense facilities and were 
irretrievably contaminated long before any sales of enrichment services 
to the commercial industry. The industry has twice paid its share of 
the funds necessary to clean-up these facilities--first, payment was 
received as part of the price for DOE uranium enrichment services from 
the facilities, and again under the Energy Policy Act of 1992. Under 
the 1992 law, the tax on electric utilities was to end after 15 years 
or the collection of $2.25 billion, adjusted for inflation. The 
industry paid this amount in full. The industry appreciates the support 
of the subcommittee in previous years to reject this proposal and again 
encourages members to continue to oppose this unjust tax on consumers.
Nuclear Regulatory Commission
    The level of specificity provided in the NRC budget justifications 
has declined in recent years making detailed analysis and 
recommendations difficult. However, it appears the budget request would 
provide funding for the NRC to continue approximately 53 high priority 
and three medium priority rulemakings currently underway. All other 
rulemakings are left in a state of limbo: neither important enough (nor 
presumably sufficiently safety-related) to proceed, nor deferred or 
canceled. The industry encourages the committee to direct the 
Commission to prioritize and conclude regulatory matters and more 
effectively manage its internal processes.
    While the number of operating reactors and materials licensees has 
declined, the NRC budget, staff, and fees billed to licensees are again 
proposed to increase; with hourly rates for NRC staff proposed to 
exceed the $272/hour charged in 2013 and fees proposed to increase in 
excess of 20 percent. To begin to realign the NRC with its own 
principles of good regulation, the industry recommends the NRC budget 
be frozen at the fiscal year 2013 level as detailed in the Commission's 
final fee rule for fiscal year 2013 pursuant to 10 CFR Parts 170 and 
171 that provided for total budget authority of $985.6 million with the 
collection of $864.0 million in off-setting receipts collected via fees 
on licensees. Such a reduction from the fiscal year 2015 request would 
require the NRC to reallocate resources from its proposed level of 
funding, and the industry would support language directing that such a 
reallocation be done in a manner that is transparent to all 
stakeholders.
Small Modular Reactors
    NEI and the industry strongly support the Small Modular Reactors 
(SMRs) program and believe that this program should continue to be 
funded and is instrumental in the eventual deployment of SMR's in the 
United States and internationally. The program is off to a promising 
start. To date, B&W's Generation mPower joint venture has invested $400 
million in developing its mPower design; NuScale approximately $200 
million in its design. These companies have made those investments 
knowing they will not see revenue for approximately 10 years. That is 
laudable for a private company, but, in order to prepare SMRs for early 
deployment in the United States and to ensure U.S. leadership 
worldwide, an investment by the Federal Government as a cost-sharing 
partner is both necessary and prudent.
    Developing this technology now will help U.S. companies claim a 
large portion of the international market when the demand for smaller, 
more grid-appropriate, carbon-free energy sources materializes. In the 
United States, despite the very slow growth in electricity demand, the 
electricity generation sector is undergoing significant changes: the 
expansion of wind, solar, and natural gas generation; the reduction of 
coal; market structure challenges; and new EPA regulations. With all of 
the changes that are occurring, a role for zero carbon emission SMR 
nuclear generation capacity in future electricity generation portfolios 
is guaranteed as a complement to new, large, advanced, light-water 
reactors. Given the benefits to domestic job creation, export value and 
domestic clean electricity supply, the development of SMR technology 
today is an investment in tomorrow. It is an investment that will see 
dividends around 2022-25 when the utilities begin deploying more 
generation capacity and they start replacing older generation capacity. 
The subcommittee should ensure that this program is provided sufficient 
funds and certainty in funding--at a minimum the $452 million, 6-year 
program currently proposed by DOE. Doing so will help ensure the energy 
future of the United States and the international competitiveness of 
the domestic industry.
Advanced Reactor and Fuel Cycle Technologies
    NEI supports programs managed by DOE's Office of Nuclear Energy 
that seek to accelerate commercial deployment of new reactor 
technologies, sustain safe operation of the reactors that provide one-
fifth of America's electricity and two-thirds of our Nation's emission-
free electricity, and develop advanced fuel cycles to manage used 
nuclear fuel. NEI also continues to support DOE and NRC funding of the 
Integrated University Program, which provides important nuclear science 
and engineering research and workforce training at America's 
universities and community colleges. NEI hopes the subcommittee will 
maintain the funding level in fiscal year 2015--at $5 million for DOE 
and $15 million for NRC to continue this program.
Completion of the MOX Fuel Facility
    NEI supports completion of the MOX fuel fabrication facility (MFFF) 
at the Savannah River Site in South Carolina. Construction of the MOX 
facility is 60 percent complete, employs 1,800 people directly and 
utilizes more than 4,000 American contractors and suppliers in 43 
States. Under the Plutonium Management Disposition Agreement, the 
United States committed to transform 34 metric tons of U.S. weapons-
grade plutonium (enough plutonium for 17,000 nuclear weapons) into 
nuclear fuel for civilian power reactors. The MFFF is a key component 
to achieving this critical, national security mission. We are concerned 
that reducing funding for the MOX project or placing it in ``cold 
stand-by,'' as the administration proposes, could be viewed as a 
retreat from our international commitments.
    To cancel, suspend or simply reduce funding for the project will, 
validate those critics of the government and DOE who claim it simply 
cannot complete complex projects, particularly those concerning nuclear 
materials disposition. To help control costs, we have encouraged DOE to 
develop a project completion optimization plan that identifies the 
optimum annual funding level through completion. NEI views the MOX 
project as an investment in the Nation's future. The facility, once 
operational, will operate for more than a decade to complete its 
original mission. During that time, additional missions for the 
facility will likely be found and may include the transformation of 
additional U.S. weapons-grade plutonium, a worthy nonproliferation and 
disarmament goal.

    [This statement was submitted by Marvin S. Fertel, President and 
Chief Executive Officer, Nuclear Energy Institute.]
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the Department of Energy (DOE) Office of 
Science in fiscal year 2015 at the highest possible funding level. In 
particular, we urge you to provide robust support for the Applied 
Mathematics Program within the Office of Advanced Scientific Computing 
Research (ASCR) within the Office of Science. We also emphasize the 
importance of support for graduate students through the Computational 
Sciences Graduate Fellowship.
Written Testimony
    We are Dr. Irene Fonseca, President, and Dr. David Levermore, Vice 
President for Science Policy, of the Society for Industrial and Applied 
Mathematics (SIAM). On behalf of SIAM, we are submitting this written 
testimony for the record to the Subcommittee on Energy and Water 
Development of the Committee on Appropriations of the U.S. Senate.
    SIAM has approximately 14,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 500 institutional members--colleges, universities, 
corporations, and research organizations. SIAM members come from many 
different disciplines, but have a common interest in applying 
mathematics in partnership with computational science towards solving 
real-world problems.
    First, we would like to emphasize how much SIAM appreciates your 
Committee's continued leadership on and recognition of the critical 
role of the Department of Energy (DOE) Office of Science and its 
support for mathematics, science, and engineering in enabling a strong 
U.S. economy, workforce, and society. DOE was one of the first Federal 
agencies to champion computational science as one of the three pillars 
of science, along with theory and experiment, and SIAM deeply 
appreciates and values DOE activities.
    Today, we submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2015 and beyond. In 
particular, we request that you provide the Office of Science with the 
highest possible funding level for fiscal year 2015. SIAM recognizes 
the challenging fiscal situation; however, we also face an ``innovation 
deficit,'' the widening gap between the actual level of Federal 
government funding for research and what the investment needs to be if 
the U.S. is to remain the world's innovation leader. Federal 
investments in mathematics, science, and engineering remain crucial as 
they power innovation and economic growth upon which our economy and 
fiscal health depend.
The Role of Mathematics in Meeting Energy Challenges
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources.
    To tackle many of these challenges, DOE must be able to understand 
complex systems such as the U.S. power grid, the dispersion of nuclear 
radiation after a disaster, and the Earth's climate system. These and 
other complex systems have high levels of uncertainty, lack master 
plans, and are susceptible to breakdowns that could have catastrophic 
consequences. Understanding complex systems helps mitigate these risks 
and facilitate the development of controls and strategies to make 
systems more efficient.
    Applied mathematics and computational science play a key role in 
predictive modeling and analysis to understand complex systems. 
Already, mathematical and computing researchers using these tools have 
made substantial progress improving our understanding across fields 
such as genomics, biofuels, materials fabrication, and nuclear 
security. Extreme-scale computing, or exascale, will allow predictive 
modeling and simulation of complex systems far more comprehensively and 
accurately than is possible today. While achieving exascale computing 
has the potential to allow for revolutionary advances in many fields 
critical to solving our energy challenges, getting to exascale and 
realizing its benefits requires overcoming significant computing 
challenges, including in applied mathematics.
Department of Energy Office of Science
    Activities within the Office of Advanced Scientific Computing 
Research (ASCR) play a key role in supporting research that begins to 
fulfill the needs described above. Particularly critical programs 
include: the Applied Mathematics program, the Scientific Discovery 
through Advanced Computing (SciDAC) program, and programs to maintain 
the pipeline of the mathematical workforce. For fiscal year 2015, we 
ask that you provide the President's budget request of $541 million for 
ASCR.
    SIAM supports ASCR's new all-in approach on research to develop 
exascale computing, noting that investments in mathematical modeling, 
algorithm research, and software development are essential to realizing 
the full benefits of this next generation of high performance computers 
and to transferring their capabilities to industry for broad economic 
benefit.
    SIAM also supports Office of Science plans to fund research to 
manage ever-growing data volumes in science. The explosion in data 
available to scientists from advances in experimental equipment, 
simulation techniques, and computer power is well known, and applied 
mathematics has an important role to play in developing the methods and 
tools to translate this shower of numbers into new knowledge.
    In addition to the critical research within ASCR, SIAM endorses the 
proposed effort within the Office of Basic Energy Sciences (BES) to 
support computational materials research. This initiative will bring 
together computational approaches with experimental research to improve 
our ability to design new materials with key properties for energy 
uses.
Supporting the Pipeline of Mathematicians and Scientists
    SIAM is grateful to Congress for restoring funding to the 
Computational Sciences Graduate Fellowships (CSGF) in fiscal year 2014 
and is disappointed that the Administration has again proposed to end 
this critical program that maintains the pipeline of the mathematical 
workforce. Researchers trained in computational science and working in 
universities, national laboratories, and industry are central to DOE's 
mission and essential to propel advances in DOE mission-critical fields 
such as nanotechnology, biofuels, genomics, and materials fabrication. 
CSGF helps ensure the existence of an adequate supply of scientists and 
engineers with strong computational research experience and close 
ongoing ties to DOE to meet future national workforce needs. We urge 
Congress to restore CSGF to its fiscal year 2014 funding level of $8.7 
million in fiscal year 2015.
    The CSGF has a long history of success at DOE. Connections to the 
national labs are integral to CSGF's success, as fellows train at DOE 
national labs and program requirements are closely tied to DOE mission 
needs. A 2011 Committee of Visitors (COV) report \1\ evaluating CSGF 
found that the program has been highly successful at producing alumni 
with strong computational research experience and close ongoing ties to 
DOE. CSGF is a valuable program and a unique source of talent in the 
area of computational science where high performance computing is 
applied to challenging and important science and engineering problems.
---------------------------------------------------------------------------
    \1\ http://science.energy.gov//media/ascr/ascac/pdf/reports/
ASCAC_CSGF_Report_2011-Final.pdf
---------------------------------------------------------------------------
Conclusion
    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency to ensure energy independence 
and facilitate DOE's effort to increase U.S. competitiveness by 
training and attracting the best scientific talent into DOE 
headquarters and laboratories, the American research enterprise, and 
the clean energy economy.
    We would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the U.S. The DOE Office of Science needs sustained annual 
funding to maintain our competitive edge in science and technology, and 
therefore we respectfully ask that you continue your support of these 
critical programs.
    We appreciate the opportunity to provide testimony to the Committee 
on behalf of SIAM and look forward to providing any additional 
information or assistance you may ask of us during the fiscal year 2015 
appropriations process.
                                 ______
                                 
      Prepared Statement of the State Teachers' Retirement System
_______________________________________________________________________

    Department of Energy--Elk Hills School Lands Fund
    (Budget Account No. 89-5428-0-2-271):
    $15,579,815 for fiscal year 2015--Final Installment of Elk Hills 
Compensation
_______________________________________________________________________

     Congress Should Appropriate the Funds Necessary to Fulfill the 
Federal Government's Settlement Obligation to Pay Compensation for the 
State of California's Interest in the Elk Hills Naval Petroleum Reserve
_______________________________________________________________________
                                summary
  --Acting pursuant to Congressional mandate, and in order to maximize 
        the revenues for the Federal taxpayer from the sale of the Elk 
        Hills Naval Petroleum Reserve to private industry by removing 
        the cloud of the State of California's claims, the Federal 
        Government reached a settlement with the State in advance of 
        the sale.
  --The State waived its rights to the Reserve in exchange for fair 
        compensation in installments stretched out over an extended 
        period of time.
  --In its fiscal year 2015 Budget, the Administration has requested 
        the appropriation of $15,579,815 for the final installment of 
        Elk Hills compensation to fulfill the Federal Government's 
        obligations to the State under the Settlement Agreement. The 
        State respectfully requests the appropriation by Congress of 
        $15,579,815 of the final Elk Hills compensation payment due to 
        the State.
Background
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.
State's Claims Settled, as Congress Had Directed
    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California. . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec.  3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)
    Over the year that followed enactment of the Defense Authorization 
Act mandating the sale of Elk Hills, the Federal Government and the 
State engaged in vigorous and extended negotiations over a possible 
settlement. Finally, on October 10, 1996 a settlement was reached, and 
a written Settlement Agreement was entered into between the United 
States and the State, signed by the Secretary of Energy and the 
Governor of California, under which the State would receive 9 percent 
of the sales proceeds in annual installments over an extended period.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.
Federal Revenues Maximized by Removing Cloud of State's Claim in 
        Advance of the Sale
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale. The Reserve thereafter was sold for a winning bid of $3.53 
billion in cash, a sales price that substantially exceeded earlier 
estimates.
Congress Should Appropriate $15,579,815 for fiscal year 2015 for the 
        Final Installment of Elk Hills Compensation Due to the State
    The State's 9 percent share of the adjusted Elk Hills sales price 
of $3.53 billion is $315,099,815 (after deducting the State's share of 
the sales expenses). As Congress had directed in the 1996 Act that 
mandated the sale of Elk Hills, 9 percent of the net proceeds were 
reserved in a contingent fund in the Treasury for payment to the State. 
To date, Congress has appropriated seven installments of $36 million 
and one installment of $48 million that was reduced to $47.52 million 
by the 1 percent across-the-board rescission under the fiscal year 2006 
Defense Appropriations Act, for total appropriations to date of $299.52 
million of Elk Hills compensation owed to the State.
    The Administration's Budget for fiscal year 2015 requests the 
appropriation of $15,579,815 for the Elk Hills School Lands Fund to pay 
the final installment of Elk Hills compensation due to the State. 
(Budget of the United States Government, fiscal year 2015--Appendix, at 
p. 406, Account No. 89-5428-0-2-271). Thus, the provision for Elk Hills 
compensation is a line item in the Federal budget; it is not an 
earmark.
    The State respectfully requests the appropriation by Congress of 
$15,579,815 to fulfill the Federal Government's obligation to the State 
under the Settlement Agreement.
                                 ______
                                 
   Prepared Statement of the Universities Research Association, Inc.
    Chairman Feinstein, Ranking Member Alexander, members of the 
Committee, on behalf of Universities Research Association, Inc. (URA), 
I appreciate this opportunity to comment on the upcoming fiscal year 
2015 budget for the Department of Energy (DOE). URA is a non-profit 
organization comprised of 88 of the Nation's premier research 
universities. Through the Fermi Research Alliance, LLC (FRA), URA with 
the University of Chicago, are the DOE contractor for the management 
and operation of the Fermi National Accelerator Laboratory (Fermilab).
    I write to express deep concern for the future of fundamental 
research in the physical sciences in light of the continuing decline in 
Federal investments in this area, most conspicuously in high energy and 
particle physics research. Scientific research is critical to 
innovation and forms the foundation for job creation, economic growth, 
and global competitiveness. Studies have demonstrated unequivocally 
double-digit percent returns on the Nation's investments in fundamental 
discovery research. Once the unquestioned leader across all fields of 
research, with an unmatched record of achievement in basic research in 
the physical sciences, the U.S. now faces significant competition from 
other countries, like China, that fully understand the connection 
between science and technology and economic growth.
    URA appreciates and supports the President's commitment to fund the 
DOE Office of Science at $5.1 billion annually, with needed increases 
for nuclear physics and basic energy sciences. But URA again expresses 
its concern over the President's recommendation for the High Energy 
Physics (HEP) program and other elements of the Nation's basic research 
portfolio. Investment in high energy and particle physics in particular 
has been in decline over the past several years, even while the overall 
budget of the Office of Science and of DOE more generally has grown. 
The President's proposed allocation of these funds has resulted in an 
imbalance in the portfolio of basic research that underpins the 
missions of the DOE and innovation.
    The HEP program, as an example, already proposed for reductions in 
funding over the past several years, is slated for a $52 million cut 
(6.6 percent) in fiscal year 2015, with $41 million of this cut applied 
to Fermilab in Illinois, the Nation's only remaining national 
laboratory devoted to High Energy Physics research. Over the past 4 
years, Fermilab's staff has been reduced by over 200 FTEs (11 percent) 
in response to such funding cuts, in an attempt to maintain investment 
in facilities vital to future experiments and the health of the 
enterprise.
    HEP is the only field within the DOE Office of Science to have 
already consolidated its portfolio and closed projects early (e.g. the 
B-Factory at Stanford University). It shut down Fermilab's Tevatron 
collider in September 2011, despite overwhelming support of the HEP 
community, including several Nobel Laureates, to continue its highly 
successful operations for three additional years. Nevertheless, after 
intensive and careful planning and prioritizing, Fermilab is now fully 
ready to begin new experiments that will establish the United States as 
the world leader in the study of neutrinos, a key research area to 
enable a better understanding of the Standard Model of Particle Physics 
and how the universe began.
    Fermilab and the US HEP community were critical for the discovery 
of the Higgs Boson at the Large Hadron Collider at CERN and honored by 
the 2013 Nobel Prize in physics. The current budget reduction is 
proposed at a time when, to ensure that it continue to be among the 
world's leaders in global research and discovery, the United States 
should be reinvesting in High Energy Physics and Fermilab, as opposed 
to losing ground. This moment in time is pivotal for the maintenance of 
a US leadership role in HEP in the future, particularly in the area of 
neutrino research and support for the Long Baseline Neutrino Experiment 
(LBNE). Notably, the US High Energy Physics community is completing its 
next long term plan (``P-5''), scheduled to be delivered to the DOE/NSF 
High Energy Physics Advisory Committee (HEPAP) by end of May.
    The guidance from DOE and NSF to Fermilab, vital to the US HEP 
effort, was to work within a flat budget for the next 3 years in 
anticipation of modest, inflation adjusted growth thereafter. A key 
aspect of this strategy, to ensure the viability of LBNE, is the 
attraction of international partnerships to support LBNE and other 
experiments at Fermilab and to develop future accelerator technology 
and infrastructure. LBNE, structured in phases, will be Fermilab's 
flagship experiment for the next 20 years and the foremost neutrino 
facility in the world. There is strong interest from the European 
scientific community, including CERN, the United Kingdom, and Italy, as 
well as India and Brazil to collaborate on this project and contribute 
funding to it. However, consolidation of these partnerships requires 
reliable US momentum and commitment. Should the President's proposed 
budget for HEP be enacted, the expertise of the LBNE team and momentum 
on the project would be lost.
    HEP has blazed the path of international cooperation on large 
scientific projects with scientists collaborating on the planning, 
design, construction, and operation of facilities all over the world. 
The field of HEP, more than any other, has demonstrated and preserved 
through the years its ability to organize and execute highly technical 
and demanding, first-of-a-kind, large engineering and construction 
projects. Maintaining U.S. capability to carry out such large projects 
is itself in the Nation's vital interest.
    The field hosts thousands of researchers each year at its various 
experiments, and serves as a premier training ground for American 
university students to develop the next generation of scientists, 
engineers, and technicians to carry out discovery science and 
innovation. Moreover, HEP, and Fermilab in particular, have long 
reached out to K-12 students to engage their interest in the STEM 
(science, technology, engineering, and mathematics) fields, which are 
so important to the future economic competitiveness of the Nation. 
Europe, Japan, and China welcome U.S. researchers to their facilities, 
and for decades there has been a balanced international program with 
exceptional collaboration in this field, as characterized by thousands 
of foreign participants at Fermilab over the years.
    The America COMPETES Act, reauthorized by Congress in December 
2010, affirmed a bipartisan commitment to double the science budgets of 
DOE and NSF over the next 10 years. Funding for research in the 
physical sciences, in constant dollars, has been essentially flat since 
1989. We recognize the difficulty of the Nation's current budget 
situation. But the economic and employment growth needed to deal with 
it over the long term is not achievable without the sustained, long 
term support of the innovation and research in which the physical 
sciences play an essential role.
    As an organization representing 88 universities in partnership to 
operate and manage Fermilab, URA urges the Subcommittee to support 
funding for High Energy Physics as part of an overall balanced research 
program in the basic physical sciences within the Office of Science, 
and to sustain High Energy Physics and priority projects at Fermilab, 
including LBNE, at the current level of $796.5 million for fiscal year 
2015 as a key element of our country's investment in this core 
discipline of discovery science.
                         ura board of trustees

Lou Anna Simon, Executive Chair
President, Michigan State University

William H. Joyce, Vice Chair
Chairman and CEO (ret.), NALCO Company and Chairman and CEO, Advanced
  Fusion Systems

Norman R. Augustine, CEO (ret.), Lockheed Martin Corporation
Steven C. Beering, President Emeritus, Purdue University
Robert A. Brown, President, Boston University
Nance Dicciani, President and CEO (ret.), Honeywell Specialty Materials
Emanuel J. Fthenakis, Fairchild Industries (ret.)
John I. Jenkins, CSC, President, University of Notre Dame
Linda P.B. Katehi, Chancellor, University of California, Davis
Sally Mason, President, University of Iowa
Richard A. Meserve, President, Carnegie Institution for Science
Harris Pastides, President, University of South Carolina
William C. Powers, Jr., President, University of Texas at Austin
Joel Seligman, President, University of Rochester
Robert C. Skaggs, Jr., President and CEO, NiSource, Inc.
Joe B. Wyatt, Chancellor Emeritus, Vanderbilt University

Leon M. Lederman (Trustee Emeritus)
Illinois Math and Science Academy, and Director Emeritus of
Fermi National Accelerator Laboratory

Marta Cehelsky, Executive Director

    [This statement was submitted by Lou Anna K. Simon, Executive 
Chair, Board of Trustees, Universities Research Association, Inc.]

                       DEPARTMENT OF THE INTERIOR

                         BUREAU OF RECLAMATION

         Prepared Statement of the APS Four Corners Power Plant
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by David C. Bloomfield, Four Corners 
Site Plant Manager.]
                                 ______
                                 
         Prepared Statement of the BHP Billiton New Mexico Coal
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Marian L. Wimsatt, CPLTA, CPL, 
Land and Water/New Mexico Coal, Energy Coal.]
                                 ______
                                 
           Prepared Statement of the Central Arizona Project
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $17.3 million for the U.S. Bureau 
of Reclamation's Basinwide Program for the Colorado River Basin in the 
fiscal year 2015 Appropriation bill. Continued funding for the 
Basinwide Program, which supports salinity control projects, will help 
protect the water quality of the Colorado River that is used by 
approximately 40 million people for municipal and industrial purposes 
and used to irrigate approximately 4 million acres in the United 
States.
    CAWCD manages the Central Arizona Project, a multi-purpose water 
resource development and management project that delivers Colorado 
River water into central and southern Arizona. The largest supplier of 
renewable water in Arizona, CAP delivers an average of over 1.5 million 
acre-foot of Arizona's 2.8 million acre-foot Colorado River entitlement 
each year to municipal and industrial users, agricultural irrigation 
districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
Negative Impacts of Concentrated Salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. With the significant Federal ownership in the Basin, most of 
this comes from federally administered lands. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $295 million per year to U.S. 
users with projections that damages would increase to more than $500 
million by 2030 if the program were not to continue. These damages 
include:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and significant 
increases in economic damages to municipal, industrial and irrigation 
users.
History of the Colorado River Basin Salinity Control Program
    Recognizing the rapidly increasing salinity concentration in the 
Lower Colorado River and its impact on water users, Arizona joined with 
the other Colorado River Basin States in 1973 and organized the 
Colorado River Basin Salinity Control Forum (Forum). In 1974, in 
coordination with the Department of the Interior and the U.S. State 
Department, the Forum worked with Congress in the passage of the 
Colorado River Basin Salinity Control Act (Act) to offset increased 
damages caused by continued development and use of the waters of the 
Colorado River. Title I of the Salinity Control Act deals with the 
United States' commitment to the quality of water being delivered to 
Mexico. Title II of the Act deals with improving the quality of the 
water delivered to the U.S. users.
    In the early years of the Program, Reclamation implemented salinity 
control through large projects which were funded with specific line 
item amounts. In 1995, Congress amended the Act and created 
Reclamation's Basinwide Program. Under this program, Reclamation funds 
competitive proposals which will decrease the salt load to the Colorado 
River. Most of the received proposals target off-farm irrigation 
distribution systems such as canals and laterals. The lining or piping 
of canals and laterals prevents leakage into the groundwater and the 
dissolution and transportation of salts to the Colorado River and its 
tributaries. States provide a 30 percent cost share of the projects 
implemented by Reclamation.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5 year agreement, known as 
Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain salinity standards. The 
CAWCD and other key water providers are committed to meeting these 
goals.
Conclusion
    Implementation of salinity control practices through Reclamation's 
Basinwide Program has proven to be a very cost effective method of 
controlling the salinity of the Colorado River. In fact, the salt load 
of the Colorado River has now been reduced by roughly 1.2 million tons 
annually. However, shortfalls in recent Basinwide Program funding 
levels have led to inefficiencies in the implementation of the overall 
Program. The Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by Reclamation by 2030, or approximately 
20,000 tons of new control each year. Therefore, additional funding is 
required in 2015 to meet this goal and prevent further degradation of 
the quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    CAWCD urges the subcommittee to include $17.3 million for the U.S. 
Bureau of Reclamation's Basinwide Program for the Colorado River Basin 
in the fiscal year 2015 Appropriation bill. If adequate funds are not 
appropriated, significant damages from the higher salt concentrations 
in the water will be more widespread in the United States and Mexico.

    [This statement was submitted by David V. Modeer ,General 
Manager,Central Arizona Project.]
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Gene Shawcroft, P.E., Deputy 
General Manager.]
                                 ______
                                 
                Prepared Statement of the City of Aurora
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Marshall P. Brown, Director, 
Aurora Water.]
                                 ______
                                 
              Prepared Statement of the City of Farmington
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Robert Campbell, Assistant City 
Manager.]
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $295 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $523 million by the year 2030 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River. Reclamation serves as the lead 
Federal agency in implementing the Program. Reclamation primarily 
institutes salinity control through its Basinwide Program. Funding 
levels have fallen behind in recent years, and a funding level of $17.3 
million is required in 2015 to prevent further degradation of the 
quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned and administered. In 
implementing the Colorado River Basin Salinity Control Act (Act) in 
1974, Congress recognized that most of the salt load in the Colorado 
River originates from federally owned lands. Title I of the Salinity 
Control Act deals with the United States' commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. This 
testimony deals specifically with the Title II efforts.
    In the early years of the Program, Reclamation implemented salinity 
control through large projects which were funded with specific line 
item amounts. In 1995, Congress amended the Act and created 
Reclamation's Basinwide Program. Under this program, Reclamation funds 
competitive proposals which will decrease the salt load to the Colorado 
River. Most of the received proposals target off-farm irrigation 
distribution systems such as canals and laterals. The lining or piping 
of canals and laterals prevents leakage into the groundwater and the 
dissolution and transportation of salts to the Colorado River and its 
tributaries. It is more efficient for Reclamation to perform the off-
farm distribution system improvements prior to NRCS treating the on-
farm acres with salinity control practices (i.e., Reclamation should 
pipe a canal or lateral prior to NRCS putting a pressurized sprinkler 
system on farm). Shortfalls in recent Basinwide Program funding levels 
have led to inefficiencies in the implementation of the overall 
Program. The funding amounts identified above and in the graph below 
are required to get the Basinwide Program back on pace with the overall 
Program implementation needs.
    Concentration of salt in the Colorado River causes approximately 
$295 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by Reclamation by 2030, or approximately 
20,000 tons of new control each year. Based on current cost levels, 
Reclamation's funding under its Basinwide Program needs to be $17.3 
million in fiscal year 2015. The level of appropriation requested in 
this testimony is in keeping with the adopted Plan of Implementation. 
If adequate funds are not appropriated, significant damages from the 
higher salinity concentrations in the water will be more widespread in 
the United States and Mexico.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Shown in the above graph are the historic funding levels for 
Reclamation's Basinwide Program up through fiscal year 2014 and needed 
funding levels for fiscal year 2015 through 2030. The black bars show 
the appropriated amount and the green bars show the commensurate Basin 
States' cost share. Shown with the blue line is the initial target of 
salinity control while the red line shows the actual control up through 
fiscal year 2014 and the required control from fiscal year 2015 through 
fiscal year 2030.
    In summary, implementation of salinity control practices through 
Reclamation's Basinwide Program has proven to be a very cost effective 
method of controlling the salinity of the Colorado River and is an 
essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
within this program will prevent the water quality of the Colorado 
River from further degradation and significant increases in economic 
damages to municipal, industrial and irrigation users. A modest 
investment in source control pays huge dividends in improved drinking 
water quality to nearly 40 million Americans.

    [This statement was submitted by Don A. Barnett, Executive 
Director, Colorado River Basin Salinity Control Forum.]
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2015 funding for the 
Department of the Interior for Title II of the Colorado River Basin 
Salinity Control Act of 1974 (Act) (Public Law 93-320). In the Act, 
Congress designated the Department of the Interior, Bureau of 
Reclamation (Reclamation) to be the lead agency for salinity control in 
the Colorado River Basin. For nearly 29 years this very successful and 
cost-effective program has been carried out pursuant to the Act and the 
Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Board) is the State agency 
charged with protecting California's interests and rights in the water 
and power resources of the Colorado River system. In this capacity, 
California participates along with the other six Colorado River Basin 
States through the Colorado River Basin Salinity Control Forum (Forum), 
the interstate organization responsible for coordinating the Basin 
States' salinity control efforts. In close cooperation with the U. S. 
Environmental Protection Agency (EPA) and pursuant to requirements of 
the Clean Water Act, the Forum is charged with reviewing the Colorado 
River's water quality standards every 3 years. The Forum adopts a Plan 
of Implementation consistent with these water quality standards. The 
level of appropriation being supported by this testimony is consistent 
with the Forum's 2011 Plan of Implementation for continued salinity 
control efforts within the Colorado River Basin. The Forum's 2011 Plan 
of Implementation can be found on this website: http://
www.coloradoriversalinity.org/docs/2011%20REVIEW-October.pdf. If 
adequate funds are not appropriated to Reclamation's Basinwide Program, 
significant damages associated with increasing salinity concentrations 
of Colorado River water will become more widespread.
    The 2011 Plan of Implementation, as adopted by the States and 
approved by EPA, calls for 368,000 tons of additional salinity control 
measures to be implemented by Reclamation by 2030, or approximately 
20,000 tons of additional salinity control measures each year. Based on 
current program cost levels, Reclamation's funding under its Basinwide 
Program needs to be at least $17.3 million in fiscal year 2015. This 
level of appropriation requested in this testimony is in keeping with 
the adopted 2011 Plan of Implementation.
    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres of agricultural lands in the United 
States. Currently, the salinity concentration of Colorado River water 
causes about $295 million in quantifiable damages in the United States 
annually. Economic and hydrologic modeling by Reclamation indicates 
that the quantifiable damages could rise to more than $523 million by 
the year 2030 without the continuation of Basinwide salinity control 
measures as identified in the 2011 Plan of Implementation. Significant 
un-quantified damages also occur. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems in a 
coordinated fashion with the activities of the U.S. Department of 
Agriculture's (USDA) programs working with landowners to improve on-
farm irrigation systems. With the USDA's Environmental Quality 
Incentive Program (EQIP), more on-farm funds are available and it 
continues to be important to ensure that there are adequate Reclamation 
funds available to maximize Reclamation's effectiveness in addressing 
water delivery system improvements. Shortfalls in recent Basinwide 
Program funding have led to inefficiencies in the implementation of the 
overall salinity control program. The funding amount identified above, 
and in the graph below, are required to get the Basinwide Program back 
on pace with the implementation schedule identified in the 2011 Plan of 
Implementation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water pursuant to the 1944 Water Treaty with 
Mexico. In order for those commitments to be honored, it is essential 
that in fiscal year 2015, and in future fiscal years, that Congress 
provide funds to the Bureau of Reclamation for the continued operation 
of current projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Ventura, Los Angeles, San Bernardino, Orange, Riverside, San 
Diego, and Imperial counties. The protection and improvement of 
Colorado River water quality through an effective salinity control 
program will avoid the additional economic damages to users in 
California and the other States that rely on the Colorado River.

    [This statement was submitted by Tanya M. Trujillo, Executive 
Director, Colorado River Board of California.]
                                 ______
                                 
  Prepared Statement of the Colorado River Water Conservation District
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Eric Kuhn, General Manager.]
                                 ______
                                 
          Prepared Statement of the Colorado Springs Utilities
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Brett W. Gracely.]
                                 ______
                                 
                 Prepared Statement of the Denver Water
    Dear Chairman Feinstein and Senator Alexander: On behalf of Denver 
Water, I request your support for an appropriation for fiscal year 2015 
of $5,050,000 to the Bureau of Reclamation within the budget line item 
entitled ``Endangered Species Recovery Implementation Program'' for the 
Upper Colorado Region, consistent with the President's recommended 
budget. Substantial non-Federal cost-sharing funding is occurring 
pursuant to Public Law 106-392, as amended. This appropriation will 
allow continued funding in fiscal year 2015 for the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Basin 
Recovery Implementation Program as authorized by Public Law 106-392. 
These two successful ongoing cooperative partnership programs involve 
the States of Colorado, New Mexico, Utah and Wyoming, Indian tribes, 
Federal agencies and water, power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by James S. Lochhead, CEO/Manager.]
                                 ______
                                 
    Prepared Statement of the Grand Valley Water Users' Association
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Mark Harris, General Manager, 
Grand Valley Water Users' Association.]
                                 ______
                                 
Prepared Statement of the Irrigation & Electrical Districts Association 
                               of Arizona
    The Irrigation & Electrical Districts Association of Arizona (IEDA) 
is pleased to present written testimony regarding the fiscal year 2015 
proposed budgets for the Bureau of Reclamation (Reclamation) and the 
Western Area Power Administration (Western).
    IEDA is an Arizona nonprofit association whose 25 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from Western or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues in its 52th year to represent water and power 
interests of Arizona political subdivisions and other public power 
providers and their consumers.
                         bureau of reclamation
    IEDA has reviewed the Reclamation Budget and found, not 
unexpectedly, that it does not address the enormous backlog of needs of 
the agency's aging infrastructure. We support the important projects 
and programs that are included in the proposed budget. We are 
especially mindful that the Yuma Desalting Plant is an essential 
element of the problem solving mechanisms being put in place for the 
Colorado River and especially the Lower Colorado River. Problem solving 
on the Lower Colorado River will be substantially improved by using the 
plant as a management element.
                   western area power administration
    IEDA has reviewed the proposed budget for the Western Area Power 
Administration. We wish to call the Subcommittee's attention to the 
limited appropriation for construction funding proposed for fiscal year 
2015. We believe this shortfall is irresponsible. Western has over 
17,000 miles of transmission line for which it is responsible. It has 
on the order of 14,000 megawatts of generation being considered for 
construction that would depend on that Federal network. The existing 
transmission facilities cannot handle all of these proposals. Moreover, 
the region is projected, by all utilities operating in the region, to 
be short of available generation in the 10-year planning window that 
utilities and Western use.
    The appropriation proposed in this category cannot come even close 
to keeping existing transmission construction going. Repairs and 
replacements will have to be postponed and considerable hardships to 
local utilities that depend on the Federal network are bound to occur. 
In Western's Desert Southwest Region, our region, work necessary just 
to maintain system reliability will have to be postponed.
    The President's Budget, once again, assumes that unmet capital 
formation needs will be made up by Western's customers. Western 
Administrator Mark Gabriel's testimony before the Senate Water and 
Power Subcommittee defines that shortfall at 86 percent of the budget 
request. We would be the first to support additional customer financing 
of Federal facilities and expenses through the Contributed Funds Act 
authority under Reclamation law that is available to Western. However, 
programs utilizing non-Federal capital formation require years to 
develop. One such program that was proposed by the Arizona Power 
Authority in a partnership with Western died because it was enmeshed in 
bureaucratic red tape at the Department of Energy. There is no way that 
Western customers can develop contracts, have them reviewed, gain 
approval of these contracts from Western and their own governing 
bodies, find financing on Wall Street and have monies available for the 
next fiscal year. It is just impossible, especially in this economy. 
Moreover, scoring and ``cut/go'' rules are providing major 
disincentives for Western's customers and others in this regard.
    There also are impediments to using existing Federal laws in 
facilitating non-Federal financing of Federal facilities and repairs to 
Federal facilities and Congress should examine them. Artificially 
assuming customer funding for construction, in lieu of real solutions, 
is bad public policy and should not be countenanced. We urge the 
Subcommittee to restore a reasonable amount of additional construction 
funding to Western so it can continue to do its job in keeping its 
transmission systems functioning and completing the tasks that it has 
in the pipeline that are critical to its customers throughout the West.
                           funding solutions
    Congress has a long history of authorizing customer contributions 
to the Bureau of Reclamation's mission. First, in 1921 (43 USC 395) and 
then in 1927 (43 USC 397a), Congress established the funding paths now 
known collectively as the Contributed Funds Act. After the Department 
of Energy Organization Act in 1997, the newly-formed Western Area Power 
Administration inherited these tools. The Bonneville Power 
Administration and the Southwestern Power Administration also may 
employ these tools at Reclamation facilities they serve.
    In 2000, Congress provided the Corps of Engineers with limited 
authority to accept customer contributions. 33 USC 2321a.
    Nevertheless, these authorities contain impediments that limit 
their ability to close the gap between appropriations and needs. We 
urge the Subcommittee to request that its sister authorizing 
subcommittees examine how these authorities can be improved. Doing so 
would beneficially impact this Subcommittee's task in distributing 
scarce resources to demonstrated needs.
                               conclusion
    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the Subcommittee, please do not hesitate to get in touch with us.

    [This statement was submitted by Robert S. Lynch, Counsel and 
Assistant Secretary/Treasurer, Irrigation & Electrical Districts 
Association of Arizona.]
                                 ______
                                 
           Prepared Statement of the Jicarilla Apache Nation
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Ty Vicenti, President, Jicarilla 
Apache Nation.]
                                 ______
                                 
            Prepared Statement of Matthew H. Mead, Governor
    Dear Chairman Feinstein and Senator Alexander: The State of Wyoming 
supports the Colorado River Endangered Fish Recovery Program and the 
San Juan River Basin Recovery Implementation Program. The Upper 
Colorado and San Juan recovery programs have been successful 
collaborative conservation partnerships involving Colorado, New Mexico, 
Utah, Wyoming, Indian Tribes, Federal agencies, water, power and 
environmental interests. The programs work to recover four species of 
fish on the Colorado River so that they can be removed from the Federal 
endangered species list. The program has allowed water use and 
development to continue in full compliance with the requirements of the 
Endangered Species Act (ESA), State water and wildlife laws, and 
interstate compacts. It has streamlined implementation of the ESA for 
Federal agencies, tribes and water users.
    I request your continued support of these Implementation Programs 
for fiscal year 2015, and on behalf of the State of Wyoming, I thank 
the subcommittee for its past support of the programs. Your actions 
have facilitated the continuing success of multi-State, multi-agency 
programs providing for the necessary beneficial use of water in the 
Intermountain West as well as the recovery of endangered fish 
populations.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairwoman Feinstein, Ranking Member Alexander, and Members of the 
Subcommittee: The Metropolitan Water District of Southern California 
(Metropolitan) encourages the Subcommittee's support for fiscal year 
2015 Federal funding of $17.3 million for the U.S. Bureau of 
Reclamation's Colorado River Basin Salinity Control Program (Salinity 
Control Program), Title II--Basinwide Program to prevent further 
degradation of Colorado River water quality and increased economic 
damages.
    The concentrations of salts in the Colorado River cause 
approximately $300 million in damages to water users each year. While 
this figure is significant, had it not been for the efforts of the 
Salinity Control Program, salinity concentrations of Colorado River 
water today would have been about 90 milligrams per liter (mg/L) 
higher, which has avoided additional damages of approximately $200 
million per year.
    Metropolitan is the regional water supplier for most of urban 
southern California, providing supplemental water to retail agencies 
that serve over 18 million people. Water imported via the Colorado 
River Aqueduct has the highest level of salinity of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976, 
which leads to economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
River through both natural and anthropogenic sources.
    The Salinity Control Program reduces salinity by preventing salts 
from dissolving and mixing with the River's flow. Irrigation 
improvements (sprinklers, gated pipe, lined ditches) and vegetation 
management reduce the amount of salt transported to the Colorado River. 
Point sources such as saline springs are also controlled.
    The Salinity Control Program, as set forth in the Act, benefits the 
Upper Colorado River Basin water users through more efficient water 
management, increased crop production, benefits to local economies 
through construction contracts, and through environmental enhancements. 
The Salinity Control Program benefits Lower Basin water users, hundreds 
of miles downstream from salt sources in the Upper Basin, through 
reduced salinity concentration of Colorado River water. California's 
Colorado River water users are presently suffering economic damages in 
the hundreds of millions of dollars per year due to the River's 
salinity.
    In recent years, funding for the Bureau of Reclamation's Title II--
Basinwide Program has dropped to as low as $6.1 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream United States and Mexican water users 
must be honored while the Upper Basin States continue to develop their 
Colorado River Compact apportioned waters from the Colorado River and 
its tributaries.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom the U.S. Department of Agriculture 
contracts for implementation of salinity control measures. Over the 
past years, the Salinity Control Program has proven to be a very cost 
effective approach to help mitigate the impacts of increased salinity 
in the Colorado River. Adequate Federal funding of this important 
Basin-wide program is essential.
    Metropolitan urges the Subcommittee to fund the Bureau of 
Reclamation's Salinity Control Program, Title II--Basinwide Program for 
fiscal year 2015 in the amount of $17.3 million.

    [This statement was submitted by Jeffrey Kightlinger, General 
Manager, the Metropolitan Water District of Southern California.]
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians, we are 
pleased to present testimony regarding fiscal year 2015 appropriations 
in the Energy and Water Development bill, in particular the Office of 
Indian Energy Policy and Programs, the Weatherization Assistance 
Program, the Renewable Energy Production Incentives as well as a 
recommendation on the Native American Affairs Program in the Bureau of 
Reclamation.
                          department of energy
Introduction
    Tribal lands contain abundant and largely underdeveloped 
conventional and renewable energy resources that hold great promise for 
current and future generations of Native peoples. Even with this 
substantial potential, there are only two commercial-scale renewable 
energy projects operating in Indian Country. In the conventional energy 
field, tribes boast nearly a quarter of the Nation's on-shore oil and 
gas reserves and developable resources and one-third of the Nation's 
western low-sulfur coal. The Three Affiliated Tribes of North Dakota 
celebrated a groundbreaking ceremony May 8, 2013, for their $450 
million Thunder Butte Refinery.
    Nevertheless, tribes and Native communities face not only many of 
the same challenges in developing their energy resources and 
infrastructure that State and local governments and non-Indian 
communities face but also additional challenges--including special 
laws, regulations, and policies that are completely unique to Indian 
Country and often to a specific tribe and that impose additional 
compliance requirements; grossly inadequate physical infrastructure, 
limited access to capital, and high workforce training and development 
needs. In addition, tribes need access to the capacity and technical 
assistance necessary to advance the 150-plus energy projects that they 
are currently moving into the development, financing, and construction 
stages.
Tribal Clean Energy Development
    The participation in the energy market and high energy costs remain 
a persistent problem, particularly in rural Indian communities. When 
provided with innovative energy solutions, tribes are embracing them. 
For example, one utility scale solar project has started construction 
in 2014 in addition to numerous community-scale renewable energy 
projects to offset energy costs for tribal facilities and residential 
loads. The revenues and creation of clean jobs that large utility scale 
projects can contribute to regional economies are important; however, 
community scale projects and energy efficiency improvements, while 
humble, can drastically improve the quality of life for Indian people. 
Indian Country is finally seeing first substantial glimpses of Federal 
and tribal investments made in tribal capacity building and early stage 
energy development.
Title V--Indian Tribal Energy Development and Self-Determination Act, 
        Indian Energy Programs and Funding.
    The President proposed a significant increase in funding for Indian 
programs in the Department of Energy.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                    Fiscal year     Fiscal year     Fiscal year      2015 vs.
                                                   2013 Current    2014 Enacted    2015 Request     fiscal year
                                                                                                       2014
----------------------------------------------------------------------------------------------------------------
Office of Indian Energy Policy and Programs
Office of Indian Energy Policy and Programs (IE)               0               0           2,510           2,510
Office of Indian Energy Policy and Programs (DA)           1,928           2,506               0             N/A
 (non-add)......................................
Tribal Energy Program (IE)......................               0               0          13,490          13,490
Tribal Energy Program (EE) (non-add)............           9,421           6,996               0             N/A
                                                 ---------------------------------------------------------------
    Total, Office of Indian Energy Policy and                  0               0          16,000          16,000
     Programs...................................
----------------------------------------------------------------------------------------------------------------

    In the fiscal year 2015 President's Budget, the Office of Indian 
Energy Policy and Programs (IE) would move out of the Departmental 
Administration (DA) account and be established as a new stand-alone 
office, with a separate appropriation under Energy Programs. NCAI has 
been advocating for this and was pleased to see that it may come to 
fruition. Energy Efficiency and Renewable Energy's Tribal Energy 
Program and the DA's Office of Indian Energy Policy and Programs would 
be consolidated under the new IE appropriation to promote alignment of 
the Department's Indian energy policies and financial assistance 
programs. Consolidation will result in more efficient and effective 
administration and management of Tribal activities and programs via a 
single program office. There are two new initiatives for the Office of 
Indian Energy, Policy and Programs;: the financial and technical 
assistance for micro-grid projects and electrification infrastructure 
projects;, and climate mitigation and adaption for clean energy systems 
in Indian Country.
    Additional resources would be directed into technical assistance 
and competitive grant programs for tribes. Technical and financial 
assistance is necessary to help support clean energy development, 
energy efficiency improvements, electrification projects, and other 
greenhouse gas emission mitigation technologies for tribes, including 
fossil fuel electric generating plants or peaking units that utilize 
carbon sequestration systems, and/or operate in conjunction with solar, 
wind, or other sources of renewable energy. NCAI has advocated 
consolidating programs under the Office of Indian Energy pursuant to 
the Energy Policy Act of 2005's Title V.
    The Energy Policy Act of 2005 (Public Law109-058) in Title V 
authorized $20 million annually to the Office of Indian Energy Policy 
and Programs and its competitive grants from fiscal year 2006-2016 to 
assist Indian tribes in energy education, research and development, 
planning and management needs; and $2 billion of authority to provide a 
loan guarantee program to any Indian tribes for energy development. 
These initiatives have yet to be funded at their full authorized 
levels. This year, the consolidation of the tribal energy grant program 
into the Office of Indian Energy is included in the President's request 
budget for the Department of Energy's fiscal year 2015 at $16 million.
    NCAI recommends that the Office of Indian Energy Policy and 
Programs and its consolidated tribal energy grants be fully funded in 
the amount of $20 million. Furthermore, NCAI recommends that the Office 
of Indian Energy be authorized and directed to begin necessary work on 
Department of Energy regulations for a Tribal Energy Loan Guarantee 
Program.
Weatherization Assistance Programs
    Indian tribes incur the highest energy costs in the Nation. 
Weatherization assistance can provide tribes substantial economic 
savings. Depending on the condition of the building, weatherization can 
save 15 to 40 percent in energy consumption and costs.
    To illustrate what is possible;: the Mashpee Wampanoag Tribe 
recently renovated its tribal headquarters, investing $39,000 for 
energy efficiency and green features. The energy savings of $7,600 per 
year resulted in a payback period of 5 years and an 18 percent annual 
return on the green investment. The Sault Sainte Marie Tribe of 
Michigan plans to weatherize 20 tribal buildings that had a combined 
electrical cost of $947,135 in 2008. Even with a modest 15-percent 
reduction, the tribe could save over $142,000 per year by making the 
buildings energy efficient. With the need for weatherization in Indian 
Country, the opportunities to conserve energy and lower energy costs on 
tribal lands are plentiful.\1\
---------------------------------------------------------------------------
    \1\ The New Energy Future In Indian Country: Confronting Climate 
Change, Creating Jobs, and Conserving Nature National Wildlife 
Federation, 2010.
---------------------------------------------------------------------------
    The Administration has proposed a 30.9 percent increase for the 
Weatherization Assistance Program which provides weatherization 
assistance grants to State energy programs and clean energy economic 
development partnerships. The program however does not identify 
specific amounts for Indian tribes for low-income and rural homes, and 
training and technical assistance.
    NCAI recommends that at least a 2 percent tribal set-aside be made 
available in fiscal year 2015 for the Weatherization Assistance 
Programs; or such amount so as to be on par with State programs and 
technical assistance amounts.
Renewable Energy Production Incentives
    An important program proposed for termination in the fiscal year 
2015 President's budget is the Renewable Energy Production Incentive 
(REPI), which provides financial incentive payments to publicly owned 
utilities, not-for-profit electric cooperatives, and Tribal governments 
and Native corporations that own and operate qualifying facilities 
generating renewable energy. The justification for the elimination of 
REPI by the Administration is that the importance of this program has 
diminished over time due to reduced cost and competitiveness of 
renewable energy technology. However, tribal entities continue to need 
access to REPI to compete with tax incentives available for tax-paying 
entities in the marketplace.
    NCAI recommends that $20 million be made available for the 
community and facility-scale renewable energy projects on Indian lands 
for fiscal year 2015.
                         bureau of reclamation
Native American Affairs Program
    The Bureau of Reclamation is charged with providing technical 
support for Indian water rights settlements, and to assist tribal 
development, management, and protect their water and related resources. 
Program level support from the Native American Affairs Program, is very 
important for the assistance and support of tribal water settlements 
and projects, therefore we. Therefore, we support Reclamation's budget 
request of $8.1 million to continue support for tribal governments.
    NCAI recommends that the Native American Affairs Program be funded 
at $8 million for fiscal year 2015.
                                 ______
                                 
                Prepared Statement of the Navajo Nation
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Ben Shelly, President, Navajo 
Nation.]
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Oglala Sioux Rural Water Supply System, 
     Rosebud Sioux Rural Water System and Lower Brule Sioux Rural 
                              Water System
1. Fiscal Year 2015 OMR Request
    The Mni Wiconi Project respectfully requests $13.5 million in 
appropriations for operation and maintenance (OMR) activities in fiscal 
year 2015, including $1.7 million for the Bureau of Reclamation. There 
are no requests for construction funding.
    Continued upgrade to community water systems is a critical priority 
and a prerequisite to transfer of those facilities to the three Indian 
rural water systems in the Mni Wiconi Project. Renewal of the report 
language from Senate Report 113-47 is requested.

       Mni Wiconi Project, South Dakota.--Within the funds provided for 
            the operation and maintenance of the project, Reclamation 
            may use the funds for upgrading existing community water 
            systems that have always been intended as part of the 
            project.

    OMR funds will be utilized as summarized in Table 1 for:
  --upgrading existing Indian community water systems
  --OSRWSS for regional core facilities,
  --OSRWSS distribution systems on the Pine Ridge Indian Reservation,
  --RSRWS on the Rosebud Indian Reservation
  --LBSRWS on the Lower Brule Indian Reservation

    The OSRWSS Core System is the heart of the Mni Wiconi Project and 
serves the three Indian Reservations and the West River/Lyman-Jones 
Rural Water System (WRLJ) in 9 counties off-reservation in southwestern 
South Dakota.
    Public Law 100-516, as amended, our authorizing legislation, found 
that:

       . . . the United States has a trust responsibility to ensure 
            that adequate and safe water supplies are available to meet 
            the economic, environmental, water supply, and public 
            health needs of the Pine Ridge Indian Reservation, Rosebud 
            Indian Reservation and Lower Brule Indian Reservation . . . 


                                                                         TABLE 1
                                                  MNI WICONI PROJECT FISCAL YEAR 2015 OMR FUNDING NEED
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                      OSRWSS
                        Cost Item                        --------------------------------      RSRWS          LBSRWS        Reclamation        Total
                                                               Core        Distribution
--------------------------------------------------------------------------------------------------------------------------------------------------------
Number of Employees.....................................              19              33              22              12             7.6            93.6
Labor and Fringe Benefits...............................      $1,238,000      $1,620,000      $1,192,300        $748,000        $735,000      $5,533,300
Labor Overhead Costs....................................         374,000         527,000         294,900         204,000         376,000       1,775,900
Non-Labor Costs.........................................  ..............  ..............  ..............  ..............  ..............               0
    Electricity/Natural Gas/Propane.....................         335,000         500,000         240,000         110,000         420,000       1,605,000
    Telephone/Communications............................          35,000          59,000          25,000          40,000               -         159,000
    Water Treatment Chemicals/Supplies..................         393,000         124,000          55,000         100,000          24,000         696,000
    Wells, Pumps, Motors & Replacement..................         309,000         269,000          60,000          85,000               -         723,000
    Water Testing.......................................          44,000          41,000           2,000          10,000               -          97,000
    Vehicle OMR.........................................         305,000         459,000          98,000         100,000          27,000         989,000
    Water Service Providers.............................               -               -         242,050               -               -         242,050
    Travel & Training:..................................          41,000          96,000          17,880          46,000          38,000         238,880
    Other...............................................          59,000         117,000         112,250         110,000          60,000         458,250
Extraordinary Replacements
    Phase I and II PRV's................................               -               -               -               -               -               0
    Pump, Treatment Membranes & Storage Tank............               -               -               -         250,000               -         250,000
    WTP Stress Test (January & June 2015)...............          56,000               -               -               -               -          56,000
    Mapping Equipment...................................  ..............          15,000  ..............  ..............  ..............  ..............
    Semi-Truck/Low Boy Trailer Replace..................  ..............          90,000  ..............  ..............  ..............  ..............
Priority Community System Upgrades......................               -  ..............  ..............  ..............  ..............  ..............
    Value and Tee REplacements, Pine Ridge (Cont).......               -         275,000               -               -               -         275,000
    Value and Hydrant Replacement, Parmelee.............               -               -         429,000               -               -         429,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                              $3,189,000      $4,192,000      $2,768,380      $1,803,000      $1,680,000     $13,527,380
--------------------------------------------------------------------------------------------------------------------------------------------------------

    PL 100-516 declared the purpose of the Mni Wiconi Project to

       . . . (1) ensure a safe and adequate municipal, rural, and 
            industrial water supply for the residents of the Pine Ridge 
            Indian Reservation, Rosebud Indian Reservation and Lower 
            Brule Indian Reservation in South Dakota;
       (2) assist the citizens of Haakon, Jackson, Jones, 
            Lyman,Mellette, Pennington, and Stanley Counties, South 
            Dakota, to develop safe and adequate municipal, rural, and 
            industrial water supplies;

    The request as presented in Table 1 will meet the purposes of the 
Act, and the budgeting by the Administration and the appropriation by 
Congress of adequate funds will fulfill the fiduciary responsibilities 
of the United States as articulated in the Act.
    The project has been treating and delivering more water each year 
from the OSRWSS Water Treatment Plant near Fort Pierre. Construction is 
nearly complete in the service areas where the remaining, but 
inadequate, authorized construction funds will be applied, and 
construction in those areas will be completed in 2015. The need for 
sufficient funds to properly operate and maintain the functioning 
system throughout the project continues to grow with the completion of 
construction which corresponds to the delivery of water to more 
communities and rural users. The project will soon deliver safe and 
adequate water supplies to 100 percent of its service area. The 
population will continue to grow within the service area and will reach 
the design population late in the next decade. The OMR budget must be 
adequate to keep pace with the system and its growing population to 
protect and preserve the $470 million investment of the United States 
in project facilities. Those facilities are held in trust by the United 
States.
    The concern with the President's Budget for fiscal year 2015 is the 
lack of recognition of need for an increasing level of funding. The 
fiscal year 2014 and fiscal year 2015 budgets were identical at $12 
million annually and do not reflect the increase in water deliveries, 
aging facilities in need of repair and maintenance (since start of 
construction in 1994), need for existing community upgrades and other 
funding factors as discussed above. It is critical that project 
features do not fall into disrepair.
    The West River/Lyman-Jones facilities are the only facilities not 
held in trust by the United States. Those facilities receive OMR 
funding through user fees but rely on OSRWSS for diversion of water 
from the Missouri River, treatment at the regional plant and delivery 
through the core pipeline system.
    Fiscal year 2015 is the second year with shifted emphasis from 
construction to OMR as the funding need. Budgeting and funding by the 
United States to ensure that aging features of the constructed project 
are protected is not only sensible but properly executes the 
responsibilities of the United States as trustee to the Indian people.
    The project is confident that priorities for Reclamation Water and 
Related Resources discretionary funding will continue with a new 
Commissioner, namely, first OMR, second Indian water right settlements 
and third construction.
2. OSRWSS Regional Core Facilities
    The staff of the OSRWSS core numbers 19 employees. The staff is a 
minimum number that are essential to operate and maintain the regional 
water treatment plant, 203 miles of main transmission pipeline from 12 
inches to 27 inches in diameter, nine major pumping stations (4 
Megawatt total capacity), nine reservoirs (4.2 million gallons of 
capacity) and supervisory control and data acquisition (SCADA) system, 
necessary to serve the OSRWSS, RSRWS, LRSRWS and WRLJ service areas. As 
shown in Table 1, wages and fringe benefits total $1.238 million. 
Average salaries are $65,150 annually, including average fringe 
benefits of $13,076 annually. Labor overhead totals $374,000 annually.
    Electrical and natural gas utilities have a projected cost of 
$335,000 based on historical use and rates projected for 2015 from the 
service providers. The utilities provide wheeling services for heating, 
lighting and pumping at the water treatment plant and pumping stations. 
Electrical costs, except for wheeling services, are covered separately 
in the budget of the Bureau of Reclamation, which reimburses the 
Western Area Power Administration directly for power and energy costs.
    Chemical costs are budgeted at $393,000 and are needed to treat 
water and ensure a safe drinking water supply for the three Indian and 
WR LJ distribution systems served by the OSRWSS core system. The costs 
reflect increasing water use in the system. Other major costs in the 
OSRWSS core budget include $309,000 for aging pump and motor repair and 
replacement in the water treatment plant and intake and $305,000 for 
operation and repair of project vehicles and replacement of 5 vehicle 
units.
    The Bureau of Reclamation can confirm that the budget for the 
OSRWSS core system of $3,189,000 was developed collaboratively and 
represents the expected costs of operation and maintenance in fiscal 
year 2015. The sponsor-prepared budget is 10.4 percent less than in 
fiscal year 2014 due to adequate budgeting last year to address 
optimization improvements that will be cost-effective in the future.
3. OSRWSS Distribution on Pine Ridge Indian Reservation
    The staff of the OSRWSS Distribution (DWMC) numbers 33 employees. 
The staff is the minimum number that are essential to operate and 
maintain over 407 miles of main transmission pipeline, 33 major pumping 
stations, reservoirs and SCADA system. As shown in Table 1, wages and 
fringe benefits totaled $1.620 million. Average salaries are $49,106 
annually, and fringe benefits add $398,951 annually. Labor overhead 
totals $527,310 annually.
    Electrical and propane utilities have a projected cost of $500,000 
based on historical use and rates projected for 2015 from the power 
suppliers. The utilities provide for heating and lighting of the two 
on-reservation operations offices and 33 pumping stations.
    Chemical costs are comparable to the previous year's amounts at 
$124,000 with only slight increases associated with using chloramines 
in our system and the system expanding to maximum delivery. These 
increases are needed to ensure a safe drinking water supply for the 
20,000 people living on the Pine Ridge Indian Reservation. Other major 
costs in the OSRWSS Distribution budget include $269,000 for pump and 
motor repair and replacements, including supplies, in the local pump 
stations and well fields; and $459,000 for operation and repair of 
project vehicles which are used in the field to O&M the 407 miles of 
distribution piping.
    The budget includes $105,000 in extraordinary costs for replacing 
our old Freightliner Semi-Tractor Trailer and the Low Boy trailer. We 
also included purchasing some mapping equipment which should include a 
plot printer and the software associated so we can print out our own 
GIS maps.
    The Bureau of Reclamation can confirm that the budget for the 
OSRWSS Distribution system was developed collaboratively and represents 
the expected costs of the operation and maintenance in fiscal year 
2015. The sponsor-prepared budget is 2 percent more than in fiscal year 
2014.
    The budget narrative of the Bureau of Reclamation in an earlier 
budget request included the following:

       . . . The project consists of new systems to be constructed, as 
            well as 40 existing Mni Wiconi community systems. 
            Responsibilities of the Secretary under the Act include the 
            operation and maintenance of existing water systems and 
            appurtenant facilities on the Pine Ridge, Rosebud, and 
            Lower Brule Indian Reservations.

    The Bureau of Reclamation is requiring upgrades before 
``transferring'' the 40 existing community systems into the Mni Wiconi 
Project, and ``transfer'', according to the Bureau of Reclamation, is a 
condition of eligibility for operation, maintenance and replacement 
(OMR) budgeting by the Bureau of Reclamation. The Oglala Sioux Tribe 
believes that the Reclamation does not fulfill the trust responsibility 
to the Tribe and its membership or the needs of the other residents of 
the Pine Ridge Indian Reservation without transfer of 20 existing 
communities to the Project in order to make those communities eligible 
for operation, maintenance and replacement funding. Therefore, the 
OSRWSS request for fiscal year 2015 includes a $275,000 request that 
would replace valves in Pine Ridge Village that have been identified by 
the Bureau of Reclamation as needing replacement before transfer of the 
community systems to the Project.
    The Committee is asked to consider the contradiction that the 
Bureau of Reclamation has created by its policy, namely that funding 
($10 million) outside the authority of the Mni Wiconi Project Act is 
required to repair and replace existing facilities in 20 communities on 
the Pine Ridge Indian Reservation before ``transfer'' to the Project; 
but the communities, which have existing systems that are functioning 
successfully at present, are not eligible for OMR funding until they 
are ``transferred.'' The communities cannot receive OMR funding until 
they are ``transferred'', there are no construction funds available to 
upgrade systems before transfer, and OMR funding is needed to conduct 
the ``Cadillac'' repairs that Reclamation requires before ``transfer.''
    The modest request of $275,000 for repairs to valves and related 
facilities in Pine Ridge Village in fiscal year 2015 will advance the 
largest community on the Pine Ridge Indian Reservation toward 
``transfer.''
4. Rosebud Sioux Rural Water System
    The staff of the RSRWS or Sicangu Mni Wiconi currently consists of 
17 full-time equivalents. Many of these positions are shared with 
design and construction component of the Sicangu Mni Wiconi and after 
the completion of the construction phase of the project, the functions 
shared with the design and construction component will fall fully on 
the OM&R component. It is anticipated that there will be 22 full-time 
employees in fiscal year 2015. The staff is the minimum number needed 
to operate and maintain over 425 miles of mainline, 15 major pumping 
stations, 20 water storage reservoirs, 11 supply wells and associated 
chlorination facilities, and SCADA system. As shown in Table 1, wages 
and fringes total $1.192 million. Average annual salaries are $54,195, 
including average fringe benefits of $16,270. Labor overhead totals 
$294,900 annually.
    Electrical and propane utilities have a projected cost of $240,000 
based on 1) historical use; 2) an increase in project pumping resulting 
from more surface water being pumped to Mission and the fiscal year 
2014 pump station to supply Sicangu Village; and 3) anticipated power 
rates projected for 2015. The utilities provide for heating, lighting 
and power for the 15 pump stations and the RSRWS administrative 
building and shops.
    Water treatment chemical costs and general supplies are comparable 
to fiscal year 2013 and fiscal year 2014 amounts and total $55,000 
which is primarily to address inflation. System maintenance and repair 
includes routine maintenance and repair activities for pipelines, pump 
stations, storage tanks, pressure reducing valves and other 
appurtenances. At a total cost of $60,000 is less than requested for 
fiscal year 2014 because of the timing of the construction of pump 
stations. This line item is anticipated to increase to closer to 
$100,000 in fiscal year 2016. Water testing is a relatively low cost, 
at $2,000 in part because the Tribe does much of the testing 
themselves. Vehicle operation and maintenance costs total $98,000 which 
reflects the additional service areas from the Sicangu Village pipeline 
coming on line in 2014.
    The RSRWS budget includes water service contracts with the city of 
Mission and the Tripp County Water Users District (TCWUD) at a total 
cost of $240,000 which reflects a reduction due less pumping for the 
Mission system. In 1995 the citizens of Mission voted to transfer their 
municipal system to the Mni Wiconi project and in 2003 a final 
agreement between the Tribe, city of Mission and Bureau of Reclamation 
was consummated and the former municipal system is now held in trust 
for the Tribe as part of the RSRWS. The inclusion and OM&R of the 
Mission system are authorized by Section 3A (a)(8) of the Mni Wiconi 
Project Act, as amended. The cost of the service contract is $160,000 
which is less than previous amounts because the delivery of surface 
water will reduce O&M costs associated with the groundwater supply. The 
second service contract, at $80,000, is for providing water to tribal 
members on trust lands in the Secondary Service Area of Tripp and 
Gregory Counties. Other costs at $112,250 include computer software 
license agreements, building and vehicle insurance, SCADA, engineering 
and water conservation support. The water conservation program repairs 
leaking fixtures and service lines in homes. Most homeowners cannot 
afford their own repairs and there is no cost incentive for them to fix 
leaks. The Conservation program saves energy and water.
    Like the Oglala Sioux Tribe, the Rosebud Sioux Tribe believes that 
the authority of the authorizing legislation and trust responsibility 
of the United States are clear regarding the inclusion of existing 
systems in the RSRWS. After all, the majority of the service population 
relies on the existing systems to deliver water to their homes. Rosebud 
included $316,759 for the replacement of valves and fire hydrants in 
the Antelope community system in the fiscal year 2014 budget request. 
However, those funds have yet to be distributed and it is uncertain if 
the amount requested will be provided. For fiscal year 2015 Rosebud is 
requesting $429,000 to address hydrants and valves in Parmelee and to 
dismantle and abandon the out of service tank and properly plug and 
abandon the three old out-of-service wells. Without proper abandonment 
the facilities present a threat to contamination of the RSRWS and local 
groundwater resources. As in the fiscal year 2014 request, the cost 
estimate is based on the assessment completed by Reclamation in 2010 
(adjusted for time using the Reclamation's Construction Cost Trend 
index) and is only for the highest priority items to ensure 
functionality of the system. If the fiscal year 2014 request for 
Antelope is not fully funded a portion of these funds may need to be 
used for that work.
5. Lower Brule Rural Water System
    The completed Lower Brule Rural Water System (LBRWS) consists of a 
water treatment plant, six booster stations (one of which will be 
installed during fiscal year 14), three tanks/reservoirs and 310 miles 
of pipeline. LBRWS has a staff of 12 full-time employees to provide the 
operation and maintenance of these facilities. As shown in Table 1, 
wages and fringe benefits totaled $748,000. Average salaries are 
$46,535 annually, including average fringe benefits of $15,803 
annually. Labor overhead totals $204,000 annually.
    Electrical and propane utilities have a projected cost of $110,000 
based on historical use and the expected usage of an additional pumping 
station. The utilities provide the power, heating and lighting of the 
administration building, water treatment plant and soon-to-be six 
pumping stations.
    Costs associated with operating and maintaining the water treatment 
plant including chemicals and service agreements on major equipment 
have historically been approximately $100,000. The cost for operating, 
maintaining and repairing the distribution system have been 
approximately $85,000 for equipment and supplies and $100,000 for 
vehicles utilized to operate, maintain and repair the 310 miles of the 
water system. An additional $206,000 is requested to the costs 
associated with travel and training of the operators, communication, 
water testing, security, engineering and office supplies.
    The budget includes $250,000 for the replacement of pressure relief 
valves on the core pipeline and high service pumps that are nearing the 
end of their useful life as well as modifications to the water 
treatment plant membrane units. LBRWS will continue to work with the 
Bureau of Reclamation and the other sponsors to prioritize their needs 
and ensure that their system is operating to the standards that have 
been established over the past several years.
6. Bureau of Reclamation
    The Bureau of Reclamation budget was based on fiscal year 2014 
experience, and the Agency should be consulted for its fiscal year 2015 
budget, which is not expected to vary significantly. Reclamation 
provides oversight of operation and maintenance activities for all 
tribal systems, including the employment of an equivalent 7.6 persons 
at a cost of $1.111 million or an average $146,000 per employee.
    The second-most costly budget item of Reclamation after labor costs 
is the payment of power bills to the Western Area power Administration 
for demand and energy charges of $420,000.

    [This statement was submitted by Frank Means, Director, Oglala 
Sioux Rural Water Supply System; Sonja Weston, Director DWMC, Oglala 
Sioux Rural Water Supply System; Syed Huq, Director, Rosebud Sioux 
Rural Water System and Jim McCauley, Manager, Lower Brule Sioux Rural 
Water System.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) continues to support 
increased funding for the Bureau of Reclamation's (Reclamation) Water 
and Related Resources program and requests that a minimum of $1 billion 
be included in the fiscal year 2015 Budget. We are concerned that the 
Administration's proposed fiscal year 2015 budget of $760 million, 
which is almost $200 million below fiscal year 2014 enacted levels, is 
woefully insufficient to meet the diverse water supply and 
infrastructure needs in the 17 Western States that Reclamation serves. 
Additional funding would help leverage other resources and 
collaborative partnerships through Reclamation's WaterSMART Initiative, 
as well as support increased coordination between other Federal 
agencies on ecosystem restoration, climate change adaptation, and other 
water related challenges.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production. About one-half of our members are in Reclamation Projects. 
Additionally, most of our members have contracts with Reclamation or 
have been awarded grants under the WaterSMART program which has been 
greatly beneficial to districts meeting agricultural needs.
WaterSMART Initiative
    OWRC strongly supports Reclamation's ongoing WaterSMART Initiative 
and increased funding for the WaterSMART Grants and Water Conservation 
Field Services Programs--the two programs used the most by Oregon's 
irrigation districts to support water conservation activities. These 
programs are an important part of the overall funding package for water 
resources projects collaboratively developed by local communities, 
supported with local and State funding, and designed to meet those 
communities' unique needs while still meeting the goal of water 
conservation.
Water Conservation Field Services Program (WCFSP)
    The WCFSP is a key component in supporting irrigation districts' 
and similar water delivery systems' water conservation efforts and an 
area that continues to have greater need than available funding. In the 
past the WCFSP has provided a breadth of technical assistance to 
irrigation districts and provided partial funding for materials used to 
pipe and line canals, measurement and other technology, and water 
conservation plans--all supporting water conservation efforts being 
implemented by these districts. While we are supportive of exploring 
innovative ways to utilize reclaimed and reused water, we continue to 
be concerned about funding a few expensive projects in limited areas 
while there are large unmet needs in the other WaterSMART programs. 
Providing increased funding for WCFSP projects will yield more 
immediate and cost-effective water conservation measures in all 17 
Western States.
    The planning projects and technical assistance funded under the 
WCFSP are key components that help our member districts identify 
opportunities for water conservation through improved water management 
and capital investments. A lack of funding for the feasibility phase of 
projects is an impediment to the districts' ability to move forward 
with implementing water conservation projects like those listed below. 
This program provides seed money for both short and long term planning 
by districts and water users that results in helping Oregon meet the 
competing demands for water in basins throughout the State. 
Furthermore, technical assistance under this program can help water 
suppliers plan for and adapt to potential impacts from climate change.
    Additionally, we believe the management of the WCFSP should remain 
with the Regional Offices in order to retain the close connection 
between Reclamation and Project managers and ensure that Reclamation's 
resources are used to best support the management of its Projects. The
    WCFSP is one of the Reclamation services most appreciated by our 
members. The regional staff, and particularly the local area office 
staff, understand the unique operating and delivery challenges of the 
various Projects, and therefore provide very meaningful support to the 
managers of those Projects.
WaterSMART Grants
    WaterSMART cost-share grants have supported Oregon districts' 
efforts to improve water delivery systems, conserve water, and 
implement innovative projects to meet the water needs in our State. 
These projects have been a key ingredient to the districts' cooperative 
efforts with other stakeholders in their respective river basins to 
address in-stream, water quality, and water supply needs of their 
basins, without reducing the amount of land to which the districts 
deliver water, and avoiding regulatory actions by Federal or State 
agencies. There continues to be more applicants than available funding 
and additional financial resources are needed to enable local water 
suppliers to continue their work to conserve water and help meet the 
Secretary's water conservation goal. With a return of over $5 for every 
$1 of Federal investment, and non-Federal match generally exceeding the 
required amount, this program far surpasses the results of other 
partnerships between the Federal Government and local project sponsors.
Examples of Oregon Projects Funded through the WaterSMART Initiative
    The following projects are examples of how Reclamation's WaterSMART 
Initiative is helping Oregon districts. More projects like these could 
be developed and implemented with additional Federal support through 
the WaterSMART Program.
  --Central Oregon Irrigation District, Juniper Ridge Phase II Piping 
        Project--The Central Oregon Irrigation District will convert 
        4,500 linear feet of the Pilot Butte canal to spiral wound, 
        coated steel pipe, an improvement expected to result in water 
        savings of 2,552 acre-feet each year. Through a partnership 
        with the North Unit Irrigation District and the Deschutes River 
        Conservancy, 2,000 acre-feet of conserved water will be 
        allocated as a permanent instream flow to support water quality 
        and habitat improvements in a reach of the Crooked River that 
        is critical for endangered Middle Columbia Steelhead.
    The remaining 552 acre-feet of conserved water will be allocated 
for permanent instream flow in the middle Deschutes River. The District 
estimates that 543,343 kilowatt hours of energy savings annually will 
result from reduced pumping and also estimates that completion of the 
project will allow for as much as 3,727,545 kilowatt hours of 
additional power generation annually from the existing Juniper Ridge 
Hydroelectric Plant. Fiscal year 2013 Reclamation Funding: $1,500,000 
Total Project Cost: $6,531,166
  --Vale Oregon Irrigation District, Willow Creek Pipeline Project--The 
        Vale Oregon Irrigation District will convert 61,439 linear feet 
        of lateral canals to enclosed pipe to address seepage losses. 
        The project is expected to result in 5,450 acre-feet of water 
        savings annually, which will remain in Beulah Reservoir, 
        benefitting threatened bull trout. Completion of a new 
        pressurized system is expected to facilitate steps by 
        landowners to convert from flood irrigation to sprinkler 
        irrigation in the future. Fiscal year 2013 Reclamation Funding: 
        $1,258,200 Total Project Cost: $2,516,400
  --Talent Irrigation District, Jasmine Water Conservation Project--The 
        Talent Irrigation District in Oregon will convert 1.3 miles of 
        the open Talent Canal to pipelines to address seepage losses. 
        This project is the last phase of an overall conservation 
        project to pipe the lower 4.9 miles of the Talent Canal. The 
        project is expected to result in water savings of 792 acre-feet 
        annually. Conserved water will be stored in nearby reservoirs 
        to enhance deliveries and make more water available for future 
        use. Fiscal year 2013 Reclamation Funding: $205,643 Total 
        Project Cost: $411,287
    Oregon also has other projects that are currently seeking funding 
through WaterSMART:
  --Deschutes Basin Board of Control, Deschutes Basin Study--The 
        Deschutes Basin Board of Control is in the process of applying 
        for a WaterSMART grant for a basin study. This study will allow 
        for a broad group of stakeholders representing instream, 
        municipal and agricultural water interest, to come to a 
        consensus on a plan and projects, taking climate change into 
        account that will work towards meeting all of the needs over a 
        30-50 year time horizon. The Deschutes Basin Board of Control 
        is comprised of 7 irrigation districts in the Deschutes Basin. 
        Fiscal year 2014 Reclamation Funding Requested: $750,000 Total 
        Project Cost: $1,000,000
  --Tumalo Irrigation District, Phase IV Piping of the Tumalo Feed 
        Canal--The Tumalo Irrigation District is applying for a 
        WaterSMART grant to complete Phase IV of its effort to pipe the 
        Tumalo Feed Canal. This project is expected to save water every 
        year that is currently being lost to seepage. Conserved water 
        will be dedicated to the State or Oregon for permanent instream 
        flows to benefit endangered species such as the Chinook Salmon, 
        Steelhead, and Bull Trout. Fiscal year 2014 Reclamation Funding 
        Requested: $1,000,000 Total Project Cost: $2,100,000
    Additional innovative projects like the ones above could be 
developed and implemented in Oregon if more funding is made available 
through the WaterSMART Initiative.
Ecosystem Restoration
    Additional funding to support collaborative ecosystem restoration 
efforts that align with the environmental aspects of Reclamation's 
mission is also important to OWRC and its members. Funding for the 
Columbia and Snake River Salmon Recovery Program is essential as 
Reclamation, the Bonneville Power Administration, the U.S. Army Corps 
of Engineers, and NOAA Fisheries prepare to implement reasonable and 
prudent alternatives to mitigate impacts to Columbia-Snake river salmon 
and steelhead under the new Federal Columbia River Power System 
Biological Opinion. We strongly encourage Reclamation to consider 
funding for fish passage and fish screening projects that can help meet 
these requirements. This type of funding could be leveraged with State 
and local efforts to maximize cost effectiveness and environmental 
benefits.
    Furthermore, funding for the Klamath Project and the Klamath Basin 
Restoration Agreement will help support ongoing efforts to improve 
water supplies to meet the myriad of agricultural and environmental 
needs that depend upon it. Providing funding for these types of 
collaborative restoration efforts will lead to implementable, cost-
effective water resources solutions that help reduce conflict and 
expensive litigation.
Climate Change Adaptation and Aging Infrastructure
    OWRC is supportive of developing strategies to address potential 
climate change related impacts to water resources. It is imperative 
that the Nation's water infrastructure is capable of handling more 
frequent and severe weather events, changes in precipitation/snowpack, 
and other climate related impacts to water resources. Reclamation needs 
additional funding to coordinate and leverage State, local and other 
Federal resources to support necessary evaluations and improvements of 
water infrastructure in the 17 Western States related to potential 
climate change impacts. Many of the 824 dams and reservoirs that 
Reclamation manages (and associated delivery systems) were built 50 to 
100 years ago and are already in dire need of improvement. These 
improvements are costly and deferred maintenance leads to reduced 
system efficiency, water conservation, and in some instances 
catastrophic failure. Providing funding to evaluate and improve water 
infrastructure in the face of climate change will ensure that 
Reclamation reservoirs and associated delivery systems can continue to 
provide essential water supplies used to grow food and other 
agricultural crops--a vital part of our local, State, and national 
economy, as well as ensuring food security.
    We respectfully request the appropriation of at least $1 billion 
for Reclamation's Water and Related Resources program for fiscal year 
2015. Providing increased funding for the WaterSMART Initiative and 
other related programs is a wise investment that will yield benefits 
for our Nation's economy, environment, and communities that depend on 
water resources. Thank you for the opportunity to provide testimony 
regarding the fiscal year 2015 budget for the U.S. Bureau of 
Reclamation.

    [This statement was submitted by April Snell, Executive Director, 
Oregon Water Resources Congress.]
                                 ______
                                 
     Prepared Statement of the Public Service Company of New Mexico
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Chris Olson, Vice President, PNM 
Generation.]
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by L. Randy Kirkpatrick, Executive 
Director.]
                                 ______
                                 
    Prepared Statement of Scott A. Verhines, P.E., New Mexico State 
    Engineer, and Secretary, New Mexico Interstate Stream Commission
                                summary
    This Statement is submitted in support of fiscal year 2015 
appropriations for the Colorado River Basin Salinity Control Program 
(Program) of the Department of the Interior's Bureau of Reclamation 
(Reclamation). Reclamation serves as the lead Federal agency in 
implementing the Program. Reclamation primarily institutes salinity 
control through its Basinwide Program. A total of $17,300,000 is 
requested for fiscal year 2015 to implement the authorized salinity 
control program of the Bureau of Reclamation. Recent years have 
followed a trend of inadequate funding for the needs of the program. An 
appropriation of $17,300,000 for Reclamation's salinity control program 
is necessary to restore the program to the level needed to protect 
water quality standards for salinity and to prevent unnecessary levels 
of economic damage from increased salinity in water delivered to the 
Lower Basin States of the Colorado River.
                               statement
    The water quality standards for salinity of the Colorado River must 
be protected while the Basin States continue to develop their compact 
apportioned waters of the river. The salinity standards for the 
Colorado River have been adopted by the seven Basin States and approved 
by the Environmental Protection Agency. While currently the standards 
have not been exceeded, salinity control projects must be brought on-
line in a timely manner to counter the effects of future development 
that could result in unnecessary damages from higher levels of salinity 
in the water delivered to the Lower Basin States of the Colorado River.
    The seven Colorado River Basin States, in response to the Clean 
Water Act of 1972, formed the Colorado River Basin Salinity Control 
Forum (Forum), a body comprised of gubernatorial representatives from 
the seven states. The Forum was created to provide for interstate 
cooperation in response to the Clean Water Act and to provide the 
states with information necessary to comply with Sections 303(a) and 
(b) of the Act. The Forum has become the primary means for the Basin 
States to coordinate with Federal agencies and Congress to support the 
implementation of the salinity control program for the Colorado River 
Basin.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. This authorized the Secretary of 
the Interior to initiate the Program, and it created the Colorado River 
Basin Salinity Control Advisory Council representing the seven Basin 
States. This Federal advisory committee works closely with the Forum.
    Colorado River water is used by approximately 40 million people and 
irrigates approximately 4 million acres in the United States. Bureau of 
Reclamation studies show that quantified damages from Colorado River 
salinity to United States water users are about $295 million per year. 
Unquantified damages are greater. Reclamation's modeling indicates that 
the quantifiable damages would increase to $523 million per year by 
2030 if the Program is not continued. Control of salinity is necessary 
for the states of the Colorado River Basin, including New Mexico, to 
continue to develop their compact-apportioned waters of the Colorado 
River.
    Timely appropriations for the funding of the salinity control 
program are essential to comply with the water quality standards for 
salinity, prevent unnecessary economic damages in the United States, 
and protect the quality of the water that the United States is 
obligated to deliver to Mexico. The Basin States and Federal agencies 
agree that increases in the salinity of the Colorado River will result 
in significant increases in damages to water users in the Lower 
Colorado River Basin. Continued strong support and adequate funding of 
the salinity control program is required to control salinity-related 
damages in the United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20), creating Reclamation's Basinwide 
Program. The Basinwide Program has proven to be cost-effective, and the 
Basin States are standing ready with up-front cost-sharing. Proposals 
from public and private sector entities in response to Reclamation's 
requests for proposals and funding opportunity announcements have far 
exceeded available funding appropriated in recent years. The Basin 
States' cost-sharing adds 43 cents for each Federal dollar 
appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and cost-sharing available from the Basin 
States, it is important that the salinity control program be funded at 
the level requested by the Forum and Basin States to protect the water 
quality of the Colorado River. Some of the most cost-effective salinity 
control opportunities occur when Reclamation improves irrigation 
delivery systems concurrently with on-farm irrigation improvements 
undertaken by the U.S. Department of Agriculture's Environmental 
Quality Incentives Program (EQIP). The Basin States cost-share funding 
is available for both on-farm and off-farm improvements. The EQIP 
funding appears to be adequate to accomplish the on-farm work. Adequate 
funding for Reclamation's off-farm work is needed to maintain timely 
implementation and effectiveness of salinity control measures.
    I urge the Congress to appropriate $17.3 million to the Bureau of 
Reclamation for the Colorado River Basin Salinity Control Program, plus 
adequate funding for operation and maintenance of existing projects and 
adequate funding to identify new salinity control opportunities. This 
investment in water quality will pay for itself many times over. Also, 
I fully support testimony by the Forum's Executive Director, Don 
Barnett, in request of this appropriation.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe
    Dear Chairman Feinstein and Senator Alexander: On behalf of the 
Southern Ute Indian Tribe, I am writing to request your support for an 
appropriation for fiscal year 2015 of $5,050,000 to the Bureau of 
Reclamation within the budget line item entitled ``Endangered Species 
Recovery Implementation Program'' for the Upper Colorado Region, 
consistent with the President's recommended budget. Substantial non-
Federal cost-sharing funding is occurring pursuant to Public Law 106-
392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful, ongoing, 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, the Southern Ute Indian Tribe, the Ute 
Mountain Ute Indian Tribe, the Navajo Nation, the Jicarilla Apache 
Nation, Federal agencies and water, power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. The Tribe thanks you for the Subcommittee's past support and 
requests the Subcommittee's assistance for fiscal year 2015 funding to 
ensure the Bureau of Reclamation's continuing financial participation 
in these vitally important programs.

    [This statement was submitted by James M. Olguin, Chairman.]
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District
    Dear Chairman Feinstein and Senator Alexander: The Southwestern 
Water Conservation District was established by the Colorado legislature 
to conserve and protect the waters of the San Juan and Dolores Rivers 
and their tributaries.
    Following this mandate, I request your support for an appropriation 
for fiscal year 2015 of $5,050,000 to the Bureau of Reclamation within 
the budget line item entitled ``Endangered Species Recovery 
Implementation Program'' for the Upper Colorado Region, consistent with 
the President's recommended budget. Substantial non-Federal cost-
sharing funding is occurring pursuant to Public Law 106-392, as 
amended. This appropriation will allow continued funding in fiscal year 
2015 for the Upper Colorado River Endangered Fish Recovery Program and 
the San Juan River Basin Recovery Implementation Program as authorized 
by Public Law 106-392. These two successful ongoing cooperative 
partnership programs involve the States of Colorado, New Mexico, Utah 
and Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests.
    The requested Nation appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. On behalf of the District board, I thank you for the 
Subcommittee's past support and request the Subcommittee's assistance 
for fiscal year 2015 funding to ensure the Bureau of Reclamation's 
continuing financial participation in these vitally important programs.

    [This statement was submitted by Bruce Whitehead, Executive 
Director.]
                                 ______
                                 
             Prepared Statement of the State of New Mexico
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Scott A. Verhines, P.E., New 
Mexico State Engineer.]
                                 ______
                                 
           Prepared Statement of the Town of Baldwin, Florida
    This outside witness testimony is being submitted by the Town of 
Baldwin, Florida to the U.S. Senate Subcommittee on Energy and Water 
Development for consideration of fiscal year 2015 appropriations within 
the U.S. Department of Energy, U.S. Army Corps of Engineers and/or U.S. 
Bureau of Reclamation in the amount of $1,000,000.
                          i. project synopsis
    The Town of Baldwin is presently under an Florida Department of 
Environmental Protection (FDEP) Administrative Order (AO 160 NE) that 
calls for an investigation and monitoring of the effluent wastewater 
discharge at the Baldwin Waste Water Treatment Facility (WWTF), as FDEP 
does not have reasonable assurance the discharge will meet the State of 
Florida's numeric nutrient criteria (NNC). Because the WWTF will not 
likely meet these NNC requirements, the town will look to completely 
eliminate all effluent surface water discharge.
    This project aims to eliminate the WWTF surface water discharge by 
piping reclaimed/reuse water from the WWTF to the Brandy Branch 
Generating Station owned and operated by the Jacksonville Electric 
Authority (JEA) for use as cooling water. Approximately 0.25 MGD AADF 
of wastewater effluent will be reused, resulting in the complete 
elimination of surface water discharge into the unnamed ditch that 
flows to Deep Creek. The Brandy Branch Generating Station currently 
uses up to 1.0 MGD of groundwater for cooling water, and this project 
would reduce JEA's groundwater withdrawals by 0.25 MGD.
                         ii. project evaluation
    JEA owns and operates the Brandy Branch Generating Station which is 
located east of Baldwin. This facility is a gas-fired power plant which 
utilizes 1.0 to 1.5 MGD of groundwater for cooling purposes, which far 
exceeds the Baldwin WWTF average day design flow of 0.4 MGD and maximum 
day design flow of 0.8 MGD. Discussions with JEA representatives have 
indicated that they would be willing to accept the WWTF effluent for 
use as cooling water. The facility typically only utilizes cooling 
water during daylight hours. Effluent would be discharged at the base 
of existing cooling towers which are located approximately 7 ft. above 
grade. The facility has no onsite storage. Currently, the facility 
utilizes Floridan Aquifer wells to supply 100 percent of their cooling 
water needs. This alternative would have the added benefit of reducing 
groundwater withdrawals, in addition to eliminating a surface water 
discharge.
    The following facilities would be required to convey reclaimed 
water to the Brandy Branch Generating Station: (1) effluent transfer 
pump station to pump reclaimed water into an onsite ground storage 
tank; (2) 1.25 MG domed-top ground storage tank at the WWTF site; (3) 
two high service pumps with VFDs; (4) 19,000 LF of 10-inch force main 
to convey reclaimed water to Brandy Branch Generating Station; (5) two 
jack & bores of the CSX railroad and two directional drills; (6) yard 
piping; (7) sitework and; (8) electrical/instrumentation.
    Operation of the transfer pumps would be liquid level controlled. 
Operation of the high service pumps would be flow and/or pressure 
controlled. The high service pumps would shut off upon encountering 
high pressure resulting from a closed valve at the Brandy Branch 
Generating Station. The ground storage tank would be equipped with an 
overflow discharging to the existing surface water outfall in the event 
that the tank filled to capacity. It is anticipated that an emergency 
discharge to the surface water outfall would have to be maintained for 
those infrequent events when the generating station was not taking 
cooling water for maintenance reasons. No new treatment facilities 
would be required at the Baldwin WWTF, only storage and pumping 
facilities.
A. Technical Feasibility
    This project is technically feasible. Further evaluation of 
effluent quality by JEA will be necessary to see what effects the 
blending with groundwater may have on their facilities. Also, control 
logic for the high service pumps will need to be developed to coincide 
with JEA's operational requirements.
B. Design Criteria
    Design criteria for the proposed facilities are summarized in Table 
B-1, as follows:

                       TABLE B-1--DESIGN CRITERIA
 
------------------------------------------------------------------------
Effluent Transfer Pump Station
    Type..................................  Submersible
    Number................................  2
    Design Point..........................  700 gpm @ 40 ft. TDH
    Horsepower............................  20 HP
Effluent Ground Storage Tank
    Type..................................  Domed-Top Circular Pre-
                                             Stressed
    Number................................  1
    Effective Capacity....................  1.25 MG
    Diameter..............................  93 ft.
    Height................................  25 ft.
High Service Pumps
    Type..................................  Self-Priming
    Number................................  2
    Design Point..........................  833 gpm @ 80 ft. TDH
    Horsepower............................  40 HP
Effluent Force Main
    Size..................................  10 in.
    Length................................  19,000 LF
    Material..............................  PVC
 
------------------------------------------------------------------------
 


C. Environmental Impact
    This project would have significant positive effects on the 
environment. It would result in the elimination of a surface water 
discharge, thereby improving the water quality of the receiving stream. 
It would also result in the reduction of groundwater withdrawals at the 
generating station, thereby conserving precious groundwater. The only 
potential deleterious effect would be that an emergency discharge to 
the existing outfall would need to be maintained for those infrequent 
times that the generating station was not taking reclaimed water. It is 
anticipated that the emergency discharge would be needed for less than 
two weeks per year.
D. Economic Evaluation
    An economic evaluation of this project has been conducted, to 
include estimated capital costs, operation and maintenance costs, and 
present worth analysis.
            1. Capital Cost
    The capital cost for this project has been developed utilizing bid 
pricing from similar work, manufacturers price quotes, and engineering 
judgment. All costs presented are in 2014 U.S. dollars. A construction 
contingency of 10 percent and non-construction costs of 15 percent will 
be included. The capital cost for the proposed project is summarized in 
Table D-1, as follows:

         TABLE D-1--ENGINEER'S OPINION OF PROBABLE PROJECT COST
------------------------------------------------------------------------
                                                              Estimated
                        Description                              Cost
------------------------------------------------------------------------
a. Mobilization and General Conditions.....................     $100,000
b. Effluent Transfer Pump Station..........................      150,000
c. Effluent Storage Tank (1.25 MG).........................      750,000
d. Reuse High Service Pumps................................      100,000
e. Yard Piping.............................................      100,000
f. Sitework................................................       50,000
g. Electrical/Instrumentation..............................      150,000
h. 19,000 LF of 10 in. Reuse Main..........................      950,000
i. Two (2) Jack & Bore of CSX Railroad.....................      100,000
j. Two (2) Directional Drills of 12 in. HDPE...............       50,000
                                                            ------------
      Subtotal--Estimated Construction Cost................    2,500,000
Construction Contingency (10 percent)......................      250,000
                                                            ------------
      Total--Estimated Construction Cost...................    2,750,000
Estimated Non-Construction Cost............................      412,000
                                                            ------------
      Total--Estimated Capital Cost........................    3,162,000
------------------------------------------------------------------------

            2. O&M Cost
    An annual O&M cost for this project will be developed, assuming the 
following: current average daily WWTF flow of 0.25 MGD; power costs of 
$0.10/kWh; equipment maintenance costs equivalent to 3 percent of 
equipment capital cost, and; pipe and tank maintenance costs equivalent 
to 0.2 percent of capital cost. Labor costs are assumed to remain the 
same as existing as this alternative will not require increased 
staffing. The O&M cost for the proposed project is summarized in Table 
D-2, as follows:

                  TABLE D-2--PROJECTED ANNUAL O&M COSTS
------------------------------------------------------------------------
                                                              Projected
                        Description                          Annual Cost
------------------------------------------------------------------------
Power......................................................       $7,100
Equipment Maintenance......................................        7,500
Tank & Pipeline Maintenance................................        3,400
                                                            ------------
      Total--Projected Annual O&M Cost.....................       18,000
------------------------------------------------------------------------

            3. Present Worth Analysis
    A present worth analysis of the alternative will be performed, 
taking into account the estimated capital cost, projected O&M cost, and 
salvage value. The 2013 EPA discount rate of 4.125 percent will be used 
in determining the present worth of the corresponding O&M costs and 
salvage value of the alternative. A period of analysis of 20 years will 
be utilized.

    (P/A, 4.125 percent, 20 yrs) = 13.44
    (P/F, 4.125 percent, 20 yrs) = 0.446

  --i. Estimated Capital Cost
      $3,162,000
      Present Value = ($3,162,000)

  --ii. Projected O&M Cost
      $18,000
      Present Value = ($18,000) x 13.44 = ($241,900)

  --iii. Salvage Value
      Piping (50 yrs.) = $1,200,000 x 0.446 x (50 yrs.--20 yrs.)/50 
        yrs. = $321,100
      Structures (30 yrs.) = $825,000 x 0.446 x (30 yrs.--20 yrs.)/30 
        yrs. = $122,700
      Equipment (20 yrs.) = $425,000 x 0.446 x (20 yrs.--20 yrs.)/20 
        yrs. = $0
      Present Value = $443,800

  --iv. Total Present Worth
      ($3,162,000) + ($241,900) + $443,800 = ($2,960,100)

    [This statement was submitted by Mayor Stan Totman.]
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Mike Berry, General Manager.]
                                 ______
                                 
         Prepared Statement of the Utah Water Users Association
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Carly B. Burton, Carly B. Burton, 
Executive Director.]
                                 ______
                                 
            Prepared Statement of the Ute Mountain Ute Tribe
    Dear Chairman Feinstein and Senator Alexander: I request your 
support for an appropriation for fiscal year 2015 of $5,050,000 to the 
Bureau of Reclamation within the budget line item entitled ``Endangered 
Species Recovery Implementation Program'' for the Upper Colorado 
Region, consistent with the President's recommended budget. Substantial 
non-Federal cost-sharing funding is occurring pursuant to Public Law 
106-392, as amended. This appropriation will allow continued funding in 
fiscal year 2015 for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program as 
authorized by Public Law 106-392. These two successful ongoing 
cooperative partnership programs involve the States of Colorado, New 
Mexico, Utah and Wyoming, Indian tribes, Federal agencies and water, 
power and environmental interests.
    The requested Federal appropriations are critically important to 
these efforts moving forward. The past support of your Subcommittee has 
greatly facilitated the success of these multi-State, multi-agency 
programs. I thank you for the Subcommittee's past support and request 
the Subcommittee's assistance for fiscal year 2015 funding to ensure 
the Bureau of Reclamation's continuing financial participation in these 
vitally important programs.

    [This statement was submitted by Manuel Heart, Tribal Chairman.]
                                 ______
                                 
   Prepared Statement of the Western States Water Council and Native 
                          American Rights Fund
                            i. introduction
    The Western States Water Council (WSWC) and the Native American 
Rights Fund (NARF) submit the following joint testimony in support of 
adequate funding for the Bureau of Reclamation to carry out its 
responsibilities in support of Indian water rights settlements.\1\ This 
testimony is based on WSWC Policy Resolutions No. 333 \2\ and No. 
336.\3\
---------------------------------------------------------------------------
    \1\ The WSWC is a non-partisan government entity created by western 
Governors, which is affiliated with Western Governors' Association and 
advises the Governors of eighteen western States on water policy 
matters. NARF is a non-profit 501c(3) organization that provides legal 
representation and technical assistance to Indian tribes.
    \2\ Available at: http://www.westgov.org/wswc/-
333%20reclamation%20fund%202011july29.pdf.
    \3\ Available at: http://www.westgov.org/wswc/-
336%20indian%20water%20rights%20settlements
%207oct2011.pdf.
---------------------------------------------------------------------------
    For three decades, the WSWC and NARF have worked together to 
support the negotiated settlement of Indian water rights claims. Our 
organizations believe there is a need to quantify Indian water rights, 
that negotiated settlements are preferable to litigation as a means of 
quantifying those rights, and that the Federal Government should 
encourage and facilitate settlements. As discussed below, Reclamation 
plays a key role in the settlement process.
         ii. prior appropriation and indian water right claims
    The doctrine of prior appropriation governs the allocation of water 
in most western States. Under this system, the first parties to 
physically divert and put water to a ``beneficial use'' have priority 
over subsequent water users. Thus, senior water right holders with 
earlier priority dates (the date the water was first put to beneficial 
use) can seek curtailment of uses with junior priority dates in times 
of shortage.
    Most non-Indian water development in the West occurred after the 
Federal Government finalized treaties and executive orders to establish 
reservations for tribes, and after Congress severed land and water 
rights in the West and directed that water rights be obtained under 
State law. Most tribal treaties and executive orders creating Indian 
reservations did not specify the tribes' water rights. The U.S. Supreme 
Court addressed the resulting conflict in Winters v. United States, 207 
U.S. 564 (1908), finding that tribal treaties and executive orders 
impliedly reserved water rights necessary to meet the purpose of a 
tribe's reservation. These reserved rights differ from State-issued 
water rights because they: (1) arise independently of beneficial use; 
(2) are not limited by beneficial use; (3) are measured by present and 
future supplies needed to fulfill the reservation's purpose instead of 
past uses; and (4) have priority dates that correspond to the date the 
Federal Government created the tribe's reservation.
          iii. the need to resolve tribal water rights claims
    Resolving Indian water rights claims is critical for western 
States, because tribal rights typically have priority dates that are 
senior to non-Indian uses, and therefore have the potential to displace 
established State-issued rights. Quantifying these rights is essential 
for western States to address increasing water demands related to the 
West's growing population, and to allocate water supplies that are even 
more scarce due to drought, reduced snowpacks, and other factors.
    At the same time, tribes often lack the resources to develop their 
water rights. This lack of a reliable water supply and related 
infrastructure throughout Indian Country sometimes prevents tribes from 
protecting the health, welfare, and safety of their communities. The 
absence of adequate and reliable potable water supplies also 
contributes towards unemployment, poverty, and mortality rates on 
reservations that are much higher than those of non-Indian communities.
    Settlements are the preferred manner of resolving tribal water 
rights claims because they: (1) enable tribes to turn quantified rights 
into ``wet water,'' while litigation typically provides tribes with 
``paper rights'' only; (2) enable tribes and non-Indian parties to 
craft mutually-beneficial solutions tailored to their specific needs; 
(3) are often less costly and time-consuming than litigation, which can 
last for decades and be extremely expensive for all parties; (4) give 
States and tribes control over the resolution of water rights claims; 
and (5) build positive relationships between States, tribes, and the 
Federal Government, which are essential because water is a shared 
resource that all parties must cooperatively manage after adjudication.
iv. the role of the federal government and the bureau of reclamation in 
                              settlements
    The Federal Government holds Indian water rights in trust for the 
tribes and is joined in all water rights adjudications involving 
tribes. This means that the Federal Government has both a fiduciary 
duty to protect tribal water rights and a responsibility (particularly 
the Department of the Interior) to help tribes adjudicate their rights 
and ensure that settlements are funded and implemented. It also means 
that Congress and the President must approve each settlement.
A. Reclamation's Role in the Settlement Negotiation Process
    The Federal Government has long supported a policy of resolving 
Indian water rights claims through negotiation rather than litigation. 
To this end, the Department of the Interior's Indian Water Rights 
Settlement Program facilitates Federal involvement in the settlement 
process. The Secretary of the Interior's Indian Water Rights Office 
leads this program.
    Under this program, Interior provides Federal negotiation and 
implementation teams to work with tribes and other parties in all 
phases of the settlement process. These teams, which consist of 
representatives from Reclamation and agencies and bureaus within 
Interior and other Federal departments, provide a unified Federal voice 
that helps further the settlement process. Reclamation currently 
provides representatives for 18 negotiation teams and 20 implementation 
teams, as well as monetary, personnel, and technical support for 
Interior's settlement program.\4\ Many tribes rely on these Federal 
teams and Reclamation's technical assistance to participate in the 
settlement process, a matter of crucial importance for the States as 
well. However, the legitimate need for these teams far outstrips the 
number of teams available.
---------------------------------------------------------------------------
    \4\ Budget Justifications of the U.S. Department of the Interior 
and Performance Information for fiscal year 2015: Bureau of 
Reclamation, Bureauwides--9 and 36, available at: http://www.doi.gov/
budget/upload/fiscal year 2015_Reclamation_Greenbok.pdf.
---------------------------------------------------------------------------
    Appropriating insufficient funds for these purposes hinders the 
adjudication of tribal water right claims. Therefore, Congress should 
ensure that Reclamation receives sufficient appropriations to carry out 
its responsibilities under Interior's water rights settlement program.
B. Reclamation's Role in Implementing Settlements
    Tribes often have significant breach of trust claims against the 
Federal Government for failing to protect their water rights. At the 
same time, many tribal water rights claims in the arid West involve 
fully-appropriated stream systems. To address these issues, tribes will 
often waive their breach of trust claims against the Federal Government 
as well as a portion of their claimed water rights in consideration for 
Federal funding to build needed drinking water infrastructure, water 
supply projects, and tribal fishery restoration projects. These 
projects generally enable tribal and non-tribal water users to use 
existing water supplies more efficiently and advantageously and do not 
take water from existing non-Indian water users. Without Federal 
funding to build these projects, settlements are simply not possible in 
many cases.
    Reclamation has been charged with designing and constructing many 
of these water infrastructure projects. Insufficient appropriations for 
related Reclamation's construction activities could delay the 
completion of these projects, resulting in higher costs for Federal 
taxpayers and potentially jeopardizing the viability of the underlying 
settlements, again exposing the Federal Government to breach of trust 
responsibilities.
    Although Congressionally-authorized settlements are receiving 
funding, securing adequate funding for water infrastructure projects 
and other settlement components continues to be a significant 
challenge. This is due, in part, to current budgetary polices that 
require water rights settlement funding to be offset by a corresponding 
reduction in some other discretionary program. Such a policy makes it 
difficult for the Administration, States, and tribes to negotiate 
settlements knowing that funding is uncertain or may only occur at the 
expense of some other tribal or essential Interior program. Congress 
should ensure that authorized settlements receive sufficient 
appropriations without corresponding offsets from other Interior 
programs.
                        v. the reclamation fund
    The WSWC and NARF support using the Reclamation Fund to provide 
funding for authorized settlements. Congress created the Fund as part 
of the Reclamation Act of 1902 to finance Federal water and power 
projects in the 17 western States.\5\ The Fund's receipts are derived 
from water and power sales, project repayments, and receipts from 
public land sales and leases in the 17 western States, as well as oil 
and gas and mineral-leasing related royalties. However, these receipts 
are only available for expenditure pursuant to annual appropriations 
acts. Over the years, rising energy prices and declining Federal 
appropriations from the Fund for Reclamation purposes have resulted in 
a large unobligated balance that is expected to total $14.3 billion by 
the end of fiscal year 2015.\6\ Contrary to Congress' original intent, 
much of the unobligated balance is being used to support other Federal 
purposes instead of western water development.
---------------------------------------------------------------------------
    \5\ Reclamation Act, Public Law 57-161, 32 Stat, 388 (1902).
    \6\ THE APPENDIX, BUDGET OF THE UNITED STATES GOVERNMENT, FISCAL 
YEAR 2015, 655 (March 2014), http://www.whitehouse.gov/sites/default/
files/omb/budget/fy2015/assets/int.pdf.
---------------------------------------------------------------------------
    Title X of the Omnibus Public Lands Management Act of 2009 expanded 
the Fund's authorized uses by establishing a Reclamation Water 
Settlements Fund (RWSF) in the U.S. Treasury to finance Reclamation 
projects that are part of Congressionally-authorized settlements. 
Beginning in 2020, the RWSF will receive up to $120 million per year 
from Fund transfers, which are prioritized for settlements in New 
Mexico, Montana, and Arizona.\7\ A significant gap in funding remains 
for projects associated with authorized settlements, the costs of which 
may increase significantly by fiscal year 2020. In addition, Congress 
only authorized the RWSF to be funded for 10 years, and authorized 
disbursements from the RWSF only through 2034.
---------------------------------------------------------------------------
    \7\ Omnibus Public Lands Management Act, Public Law No. 111-11, 123 
Stat. 991 (2009).
---------------------------------------------------------------------------
    Congress should use receipts that accrue to the Reclamation Fund to 
provide funding for Reclamation to undertake project construction 
related to authorized settlements. Congress should also make the RWSF 
permanent.
            vi. the consequences of not funding settlements
    If settlements are not authorized and funded, tribes may have no 
choice but to litigate their water claims. This is problematic because 
it may give them ``paper rights,'' but may not provide them with a way 
of turning those rights into ``wet water.'' Litigated outcomes could 
also provide tribes with senior water rights that could displace many 
established State-issued water rights that are essential to meet non-
Indian industrial, residential, and municipal needs in the West. In 
addition, postponing the implementation of Indian water rights 
settlements will be more expensive for the Federal Government in the 
long-run because increasing water demands, decreasing water supplies, 
and other factors will increase the costs of resolving these claims.
                            vii. conclusion
    The Federal obligation to fund settlements is analogous to, and no 
less serious than, the United States' obligation to pay judgments 
rendered against it. Postponing this obligation only increases Federal 
costs, perpetuates hardships to tribes, and prolongs resolution of 
conflicts between reserved water rights and State-created water rights, 
potentially disrupting established economies and hindering effective 
State and regional water planning and development.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
